<html>
<title> - DEPARTMENT OF ENERGY'S PLAN FOR CLIMATE CHANGE TECHNOLOGY PROGRAMS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                    DEPARTMENT OF ENERGY'S PLAN FOR
                   CLIMATE CHANGE TECHNOLOGY PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2006

                               __________

                           Serial No. 109-62

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
29-851                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM MATHESON, Utah
TOM FEENEY, Florida                  JIM COSTA, California
RANDY NEUGEBAUER, Texas              AL GREEN, Texas
BOB INGLIS, South Carolina           CHARLIE MELANCON, Louisiana
DAVE G. REICHERT, Washington         DENNIS MOORE, Kansas
MICHAEL E. SODREL, Indiana           DORIS MATSUI, California
JOHN J.H. ``JOE'' SCHWARZ, Michigan
MICHAEL T. MCCAUL, Texas
MARIO DIAZ-BALART, Florida
                                 ------                                

                         Subcommittee on Energy

                     JUDY BIGGERT, Illinois, Chair
RALPH M. HALL, Texas                 MICHAEL M. HONDA, California
CURT WELDON, Pennsylvania            LYNN C. WOOLSEY, California
ROSCOE G. BARTLETT, Maryland         LINCOLN DAVIS, Tennessee
VERNON J. EHLERS, Michigan           JERRY F. COSTELLO, Illinois
W. TODD AKIN, Missouri               EDDIE BERNICE JOHNSON, Texas
JO BONNER, Alabama                   DANIEL LIPINSKI, Illinois
RANDY NEUGEBAUER, Texas              JIM MATHESON, Utah
BOB INGLIS, South Carolina           SHEILA JACKSON LEE, Texas
DAVE G. REICHERT, Washington         BRAD SHERMAN, California
MICHAEL E. SODREL, Indiana           AL GREEN, Texas
JOHN J.H. ``JOE'' SCHWARZ, Michigan      
SHERWOOD L. BOEHLERT, New York       BART GORDON, Tennessee
               DAHLIA SOKOLOV Subcommittee Staff Director
            CHRIS KING Democratic Professional Staff Member
                    MIKE HOLLAND Chairman's Designee
                     COLIN HUBBELL Staff Assistant


                            C O N T E N T S

                           September 20, 2006

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Judy Biggert, Chairman, Subcommittee 
  on Energy, Committee on Science, U.S. House of Representatives.    14
    Written Statement............................................    16

Statement by Representative Michael M. Honda, Ranking Minority 
  Member, Subcommittee on Energy, Committee on Science, U.S. 
  House of Representatives.......................................    17
    Written Statement............................................    18

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy, Committee on Science, U.S. House of 
  Representatives................................................    19

                               Witnesses:

Mr. Stephen Eule, Director of U.S. Climate Change Technology 
  Program, Department of Energy
    Oral Statement...............................................    20
    Written Statement............................................    22
    Biography....................................................    34

Ms. Judith M. Greenwald, Director of Innovative Solutions, Pew 
  Center on Global Climate Change
    Oral Statement...............................................    34
    Written Statement............................................    36
    Biography....................................................    39
    Financial Disclosure.........................................    40

Mr. Chris Mottershead, Distinguished Advisor on Energy and the 
  Environment, BP
    Oral Statement...............................................    41
    Written Statement............................................    41
    Biography....................................................    43

Dr. Martin I. Hoffert, Emeritus Professor of Physics, New York 
  University
    Oral Statement...............................................    43
    Written Statement............................................    46
    Biography....................................................    59

Discussion.......................................................    59

             Appendix 1: Answers to Post-Hearing Questions

Mr. Stephen Eule, Director of U.S. Climate Change Technology 
  Program, Department of Energy..................................    80

Ms. Judith M. Greenwald, Director of Innovative Solutions, Pew 
  Center on Global Climate Change................................    87

Dr. Martin I. Hoffert, Emeritus Professor of Physics, New York 
  University.....................................................    89

             Appendix 2: Additional Material for the Record

Statement of United Technologies Corporation.....................    98

Statement of Dr. Daniel Kammen, Director, Renewable and 
  Appropriate Energy Laboratory, University of California, 
  Berkeley.......................................................   103

The Rise of Renewable Energy by Daniel M. Kammen.................   123


   DEPARTMENT OF ENERGY'S PLAN FOR CLIMATE CHANGE TECHNOLOGY PROGRAMS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 20, 2006

                  House of Representatives,
                            Subcommittee on Energy,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Judy 
Biggert [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            HEARING CHARTER

                         SUBCOMMITTEE ON ENERGY

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                    Department of Energy's Plan for

                   Climate Change Technology Programs

                     wednesday, september 20, 2006
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On September 20, 2006 at 2:00 p.m., the Energy Subcommittee of the 
House Science Committee will hold a hearing to examine the 
Administration's Climate Change Technology\1\ Program's (CCTP) 
Strategic Plan.\2\ The hearing is designed to review the plan and the 
CCTP in the light of the Administration's own stated goals for the 
program and for action on climate change. The final strategic plan (a 
revision of the draft plan released last September) will be released at 
the hearing.
---------------------------------------------------------------------------
    \1\ Climate change technologies reduce or avoid emissions of 
greenhouse gases, such as carbon dioxide (CO<INF>2</INF>), methane, 
nitrous oxide, and fluorinated compounds.
    \2\ U.S. Climate Change Technology Program, U.S. Climate Change 
Technology Program Strategic Plan--Draft for Public Comment, (September 
2005). See: http://www.climatetechnology.gov/stratplan/draft/CCTP-
SratPlan-Sept-2005.pdf
---------------------------------------------------------------------------

2. Witnesses

Mr. Stephen Eule is the Director of the U.S. Climate Change Technology 
Program at the Department of Energy.

Ms. Judi Greenwald is the Director of Innovative Solutions for the Pew 
Center on Global Climate Change.

Dr. Martin Hoffert is an Emeritus Professor of Physics at New York 
University.

Mr. Chris Mottershead is a Distinguished Advisor on Energy and the 
Environment at BP. He is also a Director of the Carbon Trust in the 
United Kingdom and the Center for Clean Air Policy in the United 
States.

3. Overarching Questions

    The hearing will address the following overarching questions:

        <bullet>  Does the CCTP draft strategic plan provide a clear 
        blueprint for future federal investments in climate change 
        technologies? What program priorities are specified in the CCTP 
        plan?

        <bullet>  To what extent will the CCTP plan enable the United 
        States to achieve the Administration's stated goal of cutting 
        greenhouse gas intensity by 18 percent over the 2002 to 2012 
        timeframe? Does the plan set or assume a stabilization level 
        for concentration of atmospheric carbon dioxide?

        <bullet>  How could the CCTP plan be improved? What next steps 
        are needed to implement a clear climate change technology 
        strategy?

4. Brief Overview

        <bullet>  On June 11, 2001, President Bush announced the 
        establishment of CCTP, a multi-agency research and development 
        (R&D) coordination activity led by the Department of Energy 
        (DOE), to focus R&D activities more effectively on the 
        President's near- and long-term climate change goals. At the 
        same time, the President established an interagency Climate 
        Change Science Program (CCSP), led by the Department of 
        Commerce, to coordinate scientific research. According to the 
        Strategic Plan, the Federal Government will spend about $2.8 
        billion on CCTP in Fiscal Year (FY) 2006 in nine agencies. The 
        FY07 request is close to $3 billion. (See Appendix II.)

        <bullet>  On November 21, 2002, the Secretary of Energy 
        established a CCTP office to provide staff and technical 
        support for CCTP coordination and planning activities.

        <bullet>  In 2002, Under Secretary of Energy Robert Card 
        indicated that DOE was developing a draft strategic plan for 
        CCTP that would be released to the public by July, 2002. The 
        plan would define the role for advanced technology in 
        addressing climate change, establish a framework to guide R&D 
        investment decisions for federal agencies involved in climate 
        technology development, and identify steps toward 
        implementation of the Administration's climate change program 
        goals. (CSSP began a similar process and released a draft plan 
        in November, 2002.)

        <bullet>  The CCTP draft plan was not released for public 
        comment until September, 2005. Approximately 30 individuals and 
        organizations (individual scientists, companies, consultants 
        and interest groups) commented on the draft strategic plan, and 
        their comments are posted on the CCTP website.\3\ (A list of 
        those commenting is Appendix III.) DOE reviewed the comments as 
        part of its process of completing a final strategic plan. The 
        final plan, which was delivered to the Committee on the 
        afternoon of Sept. 19, will be released at the hearing. At 
        first glance, the final plan does not seem to eliminate the 
        concerns expressed by the commenters, but rather ``fine tunes'' 
        the draft text.
---------------------------------------------------------------------------
    \3\ See: http://www.climatetechnology.gov/stratplan/comments/
index.htm

        <bullet>  In general, commenters were critical of the 
        approximately 200-page draft strategic plan, suggesting that it 
        was a description of currently ongoing activities that provided 
        relatively little guidance on how to direct federal climate 
        technology R&D activities more effectively toward achieving the 
        Administration's stated climate change program goals. Some 
        commenters did say that the plan provided a useful inventory of 
---------------------------------------------------------------------------
        existing efforts.

        <bullet>  In addition to the public comments, DOE organized a 
        series of workshops at Oak Ridge National Laboratory to review 
        the CCTP R&D portfolio. The workshops produced a May, 2006 
        report, ``Results of a Technical Review of the U.S. Climate 
        Change Technology Program's R&D Portfolio.'' \4\ The Technical 
        Review report included timelines for technology development, 
        identifies R&D priorities and gaps, and analyzed a subset of 
        the R&D portfolio in terms of the potential payoff compared to 
        the probability of technical success--elements that were not 
        included in the draft strategic plan.
---------------------------------------------------------------------------
    \4\ See: http://www.ornl.gov/sci/eere/PDFs/
CCTP<INF>-</INF>Wkshp<INF>-</INF>Rpt<INF>-</INF>6-28Final.pdf

5. Issues

Does the CCTP draft strategic plan provide a clear blueprint for future 
        federal investments in climate change technologies?
    Commenters on the plan generally believed that it did not provide a 
clear blueprint or a basis for making or evaluating funding or policy 
decisions. (Chairmen Boehlert and Biggert reached a similar conclusion. 
See their letter, Appendix I.)
    For each technology research area (e.g., nuclear energy), the plan 
discusses the potential role of technology, technology strategy, the 
current R&D portfolio and possible future research directions. The 
report also cites existing technology roadmaps and technical goals for 
some specific R&D programs.
    DOE officials have generally argued that they see the plan as 
having a narrower purpose than do the commenters. In the Foreword to 
the final version of the report, the goal of the strategic plan is 
described as providing ``a long-term planning context, taking into 
account the many uncertainties, in which the nature of both the 
challenges and the opportunities for advanced technologies are 
illuminated and balanced.'' However, the Foreword goes on to say that, 
along with other documents, the plan ``provides a basis for setting 
priorities through its technology strategy and investment criteria and 
it highlights those opportunities that are ripe for advancement.''
    But, commenters said, the strategy discussion is quite general. The 
commenters noted that the draft plan does not provide any criteria for 
evaluating individual technologies. (Possible criteria include 
technical risk, potential cost, ease of transition to 
commercialization, likelihood of acceptance by the marketplace, the 
balance of risk across alternate technical pathways, and the timing of 
market entry necessary to stabilize emissions profiles.)
    The commenters also complained that the draft plan does not provide 
criteria for allocating funding among CCTP programs and projects. 
(Possible criteria include the probability of technical success, the 
cost of adopting that technology, and the potential for market 
penetration.) In general, they said, the plan neither sets priorities 
nor adequately explains how priorities would be set. And while the plan 
cites existing timelines for some technology programs, it does not 
integrate them into an overall CCTP timeline.
    Commenters also observed that the draft plan is silent on how 
federal R&D investments will be coordinated with private research 
efforts. One commenter observed that the draft plan does not discuss 
the R&D effort in the context of the broad array of statutes that are 
relevant to the implementation of this plan. Each of these critiques 
calls into question whether the draft plan fulfills the 
Administration's intention of having the plan serve as a framework for 
agencies in formulating their climate change technology R&D portfolio.

How does the CCTP strategic plan relate to the Administration's 
        greenhouse gas emissions goals?
    On February 14, 2002, President Bush said, ``My Administration is 
committed to cutting our nation's greenhouse gas intensity--how much we 
emit per unit of economic activity--by 18 percent over the next 10 
years. This will set America on a path to slow the growth of our 
greenhouse gas emissions and, as science justifies, to stop and then 
reverse the growth of emissions.'' \5\ The Administration has not set a 
goal for limiting total U.S. greenhouse gas emissions or for a total 
greenhouse gas concentrations in the atmosphere. Critics note that it 
is the absolute concentration of gases in the atmosphere that may 
affect climate, and a reduction in greenhouse gas intensity will not 
necessarily result in a drop in total emissions. Moreover, they note 
that the Energy Information Administration, an independent arm of DOE, 
has estimated that greenhouse gas intensity would drop by 17 percent by 
2012 without any government intervention.
---------------------------------------------------------------------------
    \5\ Office of the Press Secretary, President Announces Clear Skies 
& Global Climate Change Initiatives (February 14, 2002). See: http://
www.whitehouse.gov/news/releases/2002/02/20020214-5.html.
---------------------------------------------------------------------------
    All that aside, the draft strategic plan does not relate any of its 
goals explicitly to the overall Administration goal of reducing 
greenhouse gas intensity. Moreover, some critics argue that it is hard 
to judge among R&D investments without knowing what level of greenhouse 
gas concentration one is trying to achieve over what time period.

What other gaps have been noted in the draft strategic plan?
    Commenters noted that the plan is virtually silent on the question 
of how to bring new technologies to the marketplace. They view this as 
a critical question because technology that is being purchased today 
will likely be in use for decades. In general, the plan is silent on 
policy questions.
    The plan also explicitly states that it does not deal with 
technologies for adapting to climate change (as opposed to technologies 
to try to limit climate change by reducing or sequestering emissions).
    Commenters have also argued that the plan doesn't adequately 
distinguish between technology development programs that would produce 
results in different time frames (short-, medium- and long-term). The 
commenters and technical reviewers came to diametrically opposed 
conclusions regarding which direction the draft plan was skewed. Many 
respondents during the public comment period expressed the view that 
the plan was too focused on long-term initiatives at the expense of 
short- to mid-term opportunities that could have a more immediate 
impact on reducing greenhouse gas emissions. Conversely, experts who 
participated in the Technical Review, who had greater access to the 
plan's supporting documentation, budget profiles and technology 
roadmaps, concluded that CCTP's R&D portfolio was much stronger in the 
near-term technology development than it was in providing direction for 
the mid- to long-term.
    The technical reviewers, in their May 2006 report, recommended 
greater emphasis on exploratory research addressing novel concepts to 
uncover breakthrough technology, enabling R&D, and integrative 
concepts. For example, R&D on enabling technology, such as 
nanotechnology, would focus resources on improving the performance of 
materials and subsystems that find application in a wide variety of 
energy production and use settings. Integrative R&D would focus 
resources on combining systems to provide unique advantages. These 
could include engineered urban planning for low greenhouse gas 
emissions, integrated waste management, and integration of plug-in 
hybrid electric vehicles with zero-emissions buildings.

How does CCTP relate to the Administration's existing climate change 
        technology programs?
    Since 2001, the Administration has undertaken a number of actions 
that can begin to reduce greenhouse gas emissions. Many of the 
Administration's signature R&D initiatives have tended to be longer-
term projects--the Hydrogen Fuel Initiative, FutureGen (clean coal 
power plant), and ITER (large-scale nuclear fusion experiment). Near-
term actions include the 2006 fuel economy increases for light trucks 
and voluntary action such as the Methane-to-Markets program and the 
Climate VISION Partnership, a voluntary registry for reporting 
greenhouse gas reductions, and targeted incentives for greenhouse gas 
sequestration. A June 30, 2005 White House fact sheet that outlined the 
President's climate change initiatives, as shown in the table below, 
includes a broad range of activities. (Italicized entries denote 
international partnerships).\6\
---------------------------------------------------------------------------
    \6\ The White House, Fact Sheet: President Bush Is Addressing 
Climate Change (June 30, 2005). See: www.whitehouse.gov/news/releases/
2005/06/20050630-16.html
---------------------------------------------------------------------------
    The public comments and the comments from the technical reviewers 
suggest that the draft strategic plan could better explain how the 
various activities--both R&D and other policy initiatives--are linked 
together to achieve stated national goals.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


How is the CCTP portfolio being managed, both within DOE and across 
        agencies?
    CCTP is a multi-agency planning and coordination activity with a 
CCTP Steering Group and six working groups. However, most of the 
activities in CCTP take place within DOE, which has historically 
struggled to coordinate efforts within the Department and to overcome 
``stovepiping,'' where different parts of an organization pursue 
different goals, fail to communicate well, or see other parts of the 
organization merely as competitors. It is not clear that DOE has solved 
this problem internally. For example, nuclear power has a prominent 
role in the CCTP plan because nuclear power plants do not emit 
greenhouse gases. However, the Office of Nuclear Energy and the Office 
of Civilian Radioactive Waste Management have continued to have trouble 
coordinating and making decisions about spent nuclear fuel, an issue 
important to both the current fleet of nuclear power plants and 
deployment of the next generation of plants.
    Beyond describing the basic functions of the various oversight and 
advisory committees, the draft strategic plan does not describe or 
address how CCTP will overcome stovepiping and other management 
challenges at DOE and across agencies, coordinate budgeting activities 
across agencies, or set priorities to avoid duplication. One commenter 
observed that non-DOE activities classified as part of the CCTP for 
funding purposes are not a part of the CCTP functions, nor are they 
included in the draft plan itself.

How does the plan deal with funding?
    The CCTP plan is silent on funding beyond listing funds requested 
for existing programs for FY07. It does not give any sense of whether 
more funding would be required to pursue the ``future research 
directions'' described in the plan.

Has the process for developing the strategic plan been sufficiently 
        open?
    DOE officials argue that they have heard from experts outside the 
government in developing the plan, citing the posting of the draft plan 
on the web, the posting and review of comments, and the workshop with 
technical experts.
    However, critics point out that this seems to be a less open and 
broad-based process than the CCSP has followed. The draft plan for CCSP 
was more broadly announced and the workshop on it was more open, and 
was attended by more than 1,300 participants. More than 900 pages of 
comments were received. In addition, the CCSP contracted with the 
National Academy of Sciences to review the draft plan.

6. Summary of Draft Strategic Plan for Climate Change Technology

    The strategic plan describes activities carried out in nine 
departments and agencies: the Departments of Agriculture, Commerce, 
Defense, Energy, Interior and Transportation, the Environmental 
Protection Agency, the National Aeronautics and Space Administration 
and the National Science Foundation. The Department of Health and Human 
Services, the Department of State and the Agency for International 
Development also participate in planning and coordination as members of 
the CCTP effort; however, their activities are not included in efforts 
funded under CCTP. DOE accounts for 87 percent of the $2.8 billion 
funding under the CCTP umbrella in fiscal year 2006.\7\
---------------------------------------------------------------------------
    \7\ Federal Climate Change Expenditures Report to Congress (April 
2006). See http://www.whitehouse.gov/omb/legislative/
fy07<INF>-</INF>climate<INF>-</INF>change.pdf
---------------------------------------------------------------------------
    The Administration's draft plan states that:

        <bullet>  the necessary cumulative emissions reductions 
        [worldwide] over the course of the century could be on the 
        order of 200 gigatons of carbon equivalents\8\ to 800 gigatons 
        of carbon equivalents (or more);
---------------------------------------------------------------------------
    \8\ Emissions of non-CO<INF>2</INF> greenhouse gases are usually 
converted to a common and roughly comparable measure of the 
``equivalent CO<INF>2</INF> emissions.'' This conversion weights actual 
emissions by each gas' global warming potential (GWP). GWP is the 
ability of a gas, compared to that of CO<INF>2</INF>, to trap heat in 
the atmosphere over a given timeframe. GWP values allow for a 
comparison of the impacts of emissions and reductions of different 
gases, although they typically have uncertainties of 35 percent. All 
non-CO<INF>2</INF> gases are compared to CO<INF>2</INF>, which has a 
GWP of one. Other greenhouse gases have GWPs, using a 100-year time 
horizon, ranging from 23 for methane to 22,200 for sulfur hexafluoride 
(SF<INF>6</INF>). (CCTP Draft Strategic Plan, p. 7-2).

        <bullet>  emissions reductions of that scale potentially could 
        be achieved through combinations of many different 
        technologies, so a diversified approach to technology R&D is 
---------------------------------------------------------------------------
        important;

        <bullet>  technologies with zero or near-net-zero greenhouse 
        gas emissions would need to be available and moving into the 
        marketplace many years before the emissions ``peaks'' occur in 
        [any of] the hypothetical greenhouse gas-constrained cases; and

        <bullet>  some new technologies may need to be commercially 
        ready for widespread implementation between 2020 and 2040, with 
        initial demonstrations between 2010 and 2030.\9\
---------------------------------------------------------------------------
    \9\ CTP Draft Strategic Plan, p. 3-28.
---------------------------------------------------------------------------
    It is against these concrete insights that the six goals of the 
strategic plan may be assessed. These goals, articulating what the 
Administration aims to accomplish with the strategy, are to:

        1.  reduce greenhouse gas emissions from energy end-use and 
        infrastructure;

        2.  reduce greenhouse gas emissions from energy supply;

        3.  capture and sequester CO<INF>2</INF>;

        4.  reduce emissions of non-CO<INF>2</INF> greenhouse gases;

        5.  improve capabilities to measure and monitor greenhouse gas 
        emissions; and

        6.  bolster basic science contributions to technology 
        development.

    The Administration proposes to implement the strategic plan using a 
combination of the following seven ``core approaches'':

        1.  strengthen climate change technology R&D;

        2.  strengthen basic research at universities and federal 
        research facilities;

        3.  enhance opportunities for partnerships;

        4.  increase international cooperation;

        5.  support cutting-edge technology demonstrations;

        6.  ensure a viable technology workforce of the future through 
        education and training; and

        7.  explore and provide, as appropriate, supporting technology 
        policy.

7. Witness Questions

Mr. Stephen Eule

        1.  How is the Administration using the Climate Change 
        Technology Program (CCTP) draft strategic plan in preparing 
        future budgets? Specifically, how will the plan enable the 
        Department of Energy (DOE) and the Administration to choose 
        among competing priorities and set funding requests?

        2.  Will the CCTP plan enable the Administration to meet its 
        goal of cutting greenhouse gas intensity by 18 percent by 2012? 
        If DOE were able to achieve the programmatic goals for all of 
        the technologies listed in the plan, how would the U.S. 
        emissions profile change in 15 years? In 25 years?

        3.  How can the Administration have a comprehensive and 
        effective CCTP plan without setting as a goal a specific 
        stabilization level for atmospheric concentration of carbon 
        dioxide and other greenhouse gases?

        4.  How do you respond to critics who argue that the plan is 
        simply a description of current activities at DOE rather than a 
        roadmap to help the Administration set priorities and make 
        choices among competing technologies?

Ms. Judi Greenwald, Dr. Martin Hoffert, and Mr. Chris Mottershead

        1.  What do you see as the key strengths and weaknesses of the 
        plan?

        2.  Will the Climate Change Technology Program (CCTP) enable 
        the Administration to meet its goal of cutting greenhouse gas 
        intensity by 18 percent by 2012? Does CCTP put the United 
        States on a path to stabilizing greenhouse gas emissions?

        3.  Does the CCTP draft strategic plan provide an integrated 
        framework of sound guidance, clear goals and next steps for 
        agencies and researchers to use when prioritizing and selecting 
        future research efforts? If so, please explain. If not, how 
        should the Administration set research and development 
        investment priorities among various climate change technologies 
        and CCTP agencies?

Appendix I

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairwoman Biggert. The hearing of the Energy Subcommittee 
of the Science Committee will come to order. I will recognize 
myself for an opening statement.
    I would like to welcome everybody to the hearing examining 
the Department of Energy's Strategic Plan for a Climate Change 
Technology Program. Our essential question at this point is was 
it worth the wait?
    Let me start by reviewing a bit of history here. On June 
11, 2001, President Bush announced two initiatives to address 
climate change. Those initiatives are now known as the Climate 
Change Technology Program, CCTP, and the Climate Change Science 
Program, CCSP. The Administration has said that these 
initiatives form the core of its policy to fulfill the U.S. 
commitment to stabilize greenhouse gas concentrations under the 
United Nations Framework Convention on Climate Change.
    The Administration's admirable work on the science program 
can serve as a model for how best to shape a research program 
so it delivers results. Beginning in July 2002, the Department 
of Commerce undertook the process of preparing a new ten year 
strategic plan for the CCSP. Science program managers engaged 
national and international stakeholders in a comprehensive 
review of research and observational systems needs. CCSP 
submitted its November 2002 draft plan to the National Academy 
of Sciences for review and to the public for comment. A 
December 2002 workshop attended by 1,300 scientists and other 
participants from 47 states and 36 nations facilitated 
extensive discussion and debate.
    By July 2003, the CCSP strategic plan was complete. This 
open and orderly progress--process established a research 
agenda that has been universally supported, and will fill the 
gaps in our knowledge and understanding of the Earth's climate.
    Today, the Commerce Department is executing its CCSP 
strategic plan. The first of 21 synthesis and assessment 
reports were released in May of this year, and just this week, 
the Secretary of Commerce announced a new federal advisory 
committee to provide advice as the remaining reports are 
developed.
    Why did I go into such great detail for the CCSP when the 
topic of our hearing today is CCTP? Because the thoughtful 
deliberation and open process the Administration employed to 
develop the CCSP gave Congress and others the confidence that 
the $1.7 billion program is on the right track. Can I say the 
same thing about the $2.9 billion dollar program, the 
technological program? Unfortunately, no. Compared to CCSP, the 
technology program appears stalled near the starting line.
    It is now September 2006, four years and two months after 
the deadline, former Department of Energy Under Secretary 
Robert Card set for release of the draft technology plan, and 
the revised plan is being released today. That is unacceptable, 
that this hearing should be examining progress in year three of 
that plan. Don't get me wrong. I strongly support the 
Administration's stated policy of addressing climate change 
through technology development. Technology investments are like 
an insurance policy against climate change. Supporting a 
diverse portfolio of climate change technologies such as energy 
efficiency, carbon sequestration, and carbon neutral energy 
technologies, including nuclear energy, will provide us with 
the most insurance coverage for the best price.
    We have a lot riding on this R&D portfolio. Not only are we 
relying on it to help reduce emissions of greenhouse gases, we 
need it to secure America's energy independence. As Chair of 
the Subcommittee with oversight responsible for nearly 90 
percent of the programs included in CCTP, I know that research 
and technology are, by and large, noncontroversial ways we can 
start addressing climate change now. That is why I am 
determined to see progress on this front.
    Since the July 2002 deadline for the release of the initial 
plan, the Administration has announced a whole series of energy 
technology research initiatives: the Hydrogen Fuel Initiative, 
the Global Nuclear Energy Partnership, the Fusion Experiment, 
ITER, and the Advanced Energy Initiatives. These are all great 
energy initiatives that I enthusiastically support.
    At the same time, in the absence of a rigorous, well 
vetted, comprehensive plan, Congress is left to figure out how 
and to what degree each of these technologies, individually and 
collectively, will contribute to achieving our climate change 
goals. This information is critical if Congress is to make 
informed decisions about how best to allocate technology 
development resources to address the problems of climate 
change.
    We want DOE to succeed. I think it would be terribly unfair 
to our children and grandchildren to leave the Earth in worse 
condition than in the way we received it. That is why the 
government, the research community, and industry must work 
together to develop technology solutions that make 
environmental and economic sense; but for such a collaborative 
effort to succeed, we need a solid game plan. I think my 
colleagues share that sentiment.
    We want FutureGen, GNEP, sequestration, and all the other 
climate change technologies to work and to work well. We have 
high expectations. We believe those expectations can be met 
with a clear strategic plan. With that, let us get down the 
business of today's hearing. Fundamentally, we want to know 
whether the strategic plan can be used to guide R&D investment 
decisions, and whether it will enable the United States to 
achieve the Administration's goals.
    Most importantly, I cannot stress this enough, we want to 
know how the CCTP plan and DOE's planning process can be 
improved, and I look forward to the discussion.
    I want to thank the witnesses for sharing their experiences 
with us today, particularly Professor Hoffert, who graciously 
agreed to our invitation to serve on this panel at a very late 
hour. We will make Professor Hoffert's written testimony 
available within a few days.
    Professor Dan Kammen of the University of California at 
Berkeley, originally scheduled as a witness, is not able to 
attend today due to a last minute scheduling conflict. I 
greatly appreciate his willingness to serve as a witness each 
time we tried to schedule this hearing in the past, and we will 
have his prepared testimony entered into the hearing record. 
Without objection.
    And with that, I will yield to my colleague, the Ranking 
Member of the Subcommittee, Mr. Honda from California.
    [The prepared statement of Chairman Biggert follows:]

              Prepared Statement of Chairman Judy Biggert

    The hearing will come to order. I want to welcome you to this 
Energy Subcommittee hearing examining the Department of Energy's 
strategic plan for the Climate Change Technology Program. Our essential 
question, at this point, is was it worth the wait?
    Let me start by reviewing a bit of the history here. On June 11, 
2001, President Bush announced two initiatives to address climate 
change. Those initiatives are now known as the Climate Change 
Technology Program--CCTP--and the Climate Change Science Program--CCSP. 
The Administration has said that these initiatives form the core of its 
policy to fulfill the U.S. commitment to stabilize greenhouse gas 
concentrations under the United Nations Framework Convention on Climate 
Change.
    The Administration's admirable work on the Science Program can 
serve as a model for how best to shape a research program so it 
delivers results. Beginning in July 2002, the Department of Commerce 
undertook the process of preparing a new 10-year strategic plan for the 
CCSP. Science Program managers engaged national and international 
stakeholders in a comprehensive review of research and observational 
systems needs. CCSP submitted its November 2002 draft strategic plan to 
the National Academy of Sciences for review and to the public for 
comment. A December 2002 workshop, attended by 1,300 scientists and 
other participants from 47 states and 36 nations, facilitated extensive 
discussion and debate.
    By July 2003, the CCSP strategic plan was complete. This open and 
orderly process established a research agenda that has been universally 
supported and will fill the gaps in our knowledge and understanding of 
the earth's climate.
    Today, the Commerce Department is executing its CCSP strategic 
plan. The first of 21 synthesis and assessment reports was released in 
May of this year. And just this week, the Secretary of Commerce 
announced a new Federal Advisory Committee to provide advice as the 
remaining reports are developed.
    Why did I go into this degree of detail for the CCSP when the topic 
of our hearing today is the CCTP? Because the thoughtful, deliberate, 
open process the Administration employed to develop the CCSP gave 
Congress and others the confidence that the $1.7 billion program is on 
the right track.
    Can I say the same thing about the $2.9 billion Technology Program? 
Unfortunately, no. Compared to CCSP, the Technology Program appears 
stalled near the starting line. It is now September 2006--four years 
and two months after the deadline former DOE Under Secretary Robert 
Card set for release of the draft technology plan--and the revised plan 
is being released today. That is unacceptable. This hearing should be 
examining progress in year three of that plan.
    Don't get me wrong; I strongly support the Administration's stated 
policy of addressing climate change through technology development. 
Technology investments are like an insurance policy against climate 
change. Supporting a diverse portfolio of climate change technologies 
such as energy efficiency, carbon sequestration, and carbon-neutral 
energy technologies--including nuclear energy--will provide us with the 
most insurance coverage for the best price. We have a lot riding on 
this R&D portfolio. Not only are we relying on it to help reduce 
emissions of greenhouse gases, we need it to secure America's energy 
independence.
    As Chair of the Subcommittee with oversight responsibility for 
nearly 90 percent of the programs included in CCTP, I know that 
research and technology are, by and large, non-controversial ways we 
can start addressing climate change now. That's why I am determined to 
see progress on this front.
    Since the July 2002 deadline for the release of the initial plan, 
the Administration has announced a whole series of energy technology 
research initiatives: the Hydrogen Fuel Initiative, the Global Nuclear 
Energy Partnership, the fusion experiment ITER, and the Advanced Energy 
Initiative. These are all great energy initiatives that I 
enthusiastically support. At the same time, in the absence of a 
rigorous, well-vetted, comprehensible plan, Congress is left to figure 
out how and to what degree each of these technologies--individually and 
collectively--will contribute to achieving our climate change goals. 
This information is critical if Congress is to make informed decisions 
about how best to allocate technology development resources to address 
the problem of climate change.
    We want DOE to succeed--we need DOE to succeed. I think it would be 
terribly unfair to our children and grandchildren to leave the Earth in 
worse condition than the way in which we received it. That is why the 
government, the research community, and industry must work together to 
develop technology solutions that make environmental and economic 
sense. But for such a collaborative effort to succeed, we need a solid 
game plan.
    I think my colleagues share that sentiment. We want FutureGen, 
GNEP, sequestration, and all the other climate change technologies to 
work and to work well. We have high expectations. We believe those 
expectations can be met with a clear strategic plan.
    With that, let's get down to the business of today's hearing. 
Fundamentally, we want to know whether the strategic plan can be used 
to guide R&D investment decisions and whether it will enable the United 
States to achieve the Administration's stated goals. Most importantly 
and I cannot stress this enough, we want to know how the CCTP plan and 
DOE's planning process can be improved. I look forward to the 
discussion.
    I want to thank the witnesses for sharing their expertise with us 
today, particularly Professor Hoffert, who graciously agreed to our 
invitation to serve on this panel at a very late hour. We will make 
Professor Hoffert's written testimony available within a few days. 
Professor Dan Kammen of the University of California at Berkeley, 
originally scheduled as a witness, is not able to attend today due to a 
last minute scheduling conflict. I greatly appreciate his willingness 
to serve as a witness each time we tried to schedule this hearing in 
the past. We have made his prepared testimony available and it will be 
entered into the hearing record.

    Mr. Honda. Thank you, Madam Chairwoman, and I want to thank 
you for holding this important hearing today. And thank you to 
the witnesses for taking time to prepare your testimony and to 
be here personally.
    I believe that climate change is one of the most important 
issues we face as a nation and as a member of the global 
community. James Hansen, a NASA scientist who is one of the 
country's leading climate researchers, has said he thinks ``we 
have a very brief window of opportunity to deal with climate 
change, no longer than a decade, at the most.''
    Most of my colleagues on this committee, from both sides of 
the aisle, agree that something must be done, for which I am 
thankful. Unfortunately, the same cannot be said for the full 
membership of the House, the Senate, or the current 
Administration.
    In 2002, when the Environmental Protection Agency released 
a report that concluded global warming ``is real and has been 
particularly strong within the past 20 years, due mostly to 
human activities,'' President Bush quickly dismissed the EPA's 
work as a ``report put out by the bureaucracy.''
    Instead, his Administration has used an argument of 
``uncertainty'' to justify more research and no action. On a 
positive note, the National Academy of Sciences has declared 
that the Climate Change Science Program's strategic plan 
``articulates a guiding vision, is appropriately ambitious, and 
is broad in scope.'' However, the review was critical of the 
program for its failure to state projected budget requirements 
and lack of milestones and evaluation mechanisms.
    Both of these failings seem linked to a broader strategy 
designed to avoid taking any action on this very real problem. 
For example, in August, the House Majority Whip stated that he 
thought the information on climate change is ``not adequate yet 
for us to do anything meaningful.''
    This effort to foster ``uncertainty'' has impacted even the 
setting of goals for greenhouse gas emission reductions. 
Because of ``uncertainty,'' the Administration has refused to 
set a goal for the stabilization of greenhouse gas 
concentrations in the atmosphere. Instead, a goal for 
greenhouse intensity, how much we emit per unit of economic 
activity, has been identified.
    The problem with this measure is that if our economy grows, 
emission will increase. But the Earth's systems don't care 
about our economy. It is the absolute amount of emissions that 
matter, and more emissions are a problem.
    Sadly, even the emissions intensity reductions the 
Administration has set are week. According to the Energy 
Information Administration, the goal that has been set is as 
little as one percent improvement over business as usual.
    The main question before us today is whether the Climate 
Change Technology Program plan actually lays out a path for how 
to achieve even the moderate targets the Administration has 
set.
    From the many comments about the draft plan, the answer 
appears to be no. The plan may be an excellent compendium of 
current technologies, but it seems to be lacking in a number of 
areas.
    To wit, there is no mention of cross-cutting enabling 
technologies or integrated approaches to greenhouse gas 
emission reduction. There are no timelines or technology 
roadmaps. It places a low priority on measurement and 
monitoring technologies. It makes no mention of adaptation to 
climate change, and there is no mention of policy framework for 
making all this happen.
    Other problems have been identified with the draft plan, 
but I won't take the time to list any more. They are in the 
Committee hearing charter, and I expect that the witnesses will 
tell us more about them in greater detail.
    If we are going to achieve real reductions in greenhouse 
gas emissions in order to address global climate change, it is 
critical that we develop the technologies that will allow us to 
do so.
    The Climate Change Technology Program plan is supposed to 
accelerate the development of those technologies, and so it 
should be an important part of our response to climate change.
    But I am worried that the draft plan that has been 
developed does not provide the roadmap that is necessary to 
help the Administration set priorities and make choices among 
competing technologies. I hope the final plan will do so.
    I look forward to hearing from the witnesses today on how 
we can do just that.
    And I again want to thank Madam Chairwoman for this 
hearing, and I yield back the balance of my time.
    [The prepared statement of Mr. Honda follows:]

         Prepared Statement of Representative Michael M. Honda

    Madam Chairwoman, thank you for holding this important hearing 
today, and thank you to the witnesses for taking the time to prepare 
your testimony and to be here.
    I believe that Climate Change is one of the most important issues 
we face as a nation and as a member of the global community. James 
Hansen, a NASA scientist who is one of the country's leading climate 
researchers, has said he thinks ``we have a very brief window of 
opportunity to deal with climate change. . .no longer than a decade, at 
the most.''
    Most of my colleagues on this committee, from both sides of the 
aisle, agree that something must be done, for which I am thankful. 
Unfortunately, the same cannot be said for the full membership of the 
House, the Senate, or the current Administration.
    In 2002, when the Environmental Protection Agency released a report 
that concluded global warming ``is real and has been particularly 
strong within the past 20 years. . .due mostly to human activities,'' 
President Bush quickly dismissed the EPA's work as a ``report put out 
by the bureaucracy.''
    Instead, his Administration has used an argument of `uncertainty' 
to justify more research and no action. On a positive note, the 
National Academy of Sciences has declared that the Climate Change 
Science Program's strategic plan ``articulates a guiding vision, is 
appropriately ambitious, and is broad in scope.'' However, the review 
was critical of the program for its failure to state projected budget 
requirements and lack of milestones and evaluation mechanisms.
    Both of these failings seem linked to a broader strategy designed 
to avoid taking any action on this very real problem. For example, in 
August, the House Majority Whip stated that he thought the information 
on climate change is ``not adequate yet for us to do anything 
meaningful.''
    This effort to foster `uncertainty' has impacted even the setting 
of goals for greenhouse gas emission reductions. Because of 
`uncertainty,' the Administration has refused to set a goal for the 
stabilization of greenhouse gas concentrations in the atmosphere; 
instead, a goal for ``greenhouse gas intensity,'' how much we emit per 
unit of economic activity, has been identified.
    The problem with this measure is that if our economy grows, 
emissions will increase. But the Earth's systems don't care about our 
economy--it is the absolute amount of emissions that matters, and more 
emissions are a problem.
    Sadly, even the emissions intensity reductions the Administration 
has set are weak. According to the Energy Information Administration, 
the goal that has been set is as little as a one percent improvement 
over ``business as usual.''
    The main question before us today is whether the Climate Change 
Technology Program plan actually lays out a path for how to achieve 
even the moderate targets the Administration has set.
    From the many comments about the draft plan, the answer appears to 
be no. The plan may be an excellent compendium of current technologies, 
but it seems to be lacking in a number of areas:

        <bullet>  there is no mention of cross-cutting enabling 
        technologies or integrated approaches to greenhouse gas 
        emissions reduction;

        <bullet>  there are no timelines or technology roadmaps;

        <bullet>  it places a low priority on measurement and 
        monitoring technologies;

        <bullet>  it makes no mention of adaptation to climate change;

        <bullet>  and there is no mention of a policy framework for 
        making this all happen.

    Other problems have been identified with the draft plan but I won't 
take the time to list any more, they are in the Committee hearing 
charter and I expect that the witnesses will tell us about them in 
greater detail.
    If we are going to achieve real reductions in greenhouse gas 
emissions in order to address global climate change, it is critical 
that we develop the technologies that will allow us to do so.
    The Climate Change Technology Program plan is supposed to 
accelerate the development of those technologies, and so it should be 
an important part of our response to climate change.
    But I am worried that the draft plan that has been developed does 
not provide the roadmap that is necessary to help the Administration 
set priorities and make choices among competing technologies. I hope 
the final plan will do so.
    I look forward to hearing from the witnesses today on how we can do 
just that.
    Thank you, Madam Chairwoman; I yield back the balance of my time.

    Chairwoman Biggert. Thank you, Mr. Honda.
    With that, any additional opening statements submitted by 
the Members may be added to the record. Without objection.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good afternoon. I want to thank the witnesses for appearing before 
our committee to discuss the Administration's Climate Change Technology 
Program (CCTP) report being released today.
    In 2002, President Bush set a national goal to reduce the 
greenhouse gas intensity of the U.S. economy by 18 percent by 2012. To 
this end, the Administration is now implementing numerous programs to 
implement near-term policies and measures to slow the growth of 
greenhouse gas emissions, advance climate change science, accelerate 
technology development and commercialization, and promote international 
collaboration.
    Climate change plays a role in my district because of the 
combustion of fossil fuels. The coal industry is of great importance to 
my district in Southern Illinois which is rich in high-sulfur coal. The 
shifting of production to low-sulfur coal has cost many of my 
constituents high-paying jobs. The United States and my home state of 
Illinois have vast reserves of coal, and about half of its electricity 
is generated from this fuel. Further, coal is projected to continue to 
supply one-half of U.S. electricity demands through the year 2025. In 
order to continue to use coal, even under scenarios calling for 
substantial carbon dioxide emission limitations, I support research and 
development (R&D) of clean coal technology and I believe clean coal R&D 
projects must be part of a balanced energy plan for this country. We 
must burn coal more efficiently and cleanly and I authored provisions 
in the Energy Policy Act of 2005 (P.L. 109-58) to accomplish this goal.
    In my congressional district, Southern Illinois University 
Carbondale operates its Coal Research Center, one of the field's most 
comprehensive programs in the United States, with a combination of 
facilities and achievements that make it a unique contributor to our 
nation's energy infrastructure. The Coal Research Center conducts a 
wide range of studies with direct practical applicability to the 
commercial development of coal, including carbon sequestration 
technology. Illinois is a national leader in developing clean and 
efficient coal technologies, such as carbon sequestration, and I am 
hopeful we will have the ability to host the President's FutureGen 
Project to demonstrate how coal can be used cleanly, efficiently, and 
represents a viable fuel source alternative to natural gas and oil.
    As Congress continues to debate climate change, I believe we should 
continue to further our research and development programs to advance 
clean coal technology to improve our air quality and reduce greenhouse 
gas emissions.
    I welcome our panel of witnesses and look forward to their 
testimony.

    Chairwoman Biggert. At this time, I would like to introduce 
all of our witnesses, and thank you for being here this 
afternoon. We have, first of all, Mr. Stephen Eule is the 
Director of the U.S. Climate Change Technology Program at the 
Department of Energy.
    Next is Ms. Judi Greenwald, the Director of Innovative 
Solutions for the Pew Center on Climate Change. Thank you for 
coming. Mr. Chris Mottershead is a Distinguished Advisor on 
Energy and the Environment at BP. He is also a Director of the 
Carbon Trust to the United Kingdom, and the Center for Clean 
Air Policy in the United States. Thank you. Dr. Martin Hoffert 
is an Emeritus Professor of Physics at the New York University. 
Thank you for being here.
    As the witnesses know, spoken testimony will be limited to 
five minutes each, after which the members will have five 
minutes each to ask questions.
    And we will begin with Mr. Eule. Thank you.

STATEMENT OF MR. STEPHEN D. EULE, DIRECTOR OF THE U.S. CLIMATE 
        CHANGE TECHNOLOGY PROGRAM, DEPARTMENT OF ENERGY

    Mr. Eule. Madam Chairwoman and Ranking Member Honda, and 
Members of the Subcommittee, thank you for the opportunity to 
appear before you today. I am particularly pleased to be able 
to use the occasion of this hearing to announce the release of 
the Climate Change Technology Program's strategic plan.
    The Administration believes the most effective way to meet 
the challenge of climate change is through an agenda that 
promotes economic growth, provides energy security, reduces 
pollution, and mitigates greenhouse gases. To meet these goals, 
the Administration has established a comprehensive approach, 
major elements of which include policies and measures to slow 
the growth of greenhouse gas emissions, advancing climate 
change science, accelerating technology development, and 
promoting international collaboration.
    Since fiscal year 2001, the Federal Government has devoted 
nearly $29 billion to climate change programs.
    In 2002, President Bush set a goal to reduce the Nation's 
greenhouse gas intensity, that is, emissions per unit of 
economic output, by 18 percent by 2012. To this end, the 
Administration has implemented about 60 federal programs. 
Recent data suggests that we are well on our way toward meeting 
the President's goal.
    While acting to slow the growth of greenhouse gas emissions 
in the near-term, the United States is laying a strong 
scientific and technological foundation. In 2002, two multi-
agency programs were established to coordinate federal climate 
change science and technology R&D activities: the Climate 
Change Science Program, or CCSP, and CCTP. CCSP is an 
interagency planning and coordinating entity charged with: 
investigating natural and human-induced changes in the Earth's 
global environmental system; monitoring, understanding, and 
predicting global change; and providing a sound scientific 
basis for decision-making.
    CCTP, which was authorized in the Energy Policy Act of 
2005, was formed to coordinate and prioritize the Federal 
Government's investment in climate-related technology, which 
was nearly $3 billion in fiscal year 2006, and to further the 
President's National Climate Change Technology Initiative, or 
NCCTI. Ten R&D agencies participate in CCTP.
    CCTP's principal aim is to accelerate the development and 
lower the cost of advanced technologies that reduce, avoid, or 
sequester greenhouse gases. It strives for a diversified 
Federal R&D portfolio that will help to reduce technology risk 
and improve the prospects that such technologies can be adopted 
in the marketplace. In August 2005, CCTP issued its Vision and 
Framework for Strategy and Planning, which provided broad 
guidance for the program, and shortly thereafter released its 
draft strategic plan for public review. More than 250 comments 
were received.
    This revised strategic plan articulates a vision for the 
role of advanced technology in addressing climate change, 
establishes strategic direction and guiding principles, 
outlines approaches to achieve CTCP's strategic goals, and 
identifies a series of next steps. The six CTCP goals are: 
reducing emissions from energy use and infrastructure; reducing 
emissions from energy supply; capturing and sequestering carbon 
dioxide; reducing emissions from non-carbon dioxide greenhouse 
gases; measuring and monitoring emissions; and bolstering the 
contributions of basic science.
    The strategic plan defines clear and promising roles for 
advanced technologies for the near-, mid-, and long-term, 
outlines a process and establishes criteria for setting 
priorities, such as those in NCCTI, and provides details of the 
current climate change technology portfolio with links to 
individual technology roadmaps.
    CCTP's portfolio includes realigned activities as well as 
new initiatives, such as the President's Advanced Energy and 
Hydrogen Fuel Initiatives, carbon sequestration, and FutureGen. 
CCTP agencies also periodically conduct portfolio reviews to 
assess the ability of these programs to meet CCTP goals, and to 
identify gaps and opportunities. In addition, CCTP uses 
scenario analyses to assess the potential climate change 
benefits of different technology mixes over the century, on the 
global scale, and across a range of uncertainties. When 
comparing the costs of achieving different greenhouse gas 
constraints, the cost savings for the advanced technologies 
cases were 60 percent or more.
    The Administration believes that well designed multilateral 
collaborations can leverage resources and quicken technology 
development. The International Partnership for the Hydrogen 
Economy, Carbon Sequestration Leadership Forum, Generation IV 
International Forum, Methane to Markets--all U.S. initiatives--
and the ITER fusion project, provide vehicles for international 
collaboration to advance these technologies.
    The New Global Nuclear Energy Partnership seeks to develop 
a worldwide consensus on approaches to expand safe use of zero 
emission nuclear power. And of course, through the Asian 
Pacific Partnership, the U.S. is working with Australia, China, 
India, and South Korea, and Japan, to accelerate the uptake of 
clean technologies in this rapidly growing region of the world.
    The United States has embarked on an ambitious undertake to 
develop advanced climate change technologies. CCTP's strategic 
plan, the first of its kind, sets out an overall strategy to 
guide these efforts, and provides a long-term planning context 
in which the nature of both the challenges and the 
opportunities for advanced technologies are considered and 
realized.
    Thank you for your kind attention, and I will, of course, 
be delighted to answer any questions you may have.
    [The prepared statement of Mr. Eule follows:]

                 Prepared Statement of Stephen D. Eule

INTRODUCTION

    Madam Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today and report on the Climate Change 
Technology Program (CCTP). I am particularly pleased to be able to use 
the occasion of this hearing to announce the release of CCTP's 
completed Strategic Plan. It represents the culmination of strong 
interagency effort, shaped by expert technical input and public 
comment.
    I would like to begin my testimony by providing a brief overview of 
the Administration's approach to climate change, which provides the 
context in which CCTP operates. I will also discuss the role of CCTP, 
explain the purpose of the Strategic Plan, and discuss how the Plan 
will help the Administration and Congress make decisions about 
investments in advanced technologies that can have a significant impact 
on reducing greenhouse gas emissions.
    As a party to the United Nations Framework Convention on Climate 
Change (UNFCCC), the United States shares with many countries its 
ultimate objective: stabilization of greenhouse gas concentrations in 
the atmosphere at a level that would prevent dangerous anthropogenic 
interference with the climate system. In February 2002, President Bush 
reaffirmed the Administration's commitment to this long-term goal of 
the Framework Convention.
    There is a growing recognition that climate change cannot be dealt 
with effectively in isolation. Rather, it needs to be addressed as part 
of an integrated agenda that promotes economic growth, provides energy 
security, reduces pollution, and also mitigates greenhouse gas 
emissions. In July 2005, the G8 leaders, meeting in Gleneagles, 
Scotland, agreed to a plan of action that interlinked climate change 
objectives with these other important considerations.
    Meeting these complementary objectives will require a sustained, 
long-term commitment by all nations over many generations. To this end, 
the President has established a robust and flexible climate change 
policy that harnesses the power of markets and technological 
innovation, maintains economic growth, and encourages global 
participation.
    Major elements of this approach include: (1) implementing near-term 
policies and measures to slow the growth in greenhouse gas emissions; 
(2) advancing climate change science; (3) accelerating technology 
development and commercialization; and (4) promoting international 
collaboration.
    From fiscal years 2001 to the end of 2006, the Federal Government 
will have devoted nearly $29 billion to science, technology, 
international assistance, and incentive programs that support climate 
change objectives, more than any other nation. The President's fiscal 
year 2007 budget calls for $6.5 billion for climate-related activities.

NEAR-TERM POLICIES AND MEASURES

    In 2002, President Bush set an ambitious but achievable national 
goal to reduce the greenhouse gas intensity--that is, emissions per 
unit of economic output--of the U.S. economy by 18 percent by 2012. At 
the time, the Administration estimated that achieving this commitment 
would avoid an additional 106 million metric tons of carbon-equivalent 
emissions in 2012 compared to the Energy Information Administration's 
Annual Energy Outlook 2002 business as usual base case projection, and 
would result in cumulative savings of more than 500 million metric tons 
of carbon-equivalent emissions over the decade.
    To this end, the Administration is now implementing numerous 
programs--including partnerships, consumer information campaigns, 
incentives, and mandatory regulations--that are directed at developing 
and deploying cleaner, more efficient energy technologies, 
conservation, biological sequestration, geological sequestration and 
adaptation. For example, the Department of Energy's (DOE) Climate 
VISION program and the Environmental Protection Agency's (EPA) Climate 
Leaders and SmartWay Transport Partnership programs work in voluntary 
partnership with specific commitments by industry to verifiably reduce 
emissions. The Department of Agriculture (USDA) is using its 
conservation programs to provide substantial incentives to increase 
carbon sequestration in soils and trees, and to reduce methane and 
nitrous oxide emissions, two additional and potent greenhouse gases, 
from crop and animal agricultural systems. The Department of 
Transportation (DOT) has implemented a new fuel economy standard for 
light trucks, including sport utility vehicles, that is projected to 
result in significant reductions in CO<INF>2</INF> emissions over the 
life of the affected vehicles. DOT has also submitted an Administration 
proposal to Congress for authority to reform the setting and 
calculation of fuel economy standards for passenger automobiles.
    In terms of financial incentives, new tax rules on expensing and 
dividends are helping to promote substantial new capital investment, 
including purchases of cleaner, more efficient equipment and 
facilities. The Energy Policy Act of 2005 provides for approximately 
$1.6 billion in tax credits and incentives in fiscal year 2007 to 
accelerate the market penetration of clean, efficient technologies. For 
example, the Act also provides tax credits of up to $3,400 for the most 
highly fuel efficient vehicles such as hybrids and clean diesel. It 
also establishes 15 new appliance efficiency mandates and a 7.5 billion 
gallon renewable fuel requirement by 2012.
    We expect these efforts will contribute to meeting the President's 
18 percent, 10-year goal, which represents an average annual rate of 
improvement of about 1.96 percent. Data from the Energy Information 
Administration (EIA) suggest steady progress. Since 2002, EIA reports 
annual improvements in greenhouse gas emissions intensity of 1.6 
percent and 2.1 percent in 2003 and 2004, respectively. Further, a June 
2006 EIA preliminary ``flash estimate'' estimate of energy-related 
carbon dioxide emissions--which account for about four fifths of total 
greenhouse gas emissions--shows an improvement in carbon dioxide 
emissions intensity of 3.3 percent in 2005. Although we are only a few 
years into the effort, the Nation appears on track to meet the 
President's goal.
    While acting to slow the growth of greenhouse gas emissions in the 
near-term, the United States is laying a strong scientific and 
technological foundation to reduce uncertainties, clarify risks and 
benefits, and develop realistic mitigation options through better 
integration and management of its climate change related scientific and 
technological activities. In February 2002, President Bush announced 
the creation of a cabinet-level Committee on Climate Change Science and 
Technology Integration, co-chaired by the Secretaries of Commerce and 
Energy. Two multi-agency programs were established to coordinate 
federal activities in climate change scientific research and advance 
the President's vision under his National Climate Change Technology 
Initiative (NCCTI). These are the U.S. Climate Change Science Program 
(CCSP), led by the Department of Commerce, and CCTP, led by DOE.

CLIMATE CHANGE SCIENCE PROGRAM\1\
---------------------------------------------------------------------------

    \1\ See: http://www.climatescience.gov.
---------------------------------------------------------------------------
    CCSP is an interagency research planning and coordinating entity 
charged with investigating natural and human-induced changes in the 
Earth's global environmental system, monitoring, understanding, and 
predicting global change, and providing a sound scientific basis for 
national and international decision-making. CCSP combines the near-term 
focus of the Administration's Climate Change Research Initiative--
including a focus on advancing the understanding of aerosols and carbon 
sources and sinks and improvements in climate modeling--with the 
breadth of the long-term research elements of the U.S. Global Change 
Research Program.
    In July 2003, CCSP released its Strategic Plan for guiding climate 
research. The plan is organized around five goals: (1) improving our 
knowledge of climate history, variability, and change; (2) improving 
our ability to quantify factors that affect climate; (3) reducing 
uncertainty in climate projections; (4) improving our understanding of 
the sensitivity and adaptability of ecosystems and human systems to 
climate change; and (5) exploring options to manage risks associated 
with climate variability and change. CCSP is now in the process of 
implementing its 10-year Plan. The President's fiscal year 2007 budget 
request includes $1.715 billion for the climate change science. The 
knowledge gained through CCSP will be invaluable in helping CCTP plan 
for needed technology development.

CLIMATE CHANGE TECHNOLOGY PROGRAM\2\
---------------------------------------------------------------------------

    \2\ See: http://www.climatetechnology.gov.
---------------------------------------------------------------------------
    To address the challenges of energy security, economic development, 
and climate change, there is need for a visionary, long-term 
perspective. The International Energy Agency estimates there are about 
two billion people who lack modern energy services. Many countries are 
focusing efforts on providing power to their citizens. Although 
projections vary considerably, a tripling of energy demand by 2100 is 
certainly not unreasonable. When one considers further that energy-
related carbon dioxide emissions account for about four fifths of all 
greenhouse gas emissions, the scale of the challenge becomes apparent. 
Most anthropogenic greenhouse gases emitted over the course of the 21st 
century will come from equipment and infrastructure not yet built, a 
circumstance that poses significant opportunities to reduce or 
eliminate these emissions.
    As we look to the future, providing the energy necessary to power 
economic growth and development while at the same time reducing 
greenhouse gas emissions is going to require cost-effective 
transformational technologies that can fundamentally alter the way we 
produce and use energy. Given the huge capital investment in existing 
energy systems, the desired transformation of the global energy system 
may take many decades. A robust research effort undertaken today can 
make new, competitive technologies available sooner rather than later 
and accelerate modernization of capital stock.
    Other greenhouse gases from non-energy related sources--methane, 
nitrous oxides, sulfur hexafluoride, and fluorocarbons, among others--
also pose a concern. They have higher warming potentials than carbon 
dioxide. In aggregate, these gases present a large opportunity to 
reduce global radiative forcing and, in many cases, the technical 
strategies to reduce their emissions are straightforward and tractable. 
Finding ways to mitigate these other greenhouse gases is an important 
part of CCTP's technology strategy.
    The United States is leading the development of many advanced 
technology options that have the potential to reduce, avoid, or 
sequester greenhouse gas emissions. CCTP was created in 2002, and 
subsequently authorized in Title XVI of the Energy Policy Act of 2005, 
to coordinate and prioritize the Federal Government's investment in 
climate-related technology and to further the President's National 
Climate Change Technology Initiative (NCCTI). The fiscal year 2007 
Budget includes nearly $3 billion for CCTP-related activities.
    CCTP's principal aim is to accelerate the development and reduce 
the cost of new and advanced technologies with the potential to reduce, 
avoid, or sequester greenhouse gas emissions. It does this by providing 
strategic direction for the CCTP-related elements of the overall 
federal technology portfolio. It also facilitates the coordinated 
planning, programming, budgeting, and implementation of the technology 
development and deployment aspects of U.S. climate change strategy. 
CCTP also is assessing different technology options and their potential 
contributions to reducing greenhouse gas emissions over the short-, 
mid-, and long-term to help inform budget decisions and priorities.

STRATEGIC PLANNING FOR TECHNOLOGY DEVELOPMENT: CCTP conducts its 
planning under conditions of uncertainty and across a wide range of 
possible futures. The pace and scope of needed change will be driven 
partially by future trends in greenhouse gas emissions that are subject 
to great a deal of ambiguity. The complex relationships among 
population growth, economic development, energy demand, mix, and 
intensity, resource availability, technology, and other variables make 
it impossible to accurately predict future greenhouse gas emissions on 
a 100-year time scale.
    In August 2005, CCTP issued its Vision and Framework for Strategy 
and Planning. This document provides an overall strategy to guide and 
strengthen our technical efforts to reduce emissions. Shortly 
thereafter, CCTP released its draft Strategic Plan for public review 
and comment. More than 250 comments were received and addressed. We 
appreciate the thoughtful comments we received, which have improved the 
document.
    Today, CCTP issues its completed Strategic Plan. Building on the 
guidance in the Vision and Framework, the Strategic Plan articulates a 
vision of the role for advanced technology in addressing climate 
change, defines a supporting mission for CCTP, establishes strategic 
direction and guiding principles for Federal R&D agencies to use in 
formulating research and development portfolio, outlines approaches to 
attain CCTP's strategic goals, and identifies a series of next steps 
toward implementation.
    CCTP's strategic vision has six complementary goals: (1) reducing 
emissions from energy use and infrastructure; (2) reducing emissions 
from energy supply; (3) capturing and sequestering CO<INF>2</INF>; (4) 
reducing emissions of non-CO<INF>2</INF> greenhouse gases; (5) 
measuring and monitoring emissions; and (6) bolstering the 
contributions of basic science.
    Ten federal agencies support a broad portfolio of activities within 
this framework. Participating federal agencies in CCTP include the 
Departments of Energy, Agriculture, Commerce, Defense, Health and Human 
Services, Interior, State, and Transportation, as well as the 
Environmental Protection Agency, the National Aeronautics and Space 
Administration, and the National Science Foundation.
    The Strategic Plan provides a comprehensive, long-term look at the 
nature of the climate change challenge and its potential solutions. It 
defines clear and promising roles for advanced technologies by grouping 
technologies for near-, mid- and long-term deployment. Together these 
technologies will facilitate meeting CCTP goals. It also outlines a 
process and criteria for setting priorities by organizing and aligning 
federal climate change R&D and discusses in detail the current climate 
change technology portfolio, with links to individual technology 
roadmaps and goals. CCTP and the participating agencies periodically 
conduct and support strategic planning exercises to identify gaps and 
opportunities in climate change technology and realign the portfolio as 
appropriate.
    The Strategic Plan also identifies a number of next steps outlining 
an ambitious agenda for advancing climate change technology 
development. These include strengthening the Federal R&D portfolio, 
intensifying basic research support of the applied technology R&D 
programs, extending international cooperation, and exploring a number 
of supporting technology policy mechanisms.
    Many CCTP activities build on existing work, but the Administration 
also has expanded and realigned some activities and launched new 
initiatives in key technology areas to support the CCTP's goals. The 
President's NCCTI includes 12 discrete activities that could advance 
technologies to avoid, reduce, or capture and store greenhouse gas 
emissions on a large scale. The Administration's budget proposal for 
fiscal year 2007 included $306 million for these NCCTI priorities.
    CCTP anticipates that a progression of advanced technologies will 
be available and enter the marketplace in the near-, mid-, and long-
terms. Figure 1 provides a schematic roadmap for the technologies being 
pursued under CCTP. Readers wishing a fuller explanation of the 
technology research described below should consult CCTP's Research and 
Current Activities and Technology Options for the Near- and Long-Term 
reports, both of which are available on the CCTP web page. Short 
descriptions of each of the NCCTI priorities are also available on the 
CCTP web page.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


ENERGY USE AND INFRASTRUCTURE: Improving energy efficiency and reducing 
greenhouse gas emissions intensity in transportation, buildings, and 
industrial processes can contribute greatly to overall greenhouse gas 
emission reductions. In addition, improving the electricity 
transmission and distribution ``grid'' infrastructure can reduce 
greenhouse gas emissions by making power generation more efficient of 
by providing greater grid access for wind and solar power.
    Key research activities include FreedomCAR (Cooperative Automotive 
Research)\3\ program, a cost-shared government-industry partnership 
that is pursuing fuel cell and other advanced automotive technologies. 
Advanced heavy-duty vehicles technologies, zero-energy homes and 
commercial buildings, solid-state lighting, and superconducting wires 
that virtually eliminate electricity transmission losses are other 
areas of research that could yield significant emissions reduction.
---------------------------------------------------------------------------
    \3\ See: http://www1.eere.energy.gov/vehiclesandfuels/about/
partnerships/freedomcar/index.html

ENERGY SUPPLY: Fossil fuels, which emit CO<INF>2</INF> when burned, 
remain the world's energy supply of choice. A transition to a low-
carbon energy future would, therefore, require the availability of 
cost-competitive low- or zero-carbon energy supply options. When 
combined with alternative energy carriers--such as electricity and 
hydrogen--these options could offer the prospect of considerable 
reductions in greenhouse gas emissions.
    Renewable energy includes a range of different technologies that 
can play an important role in reducing greenhouse gas emissions. The 
United States invests considerable resources in wind, solar 
photovoltaics, and biomass technologies. We have made much progress in 
price competitiveness of many of these technologies, but there still is 
a need to reduce their manufacturing, operating, and maintenance costs. 
For example, new biotechnology breakthroughs offer the potential for 
extensive domestic production of cellulosic ethanol by both improving 
feedstocks and increasing the efficiency of converting lignocellulosic 
material to ethanol. DOE's Office of Science has awarded up to $250 
million over five years (subject to appropriations) for two new 
bioenergy research centers to advance the science needed to develop new 
cellulosic conversion technologies, which could decrease greatly the 
greenhouse gas emissions from liquid transportation fuels.\4\
---------------------------------------------------------------------------
    \4\ See: http://genomicsgtl.energy.gov/centers/index.shtml
---------------------------------------------------------------------------
    There will be a continuing need for portable, storable energy 
carriers for heat, power, and transportation. Hydrogen is an excellent 
energy carrier, produces no emissions when used in a fuel cell, and can 
be produced from diverse sources, including renewables, nuclear, and 
fossil fuels (which in the latter case could be combined with carbon 
capture). President Bush's $1.2 billion Hydrogen Fuel Initiative\5\ is 
exploring these production options as well as the infrastructure needed 
to store and deliver hydrogen economically and safely. It is expected 
that the research being performed under the program will make possible 
a commercialization decision by industry in 2015 and possible market 
introduction of hydrogen fuel-cell vehicles by 2020.
---------------------------------------------------------------------------
    \5\ See: http://www.eere.energy.gov/hydrogenandfuelcells/
presidents--initiative.html
---------------------------------------------------------------------------
    The United States has vast reserves of coal, and about half of its 
electricity is generated from this fuel. Advanced fossil-based power 
and fuels, therefore, is an area of special interest. The FutureGen\6\ 
project is a 10-year, $1 billion government-industry collaboration--
which includes India and the Republic of Korea--to build the world's 
first near-zero atmospheric emissions coal-fired power plant. This 
project will incorporate the latest technologies in carbon 
sequestration, oxygen and hydrogen separation membranes, turbines, fuel 
cells, and coal-to-hydrogen gasification. This research can help coal 
remain part of a diverse, secure, and environmentally acceptable energy 
portfolio well into the future.
---------------------------------------------------------------------------
    \6\ See: http://fossil.energy.gov/programs/powersystems/futuregen/
index.html
---------------------------------------------------------------------------
    Concerns over resource availability, energy security, and air 
quality as well as climate change suggest a larger role for nuclear 
power as an energy supply choice. The Generation IV Nuclear Energy 
Systems Initiative\7\ is investigating the next-generation reactor and 
fuel cycle systems that represent a significant leap in economic 
performance, safety, and proliferation-resistance. While the primary 
focus for developing a next-generation reactor is on producing 
electricity in a highly efficient manner, there is also the possibility 
of coupling a reactor with advanced technology that would allow for the 
production of hydrogen. These advanced technologies are being developed 
under the Nuclear Hydrogen Initiative\8\ and could possibly enable the 
production of hydrogen on a scale to meet transportation needs.
---------------------------------------------------------------------------
    \7\ See: http://gen-iv.ne.doe.gov
    \8\ See: http://nuclear.gov/hydrogen/hydrogenOV.html
---------------------------------------------------------------------------
    Fusion energy\9\ is a way to generate power that, if successfully 
developed, could be used to produce electricity and possibly hydrogen. 
Fusion has features that make it is an attractive option from both an 
environmental and safety perspective. However, the technical hurdles of 
fusion energy are very high, and with a commercialization objective of 
2050, its potential impact would be in the second half of the century.
---------------------------------------------------------------------------
    \9\ See: http://www.sc.doe.gov/Program--Offices/fes.htm
---------------------------------------------------------------------------
    In his 2006 State of the Union Address, President Bush outlined 
plans for an Advanced Energy Initiative (AEI).\10\ AEI aims to 
accelerate the development of advanced technologies that could change 
the way American homes, businesses, and automobiles are powered. AEI is 
designed to take advantage of technologies that with a little push 
could play a big role in helping to reduce the Nation's use of foreign 
sources of energy and its pollution and greenhouse gas emissions. AEI 
includes greater investments in near-zero atmospheric emissions coal-
fired plants, solar and wind power, nuclear energy, better battery and 
fuel cell technologies for pollution-free cars, and cellulosic 
biorefining technologies for biofuels production.
---------------------------------------------------------------------------
    \10\ See: http://www.whitehouse.gov/stateoftheunion/2006/energy/
index.html

CARBON SEQUESTRATION: Carbon capture and sequestration is a central 
element of CCTP's strategy because for the foreseeable future, fossil 
fuels will continue to be among the world's most reliable and lowest-
cost form of energy. A realistic approach, then, is to find ways to 
``sequester'' the CO<INF>2</INF> produced when these fuels--especially 
coal--are used. The phrase ``carbon sequestration'' describes a number 
of technologies and methods to capture, transport, and store CO<INF>2</INF> 
or remove it from the atmosphere.
    Advanced techniques to capture gaseous CO<INF>2</INF> from energy 
and industrial facilities and store it permanently in geologic 
formations are under development. The Department of Energy's core 
Carbon Sequestration Program\11\ emphasizes technologies that capture 
CO<INF>2</INF> from large point sources and store the emissions in 
geologic formations that potentially could hold vast amounts of 
CO<INF>2</INF>.
---------------------------------------------------------------------------
    \11\ See: http://fossil.energy.gov/programs/sequestration/
index.html
---------------------------------------------------------------------------
    Terrestrial sequestration--removing CO<INF>2</INF> from the 
atmosphere and sequestering it in trees, soils, or other organic 
materials--has proven to be a low-cost means for long-term carbon 
storage. The Carbon Sequestration in Terrestrial Ecosystems consortium, 
supported by DOE's Office of Science, provides research on mechanisms 
that can enhance terrestrial sequestration.
    In 2003, DOE launched a nationwide network of seven Carbon 
Sequestration Regional Partnerships\12\ that include 40 states, four 
Canadian Provinces, three Indian Nations, and over 300 organizations. 
The partnerships' main focus is on determining the best approaches for 
sequestration in their regions, and they also will examine regulatory 
and infrastructure needs. Small-scale validation testing of 35 sites 
involving terrestrial and geologic sequestration technologies began in 
2005, and will continue until 2009.
---------------------------------------------------------------------------
    \12\ See: http://fossil.energy.gov/programs/sequestration/
partnerships/index.html

NON-CARBON DIOXIDE GREENHOUSE GASES: A main component of the U.S. 
strategy is to reduce other greenhouse gases, such as methane, nitrous 
oxides (N<INF>2</INF>O), sulfur hexafluoride (SF<INF>6</INF>), and 
fluorocarbons, among others.
    Improvements in methods and technologies to detect and either 
collect or prevent methane emissions from various sources--such as 
landfills, coal mines, natural gas pipelines, and oil and gas 
exploration operations--can prevent this greenhouse gas from escaping 
to the atmosphere.\13\ In agriculture, improved management practices 
for fertilizer applications and livestock waste can reduce methane and 
N<INF>2</INF>O emissions appreciably.
---------------------------------------------------------------------------
    \13\ Reducing methane emissions may also have a positive benefit in 
reducing local ozone problems, as methane is an ozone precursor.
---------------------------------------------------------------------------
    Hydrofluorocarbons (HFCs), perfluorocarbons (PFCs), and SF<INF>6</INF> 
are all high global warming potential (High GWP) gases. HFCs and PFCs 
are used as substitutes for ozone-depleting chlorofluorocarbons and are 
used in or emitted during complex manufacturing processes. Advanced 
methods to reduce the leakage of, reuse, and recycle these chemicals 
and lower GWP alternatives are being explored.
    Programs aimed at reducing particulate matter have led to 
significant advances in fuel combustion and emission control 
technologies to reduce U.S. black carbon aerosol emissions. Reducing 
emissions of black carbon, soot, and other chemical aerosols can have 
multiple benefits, including better air quality and public health and 
reduced radiative forcing.

MEASURING AND MONITORING: To meet future greenhouse gas emissions 
measurement requirements, a wide array of sensors, measuring platforms, 
monitoring and inventorying systems, and inference methods are being 
developed. Many of the baseline measurement, observation, and sensing 
systems used to advance climate change science are being developed as 
part of CCSP. CCTP's efforts focus primarily on validating the 
performance of various climate change technologies, such as in 
terrestrial and geologic sequestration.

BASIC SCIENCE: Basic scientific research is a fundamental element of 
CCTP. Meeting the dual challenges of addressing climate change and 
meeting growing world energy demand is likely to require discoveries 
and innovations that can shape the future in often unexpected ways. The 
CCTP framework aims to strengthen the basic research enterprise through 
strategic research that supports ongoing or projected research 
activities and exploratory research involving innovative concepts.

SCENARIO ANALYSIS: CCTP uses scenario analyses that incorporate various 
assumptions about the future to clarify the potential role of climate 
change technologies and to aid in portfolio planning. Scenarios 
analyses can provide a relative indication of the potential climate 
change benefits of a particular technology mix compared to others, and 
it can help determine which classes of technology would most likely 
provide larger-scale benefits. Figure 2 offers a glimpse of the range 
of emissions reductions new technologies in energy end use, energy 
supply, carbon sequestration, and other non-CO<INF>2</INF> greenhouse 
gases may make possible on a 100-year scale and across a range of 
uncertainties and constraints.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Potential ranges of greenhouse gas emissions reductions to 2100 by 
category of activity for three technology scenarios characterized by: 
viable carbon sequestration (Scenario 1); dramatically expanded nuclear 
and renewable energy (Scenario 2); and novel and advanced technologies 
(Scenario 3). Note also the consistently large potential reductions in 
other greenhouse gas emissions under all three scenarios (CCTP 2006).

INTERNATIONAL COLLABORATIONS

    The United States believes that well-designed multilateral 
collaborations focused on achieving practical results can accelerate 
development and commercialization of new technologies. The U.S. has 
initiated or joined a number of multilateral technology collaborations 
in hydrogen, carbon sequestration, nuclear energy, and fusion that 
address many energy-related concerns (e.g., energy security, climate 
change, environmental protection).

Asia-Pacific Partnership on Clean Development and Climate\14\ (APP): 
Launched formally in January 2006, APP is a multi-stakeholder 
partnership working to generate practical and innovative projects 
promoting clean development and the mitigation of greenhouse gases. The 
six APP partnering nations--Australia, China, India, Japan, South 
Korea, and the United States--account for about half of the world's 
economy, energy use, and greenhouse gas emissions. APP is pursuing 
public-private partnerships to build local capacity, improve efficiency 
and reduce greenhouse gas emissions, create new investment 
opportunities, and remove barriers to the introduction of clean energy 
technologies in the Asia Pacific region. At the ministerial launch, the 
APP partners created eight task forces in the following areas: (1) 
cleaner fossil energy; (2) renewable energy and distributed generation; 
(3) power generation and transmission; (4) steel; (5) aluminum; (6) 
cement; (7) coal mining; and (8) buildings and appliances. Each Task 
Force is completing an Action Plan that will serve as blueprint for 
cooperation and provide a strategic framework for identifying and 
implementing Partnership activities. The President's fiscal year 2007 
budget request includes $52 million to support APP.
---------------------------------------------------------------------------
    \14\ See: http://www.asiapacificpartnership.org

INTERNATIONAL PARTNERSHIP FOR THE HYDROGEN ECONOMY (IPHE)\15\: In 
November 2003, representatives from 16 governments gathered in 
Washington, DC to launch IPHE, a vehicle to coordinate and leverage 
multinational hydrogen research programs. Moreover, IPHE will develop 
common recommendations for internationally-recognized standards and 
safety protocols to speed market penetration of hydrogen technologies. 
An important aspect of IPHE is maintaining communications with the 
private sector and other stakeholders to foster public-private 
collaboration and address the technological, financial, and 
institutional barriers to hydrogen.
---------------------------------------------------------------------------
    \15\ See: http://www.iphe.net. IPHE members include the United 
States, Australia, Brazil, Canada, China, European Commission, France, 
Germany, Iceland, India, Italy, Japan, New Zealand, Norway, Republic of 
Korea, Russian Federation, and United Kingdom.

CARBON SEQUESTRATION LEADERSHIP FORUM (CSLF)\16\: CSLF is a U.S. 
initiative that was established at a ministerial meeting held in 
Washington, DC, in June 2003. CSLF is a multilateral initiative that 
provides a framework for international collaboration on sequestration 
technologies. CSLF has as members 22 governments representing both 
developed and developing countries.
---------------------------------------------------------------------------
    \16\ See: http://www.cslforum.org. CSLF members include the United 
States, Australia, Brazil, Canada, China, Colombia, Denmark, European 
Commission, France, Germany, Greece, India, Italy, Japan, Korea, 
Mexico, Netherlands, Norway, Russian Federation, Saudi Arabia, South 
Africa, and United Kingdom.
---------------------------------------------------------------------------
    The Forum's main focus is assisting the development of technologies 
to separate, capture, transport, and store CO<INF>2</INF> safely over 
the long-term, making carbon sequestration technologies broadly 
available internationally, and addressing wider issues, such as 
regulation and policy, relating to carbon capture and storage. To date, 
17 international research projects have been endorsed by the Forum, 
five of which involve the United States.

GENERATION IV INTERNATIONAL FORUM (GIF)\17\: In July 2001, nine other 
countries and Euratom joined together under U.S. leadership to charter 
GIF, a multilateral collaboration to fulfill the objective of the 
Generation IV Nuclear Energy Systems Initiative. GIF's goal is to 
develop a fourth generation of advanced, economical, and safe nuclear 
systems that offer enhanced proliferation-resistance and can be adopted 
commercially by 2030. Six technologies have been selected as the most 
promising candidates for future designs, some of which could be 
commercially ready in the 2020 to 2030 timeframe. GIF countries are 
jointly preparing a collaborative research program to develop and 
demonstrate the projects.
---------------------------------------------------------------------------
    \17\ See: http://gen-iv.ne.doe.gov/GENIVintl-gif.asp. GIF member 
countries include the United States, Argentina, Brazil, Canada, France, 
Japan, Korea, South Africa, Switzerland, and United Kingdom.

ITER\18\: In January 2003, President Bush announced that the U.S. was 
joining the negotiations for the construction and operation of the 
international fusion experiment called ITER. ITER is a proposed 
multilateral collaborative project to design and demonstrate a fusion 
energy production system. If successful, this multi-year, multi-billion 
dollar project will advance progress toward determining whether fusion 
technology can produce clean, abundant, commercially available energy 
by the middle of the century.
---------------------------------------------------------------------------
    \18\ See: http://www.iter.org. ITER members include the United 
States, China, EU, India, Japan, Russian Federation, and Republic of 
Korea.

GLOBAL NUCLEAR ENERGY PARTNERSHIP (GNEP)\19\: GNEP has two major goals: 
(1) expand carbon-free nuclear energy to meet growing electricity 
demand worldwide; and (2) promote non-proliferation objectives through 
the leasing of nuclear fuel to countries which agree to forgo 
enrichment and reprocessing. A more fully closed fuel cycle model 
envisioned by this partnership requires development and deployment of 
technologies that enable recycling and consumption of long-lived 
radioactive waste. The GNEP initiative proposes international 
partnerships and significant cost-sharing to achieve these goals.
---------------------------------------------------------------------------
    \19\ See: http://www.gnep.energy.gov

Methane to Markets: The Methane to Markets Partnership is another 
highly practical major element in the series of international 
technology partnerships advanced by the Administration. Launched in 
November 2004, the Methane to Markets Partnership focuses on advancing 
cost effective, near-term methane recovery and use as a clean energy 
source from coal beds, natural gas facilities, landfills, and 
agricultural waste management systems. The Partnership will reduce 
global methane emissions to enhance economic growth, promote energy 
security, improve the environment, and reduce greenhouse gas emissions. 
Other benefits include improving mine safety, reducing waste, and 
---------------------------------------------------------------------------
improving local air quality.

CLOSING OBSERVATIONS

    The United States, in partnership with others, has embarked on an 
ambitious undertaking to develop new and advanced climate change 
technologies that have the potential to transform the economic 
activities that give rise to greenhouse gas emissions. CCTP's Strategic 
Plan sets out an overall strategy to guide and strengthen our technical 
efforts to reduce emissions, articulates a vision of the role for 
advanced technology in addressing climate change, and provides a long-
term planning context in which the nature of both the challenges and 
the opportunities for advanced technologies are illuminated and 
balanced.
    Innovations can be expected to change the ways in which the world 
produces and uses energy, performs industrial processes, grows crops 
and livestock, manages carbon dioxide, and uses land. In keeping with 
U.S. climate change strategy, which is consistent with the United 
Nations' Framework Convention, these technologies could both enable and 
facilitate a gradual shift toward significantly lower global greenhouse 
gas emissions. They would also continue to provide the energy-related 
and other services needed to spur and sustain economic growth.

REFERENCES

    CCTP 2006--U.S. Climate Change Technology Program, Strategic Plan, 
Chapter 3, ``Synthesis Assessment of Long-term Climate Change 
Technology Scenarios,'' (Washington, DC: CCTP). Available at: 
www.climatetechnology.gov

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Biography for Stephen D. Eule
    Stephen D. Eule is the Director of the Climate Change Technology 
Program in the Office of Policy and International Affairs at the U.S. 
Department of Energy. Mr. Eule also manages DOE's participation in the 
Climate VISION program and the Asia-Pacific Partnership on Clean 
Development and Climate, and he represents the Department at various 
international fora on climate change.
    Before joining DOE in June 2003, Mr. Eule spent a decade working in 
various public policy positions. He spent a number of years in the U.S. 
House of Representatives, first as a professional staffer and then 
Subcommittee Staff Director, with the Committee on Science and then as 
Legislative Director in the personal office of Representative Nick 
Smith (R-MI). He also served in Christie Todd Whitman's Washington 
Office as an environmental analyst. Previous to that, he spent about 
eight years with The Orkand Corporation as an energy consultant to the 
Energy Information Administration. His experience also includes a stint 
with the Heritage Foundation, where he was Assistant Editor on the book 
Free Market Energy.
    Mr. Eule earned a Master of Arts degree in geography from The 
George Washington University and a Bachelor of Science degree in 
biology from Southern Connecticut State College.

    Chairwoman Biggert. Thank you very much. Ms. Greenwald, you 
are recognized for five minutes. Push the button on the----

 STATEMENT OF MS. JUDITH M. GREENWALD, DIRECTOR OF INNOVATIVE 
         SOLUTIONS, PEW CENTER ON GLOBAL CLIMATE CHANGE

    Ms. Greenwald. Thank you. Madam Chair and Members of the 
Subcommittee, thank you for the opportunity to testify. My name 
is Judi Greenwald, and I am the Director of Innovative 
Solutions for the Pew Center of Global Climate Change.
    The Pew Center believes that there are three things we in 
the United States must do to reduce the real and growing risks 
posed by global climate change. First, we must enact and 
implement a comprehensive national program to progressively and 
significantly reduce U.S. emissions of greenhouse gases in a 
manner that contributes to sustained economic growth. Given 
that the U.S. greenhouse gas emissions have risen steadily 
despite 15 years of voluntary efforts, the national program 
will need to include mandatory reductions.
    Second, the United States must work with other countries to 
establish an international framework that engages all the major 
greenhouse gas emitting nations in a fair and effective long-
term effort to protect our global climate. Third, we must 
strengthen our efforts to develop and deploy climate-friendly 
technologies, and to diffuse those technologies on a global 
scale.
    In your invitation, you asked me to address three specific 
questions. First, what do you see as the key strengths and 
weaknesses of the U.S. Climate Technology Program's strategic 
plan? While the draft strategic plan provides a fine overview 
of greenhouse gas reducing technologies and the opportunities 
each could present over the long-term, it does not provide a 
plan for deploying these technologies, nor does it provide a 
path to stabilizing concentrations of greenhouse gases.
    The technologies considered in the plan are vitally 
important. However, merely compiling information about them is 
not sufficient to ensure their widespread penetration into the 
marketplace. Markets work when individuals can balance out 
their own costs and benefits. As with many environmental 
problems, individuals generally don't receive financial 
benefits from taking action on climate change. There is clearly 
a value to society of maximizing climate change--of minimizing 
damaging climate effects, but the market does not capture that 
benefit for those who bear the costs.
    Therefore, simply creating a supply of carbon reduction 
technologies does not mean that there will be a demand for 
them. A mandatory constraint on emissions, on the other hand, 
will make emission reductions financially valuable to the 
individual producing them, creating a demand for emissions 
reducing technologies in the marketplace.
    Your second question was will the CCTP enable the 
Administration to meet its goal of cutting greenhouse gas 
intensity by 18 percent by 2012, and does the CTCP put the 
United States on a path to stabilizing greenhouse gas 
emissions? Our response is that the draft plan is likely quite 
adequate for meeting the current goal of 18 percent reduction 
in intensity, but that is only because the goal largely 
reflects business as usual.
    But neither the plan nor the 18 percent intensity reduction 
goal will put the U.S. on a path to stabilizing greenhouse gas 
emissions. Even if this intensity goal is met, emissions will 
continue to rise, rather than stabilize. Interestingly, DOE 
only examined scenarios with emissions constraints to determine 
the estimates of the technologies' potential contributions to 
GHG reductions. Thus, DOE's own analysis confirms what those 
who seriously examine this issue know, that potential 
reductions are driven by the existence of constraints on 
emissions.
    Further, any effort to reduce emissions should be achieved 
through a combination of technology push, i.e., R&D, with 
technology pull, i.e., emission constraints. According to a 
report from the Congressional Budget Office released just this 
week, a combination of these two policies would be necessary to 
reduce carbon emissions at the lowest possible cost. Further, 
they suggest the largest gains in economic efficiency are 
likely to come from pricing emissions, for example, through a 
cap and trade program, rather than from funding R&D. Thus, the 
Administration's approach is necessary, but not sufficient to 
achieve stabilization.
    Your last question was does the draft strategic plan 
provide a sound framework? The Pew Center is pleased to see 
that the plan does not pick winners, but rather, it examines a 
broad portfolio of technologies that have the potential to 
reduce emissions on a large scale, making the most cost-
effective technologies available for reductions in the future.
    The Pew Center supports the portfolio planning and 
investment criteria that the CCTP uses to evaluate various 
technologies, maximizing return on investment, supporting 
public-private partnerships, focusing on technology with large 
scale potential, and sequencing R&D investments in a logical 
developmental order are essential in determining what 
technologies to support.
    In addition to the evaluation of known technologies, we 
believe that efforts to explore new and innovative 
opportunities should also be promoted. We would also like to 
see greater assurance that DOE's many programs will be 
adequately funded on a sustained basis.
    I thank and commend the Chair and the Subcommittee for 
holding this hearing, and for the opportunity to testify. The 
Pew Center looks forward to working with the Subcommittee in 
its oversight capacity, and on the development, enactment, and 
implementation of any future climate change legislation.
    Thank you.
    [The prepared statement of Ms. Greenwald follows:]

               Prepared Statement of Judith M. Greenwald

    Madam Chair and Members of the Subcommittee, thank you for the 
opportunity to testify on the U.S. Department of Energy's plan for 
climate change technology programs. My name is Judi Greenwald, and I am 
the Director of Innovative Solutions for the Pew Center on Global 
Climate Change.
    The Pew Center on Global Climate Change is a non-profit, non-
partisan and independent organization dedicated to providing credible 
information, straight answers and innovative solutions in the effort to 
address global climate change.\1\ Forty-one major companies participate 
in the Pew Center's Business Environmental Leadership Council (BELC), 
making the BELC the largest U.S.-based association of corporations 
focused on addressing the challenges of climate change. Many different 
sectors are represented, from high technology to diversified 
manufacturing; from oil and gas to transportation; from utilities to 
chemicals. These companies represent $2 trillion in market 
capitalization, employ over three million people, and work with the 
Center to educate the public on the risks, challenges and solutions to 
climate change.
---------------------------------------------------------------------------
    \1\ For more on the Pew Center, see www.pewclimate.org
---------------------------------------------------------------------------
    Global climate change is real and likely caused mostly by human 
activities. While uncertainties remain, they cannot be used as an 
excuse for inaction. To quote the National Academy of Sciences, in a 
statement signed by the academies of ten other nations, as well: ``The 
scientific understanding of climate change is now sufficiently clear to 
justify nations taking prompt action. It is vital that all nations 
identify cost-effective steps that they can take now, to contribute to 
substantial and long-term reduction in net global GHG emissions.''
    The Pew Center believes there are three things we in the United 
States must do to reduce the real and growing risks posed by global 
climate change: First, we must enact and implement a comprehensive 
national program to progressively and significantly reduce U.S. 
emissions of greenhouse gas (GHG) emissions in a manner that 
contributes to sustained economic growth. Given that U.S. GHG emissions 
have risen steadily despite fifteen years of voluntary efforts to 
reduce them, any such national program must include mandatory 
reductions. Second, the United States must work with other countries to 
establish an international framework that engages all the major GHG-
emitting nations in a fair and effective long-term effort to protect 
our global climate. Third, we must strengthen our efforts to develop 
and deploy climate-friendly technologies and to diffuse those 
technologies on a global scale.
    I would like to address the questions you posed to me directly 
first:

1.  What do you see as the key strengths and weaknesses of the plan?

    While the draft Strategic Plan provides a fine overview of GHG-
reducing technologies and the opportunities each could present over the 
long-term, it does not provide a plan for deploying these technologies, 
nor does it provide a path to stabilizing concentrations of GHGs. The 
technologies considered in the Plan are vitally important; however, 
merely compiling information about them is not sufficient to ensure 
their widespread penetration into the marketplace.
    Markets work when individuals can balance out their own costs and 
benefits. As with many environmental problems, individuals generally do 
not receive financial benefits from taking action on climate change. 
There is clearly a value to society in minimizing damaging climate 
effects, but the market does not capture that benefit for those who 
bear the costs. Therefore, simply creating a supply of carbon-reduction 
technologies does not mean there will be a demand for them. A mandatory 
constraint on emissions, on the other hand, will make emissions 
reductions financially valuable to the individuals producing them, 
creating a demand for emissions-reducing technologies in the 
marketplace.
    The estimates of the technologies' potential contributions to 
emissions reductions in the Strategic Plan are derived from a report 
prepared by the Pacific Northwest National Laboratory. The report, 
``Climate Change Technology Scenarios: Energy, Emissions and Economic 
Implications,'' \2\ considers a range of energy scenarios accompanied 
by a range of possible emissions constraints. Three hypothetical 
scenarios are included, along with a reference (business-as-usual) 
scenario. The three scenarios are each evaluated for four different 
emissions-constrained cases of varying levels of stringency. Only the 
reference scenario is considered under a ``no emissions constraint'' 
case. Yet the reference scenario with no emissions constraint--the 
situation that best matches the current U.S. technology market and 
policy direction--is not noted in the Strategic Plan. Instead, only the 
analyses that include emissions constraints--an approach contrary to 
current U.S. policy--are included in the estimates of the technologies' 
potential contributions to GHG reductions. This makes it impossible to 
evaluate the likelihood of the Plan's success under current policies, 
and also supports what most people who seriously examine this issue 
know--that potential reductions are driven by the existence of 
constraints on emissions and the demand for technology to deal with 
those constraints, rather than purely on the federal effort invested in 
technology research and development.
---------------------------------------------------------------------------
    \2\ Placet, M., K.K. Humphreys, N.M. Mahasenan. 2004. ``Climate 
Change Technology Scenarios: Energy, Emissions and Economic 
Implications,'' Pacific Northwest National Laboratory, August 2004.
---------------------------------------------------------------------------
    A combination of technology ``pushing'' activities (such as those 
discussed in DOE's plan) with technology ``pulling'' legislation that 
mandates reductions of U.S. GHG emissions would be the most effective 
and efficient way to deploy climate-friendly technology throughout the 
economy. Our analysis indicates that combining push and pull will give 
better results than relying on either alone: studies indicate, for 
example, that combining R&D incentives with carbon caps will cost the 
economy an order of magnitude less than relying on either R&D 
incentives or emissions reduction policies alone.\3\
---------------------------------------------------------------------------
    \3\ See Induced Technological Change and Climate Policy, Lawrence 
H. Goulder, Pew Center on Global Climate Change, Arlington, Virginia, 
October 2004.

2.  Will the CCTP enable the Administration to meet its goal of cutting 
                    GHG intensity by 18 percent by 2012? Does the CCTP 
                    put the United States on a path to stabilizing GHG 
                    emissions?

    The Plan is likely quite adequate for meeting the current goal of 
18 percent reduction in intensity, but that is only because the goal 
largely reflects business as usual. But neither the Plan nor the 18 
percent intensity reduction goal will put the U.S. on a path to 
stabilizing GHG emissions. Even if this goal is met, emissions will 
continue to rise rather than stabilize.
    It should also be noted that the U.S. commitment under the UN 
Framework Convention on Climate Change, which is noted in the Plan, is 
not to stabilize emissions, but rather to stabilize atmospheric 
concentrations of GHGs. The UNFCCC commitment further specifies that 
concentrations should be stabilized ``at a level that would prevent 
dangerous anthropogenic interference with the climate system.'' \4\ 
While there is not yet a global consensus on the concentration at which 
this would occur, it is important to consider the full extent of this 
commitment in evaluating the Plan's success in achieving it. Impacts 
generally considered to indicate dangerous interference range from the 
disintegration of the Greenland ice sheet, eventually raising sea 
levels by as much as 20 feet,\5\ increased hurricane intensity, 
compounding the danger to millions of citizens in the Southeast and 
Gulf coasts,\6\ depleted water resources in the Western United States 
due to reductions in winter snow pack,\7\ and the threat of extinction 
of thousands of species,\8\ particularly those dependent on highly 
sensitive habitat (for example, polar bears, threatened by the melting 
of the arctic ice pack; pika, threatened by the desiccation of alpine 
meadows, and corals threatened by thermal stress and ocean 
acidification). Most experts now believe that a doubling of CO<INF>2</INF> 
concentrations (i.e., around 550 ppm) is too high to avoid dangerous 
interference with the climate system, such as the impacts just listed. 
We do not know what a safe level is, though many are proposing 450 ppm 
as a level that has potential to avoid large-scale effects on the 
climate. (See Schellnhuber, Cramer, Nakicenovic, Wigley and Yohe, 2006, 
``Avoiding Dangerous Climate Change,'' Cambridge University Press.)
---------------------------------------------------------------------------
    \4\ http://unfccc.int/essentialG5-background/convention/background/
items/1349.php
    \5\ Alley, R.B., et al., 2005. ``Abrupt Climate Change.''
    \6\ Emanuel, K., et al., 2005. ``Increasing destructiveness of 
tropical cyclones over the past 30 years.''
    \7\ Mote, P. et al., 2003. ``Preparing for climatic change: The 
water, salmon, and forecasts of the Pacific Northwest.''
    \8\ Thomas, C.D., et al., 2004. ``Climate change and extinction 
risk.''
---------------------------------------------------------------------------
    While it is understandable that the CCTP has not chosen a specific 
atmospheric concentration of GHGs to be achieved--this is not its 
charge--the absence of such a target in the Nation's strategy presents 
another difficulty in assessing the Plan's likelihood of success. While 
a 450 ppm constraint is considered in the Plan, it is the most 
stringent of all options considered. The other cases involve 
concentrations well above this level (up to 750 ppm--almost a tripling 
of pre-industrial levels) and have a large potential to reflect 
dangerous anthropogenic interference. Given the Plan's consideration of 
a range of potential stabilization targets, it would be far more 
helpful if the Plan described the pace and scale of deployment that 
would be needed to achieve each of the targets considered. A strategy 
for CO<INF>2</INF> stabilization at 450 ppm might look very different 
from a strategy for stabilization at 750 ppm, but those differences 
would not become evident unless the paths to the targets are outlined. 
This would aid policy-makers in understanding the technological 
implications of various targets that might be adopted, as well as aid 
the CCTP in choosing its technology priorities.
    Unfortunately, while the Plan gives a fine overview of GHG-reducing 
technologies and the role that each could play, the analysis of 
potential reductions is limited to scenarios that do not match current 
conditions or stated policy directions. As demonstrated in the 
estimates made in this Plan, it is mandatory emissions constraints in 
conjunction with technology investment--rather than technology 
investment alone--that will spur technology deployment and diffusion. 
In the absence of these constraints, the potential reductions outlined 
in this Plan will not be achieved.

3.  Does the draft strategic plan provide an integrated framework of 
                    sound guidance, clear goals and next steps for 
                    agencies and researchers to use when prioritizing 
                    and selecting future research efforts? If so, 
                    please explain. If not, how should the 
                    Administration set R&D investment priorities among 
                    various climate change technologies and CCTP 
                    agencies?

    The Pew Center is pleased to see that the plan does not pick 
winners, but rather it examines a broad portfolio of technologies that 
have the potential to reduce emissions on a large scale, making the 
most cost-effective technologies available for reductions in the 
future. The Pew Center supports the Portfolio Planning and Investment 
Criteria that the CCTP uses to evaluate various technologies: 
maximizing return on investment, supporting public-private 
partnerships, focusing on technology with large-scale potential, and 
sequencing R&D investments in a logical, developmental order are 
essential in determining what technologies to support. In addition to 
this evaluation of known technologies, efforts to explore new and 
innovative opportunities should also be promoted. The small portion of 
section 9 that describes the importance of doing exploratory research 
aimed at pursuing novel concepts not elsewhere covered should be given 
more emphasis. The fact remains that, while there are myriad 
technologies that we currently know can contribute to GHG emissions 
over the long-term, it may be technologies that have not yet been 
discovered that will have the most impact. With accommodations for 
these unknown opportunities, the report acts as a useful summary of the 
current and future technologies that may have a significant impact on 
reducing carbon emissions if deployed.
    Regarding your overarching questions 1 and 2, please see my 
response to questions 2 and 3 above. I would like to address your third 
overarching question specifically.

3.  How could the CCTP plan be improved? What next steps are needed to 
                    implement a clear climate change technology 
                    strategy?

    The U.S. Department of Energy is doing a good job in running a 
rational research and development program for technologies that are 
likely to contribute to solving the climate change problem in the 
future. As mentioned, however, what is lacking is an emphasis on 
deployment. Technologies that sit on the shelf are not useful. 
Deployment depends on private companies deciding to use these new 
technologies rather than their old, more carbon-intensive technologies. 
Without a mandatory GHG constraint, private companies do not have 
sufficient incentives to do so. The end result is an increase in 
technology innovation but little demand for those technologies in the 
market.
    Finally, the technology initiatives discussed in the plan can only 
be effective if they are adequately funded and managed, and implemented 
with some urgency. DOE and the other federal agencies run a mind-
boggling collection of programs that could promote climate-friendly 
technologies. There are numerous domestic and internationally focused 
programs, many of these intended to advance the climate-friendly 
technologies we would want deployed, including the Asia-Pacific 
Partnership, Climate Leaders, Climate VISION, Climate Challenge, Clean 
Cities, the Hydrogen Fuel Initiative, the Carbon Sequestration 
Leadership Forum, the Methane-to-Markets Partnership, the Industrial 
Technology Project, the SmartWay Transport Partnership, the Partnership 
for a Hydrogen Economy, FreedomCAR, Energy STAR, Generation IV Nuclear 
Initiative, Vision 21, 21st Century Truck, Nuclear Power 2010, ITER22, 
FutureGen, Future Fuel Cells, Industries of the Future, and Turbines of 
Tomorrow.
    While it is difficult to tell exactly how much has been budgeted 
for each of these programs, according to the Administration's Federal 
Climate Change Expenditures Report to Congress (April 2006), the total 
FY 2006 budget authority for all CCTP initiatives amounts to about $2.8 
billion, with a $207 million increase proposed for 2007. This increase 
is a step in the right direction, but it is not enough. In addition, it 
is crucial not just that these initiatives be funded, but that they be 
funded in a long-term, stable way--even forward-funded--to ensure that 
research managers are able to make the kind of plans that large-scale 
technology development requires.
    Related to this is the challenge of implementing so many 
initiatives on a timely basis. Because it is far easier to explain to 
the press and public the launch of an initiative than to explain the 
boring details of its implementation, the political rewards of 
launching initiatives greatly outweigh those of implementation. Our 
sense is that DOE and the other federal agencies are doing a good job 
implementing these programs, but we are concerned that the 
Administration may not be placing sufficient priority on them.
    It would be a shame if three years from now, in another oversight 
hearing, we learned that all these programs were under funded and given 
insufficient priority within the Administration. We simply cannot 
afford to lose the time.
    I thank and commend the Chair and the Subcommittee for holding this 
hearing and for the opportunity to testify. The Pew Center looks 
forward to working with the Subcommittee in its oversight capacity and 
on the development, enactment and implementation of any future climate 
change legislation.

                   Biography for Judith M. Greenwald

    Judi Greenwald is the Director of Innovative Solutions of the Pew 
Center on Global Climate Change. She oversees the Solutions program and 
develops mechanisms for learning about and promoting innovative 
solutions--including research, publications, web-based information and 
data bases, and workshops. Ms. Greenwald focuses on business solutions, 
state and regional solutions, and technological innovation.
    Ms. Greenwald has over 20 years of experience working on energy and 
environmental policy. Prior to coming to the Pew Center, she worked as 
a consultant, focusing on innovative approaches to solving 
environmental problems, including climate change. She also served as a 
senior advisor on the White House Climate Change Task Force. As a 
member of the professional staff of the U.S. Congress Energy and 
Commerce Committee, she worked on the 1990 Clean Air Act Amendments, 
the 1992 Energy Policy Act, and a number of other energy and 
environmental statutes. She was also a Congressional Fellow with then-
Senate Majority Leader Robert C. Byrd, an environmental scientist with 
the U.S. Nuclear Regulatory Commission, and an environmental engineer 
and policy analyst at EPA.
    Ms. Greenwald has a Bachelor of Science in Engineering, cum laude, 
from Princeton University, and an M.A. in Science, Technology and 
Public Policy from George Washington University.
    Ms. Greenwald has published papers on the future of water quality 
monitoring, worker and community adjustment to climate change policy, a 
multi-media approach to radon, environmental policies affecting the 
development of newer coal technologies, and the implications for air 
quality analysis of extended lifetimes for coal-fired boilers.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairwoman Biggert. Thank you, Ms. Greenwald. Mr. 
Mottershead, you are recognized for five minutes.

 STATEMENT OF MR. CHRIS MOTTERSHEAD, DISTINGUISHED ADVISOR ON 
                 ENERGY AND THE ENVIRONMENT, BP

    Mr. Mottershead. Thank you very much, Madam Chairwoman and 
Members of the Subcommittee. Thank you for inviting BP to give 
evidence.
    We share the overall objective of finding a way to both 
stabilize atmospheric concentrations of greenhouse gases, as 
well as maintaining economic growth, and that we believe that 
technology is a key component of managing delivery of these two 
objectives.
    Moving to the plan, we believe it is comprehensive, it has 
the necessary breadth, while actually bringing focus to those 
things that we believe are most likely to deliver reductions. 
We believe that the greenhouse gases will be reduced by the 
investments that we make in the future, and I think that the 
plan clearly reflects that, and perhaps that challenges some of 
the short-term questions about its relevance to 2012.
    Fourthly, we think that it resonates with the activities of 
BP, and we recognize the activities as they are laid out, and 
our participation in many of the projects, from solar, to wind, 
to biofuels, and to carbon capture and storage.
    Fourthly, we do believe that it has weaknesses, but they 
are probably more to do with the context in which the plan has 
to operate, rather than in the plan itself. Particularly, we 
agree with Pew that actually to have an effective plan, you 
have to be clear about what the overall goal is, and therefore, 
we would encourage a setting of an overall goal, so that we can 
see that the necessary reductions are being made for 
stabilization, and that the optimal cost is being delivered 
through that plan.
    Secondly, we believe that actually, innovation happens 
largely through learning by doing, and that while research is 
absolutely necessary and underpins activity, actually, the 
delivery of the plan will be most effective when it is actually 
borne out by deployment, and therefore, we would like to see 
more emphasis placed on deployment and diffusion of the 
technology, as well as further creation.
    And finally, we believe that there is a need to better 
articulate the relative roles of public and private 
participation in actually determining the overall outcome. And 
while there are examples of new forms of partnership, we think 
that they need to be extended in order to fully embrace the 
creativity of business in delivering the necessary solutions.
    So, Madam Chairwoman, thank you very much, and I would be 
happy to answer questions later.
    [The prepared statement of Mr. Mottershead follows:]

                Prepared Statement of Chris Mottershead

    Madame Chairman, Members of the Subcommittee--thank you for the 
opportunity today for BP to participate in this discussion about the 
Administration's approach to climate change-related technology 
research, development, demonstration and deployment.
    BP is involved in many discussions in the U.S. about climate 
change. Our objective is to establish how we might most effectively 
contribute to the task of providing the energy that is necessary to 
underpin economic growth, while avoiding dangerous interference in the 
climate system. While the debate continues around the long-term goal 
and identifying a full set of policy options, we should take action 
where there does appear to be agreement.
    One of these areas is technology. Other policy instruments will be 
necessary to address climate change, but technological innovation is 
central. The development of the Strategic Plan clearly recognizes this 
critical role of technology.
    The Climate Change Technology Program's Strategic Plan is 
comprehensive and well considered. It acknowledges the important role 
of technology in reducing GHG emissions, providing a framework for 
identifying, developing and deploying technologies.
    I would like to briefly touch on what we view as important 
components of the Plan, and touch upon what we view as opportunities to 
improve the Plan.
    We share the stated ultimate goal of the Strategic Plan--the 
stabilization of GHG concentrations in the atmosphere at a level that 
prevents dangerous interference with the climate system. Of course, 
there are uncertainties in the science, there always will be, but we 
believe that based on current science it is only prudent to take 
action. The Strategic Plan is an acknowledgement of this need to take 
action.
    The Plan acknowledges that the overwhelming majority of GHG 
emissions will be associated with equipment and infrastructure that has 
yet to be built, but once built will constrain our future options. So 
while we recognize the importance of getting started, and the need for 
short-term emission reductions, we believe the primary focus should be 
on future investment decisions, ensuring that the best technological 
options are available and used.
    By 2030 the world's consumption of electricity is expected to 
double, as economies grow. However, the power sector is already the 
largest single source of GHG's emissions, and as demand grows so will 
emissions. This growth in demand for electricity is a business 
opportunity, as over half of the power plants that will be needed have 
yet to be built. The Plan helps to determine what the technological 
options are for these investments.
    The same is true for the transport sector, where we must develop 
and invest in both the best available vehicle and fuel technology, as 
well as looking to improve mobility more generally.
    The Plan recognizes that we need research on both renewable and 
fossil fuels. Solar, wind, biofuels and other alternative energy 
sources one day will be able to meet a significant part of U.S. and 
world energy demand. But we also need to develop the technology that 
allows the U.S. to utilize fossil fuels, and particularly coal. Fossil 
fuels currently supply about 80 percent of all primary energy and will 
remain fundamental to global and U.S. competitiveness and energy supply 
for many decades.
    BP is taking action in many areas, including major investments in 
both the power and transport sectors. BP Alternative Energy provides 
clean power from wind, solar, gas-fired and hydrogen power. We have 
already committed to investing $8 billion over the next 10 years in 
this business. We are pleased to see that these alternatives are 
comprehensively addressed in the Strategic Plan.
    As an example let me briefly talk about Carbon Capture and Storage 
technology, which sits at the heart of our new hydrogen power business. 
Over the next 10 years BP, in partnership with GE, aims to develop 10 
to 15 hydrogen power projects. BP, together with Edison Mission Energy, 
has already announced its plans for a hydrogen power plant in Southern 
California, an investment of over $1 billion dollars. The facility will 
utilize a low value by-product of the refining process, petroleum coke, 
to generate much needed supplies of electricity to the Southern 
California market. The project will accomplish this by gasifying the 
petroleum coke and using the resulting hydrogen to drive a turbine to 
generate electricity. The CO<INF>2</INF> produced by the process will 
be transported by pipeline to a California oil field where it will be 
injected deep underground, both stimulating domestic oil production and 
permanently storing the CO<INF>2</INF>.
    Where we see opportunity to improve the Strategic Plan is in 
increased clarity about the scale of the task, the emphasis we would 
place on Learning-By-Doing, and finally a clearer definition of the 
necessary public and private partnership.
    While it is not the role of Plan to determine stabilization goal, 
without one it is difficult to know whether the plan will deliver 
sufficient emission reductions at an optimal cost.
    Many technologies already exist, and we would like to see greater 
focus upon deployment and diffusion of these technologies, particularly 
engineering cost reduction, removal of institutional barriers and the 
building of material new markets. Many barriers are institutional and 
behavioral and, as such, the social sciences can make a significant 
contribution.
    Finally, the opportunity exists to better define how government 
will interact with the private sector. Government and business each 
play key but distinct roles in developing and deploying technology. We 
would like to see more thought given to encouraging innovative public-
private partnerships.
    In conclusion, let me say that it would be difficult, if not 
impossible, to make a determination as to whether the Strategic Plan, 
by itself, is capable of meeting the President's goal of reducing GHG 
intensity. The answer to this question depends largely on the level of 
success of individual technologies, having the proper regulatory 
frameworks in place, public acceptance, and an environment in which 
companies can feel comfortable making long-term investments in these 
technologies at the necessary scale.
    What I can say is that the Plan is a helpful and necessary step. BP 
looks forward to playing a role in the successful implementation of the 
Plan.
    Thank you and I look forward to answering any questions you may 
have.

                    Biography for Chris Mottershead

    Chris joined BP Research, at its London-based research laboratories 
in 1978 as an instrument and control engineer. During the mid-eighties 
Chris lead a team to create and commercialize large-scale scientific 
computers as part of BP's then new venture activities. In the late 
eighties he ran BP's exploration computing activities in London, 
Glasgow and Houston. During the early nineties he became commercial 
manager of exploration and production technical activities. Chris then 
moved to BP's North Sea operations, first to Glasgow and then Aberdeen, 
becoming the central technical manager. He returned to London, becoming 
the VP Technology, Engineering and HSE for BP's global gas, power and 
renewable activities.
    He is currently Distinguished Advisor Energy and Environment, and 
provides leadership to the BP Group on making its products and 
operations consistent with the principles of sustainable energy and the 
environment.
    He is also a Director of the Carbon Trust in London and the Center 
for Clean Air Policy in Washington, and on the Advisory Boards of the 
National Center for Atmospheric Research in Boulder, the Climate Group, 
the UK Engineering and Physical Sciences Research Council and the G8+5 
Legislators and Business Leaders Climate Change Dialogue.

    Chairwoman Biggert. Thank you very much. Dr. Hoffert, you 
are recognized. You want to turn--push the button. I don't 
think it is on.
    Dr. Hoffert. Can you hear me?
    Chairwoman Biggert. Yes.

   STATEMENT OF DR. MARTIN I. HOFFERT, EMERITUS PROFESSOR OF 
                  PHYSICS, NEW YORK UNIVERSITY

    Dr. Hoffert. Technology is wonderful, isn't it?
    I, too, would like to thank Madam Chairman and the 
Subcommittee Members for inviting me, albeit on short notice, 
and I would certainly like to associate myself with some of the 
comments that have been made thus far regarding the need for 
goals, and regarding the need for innovation, even more so.
    So, I think the best, most effective use of my time might 
be to specifically discuss those goals, and how they emerge 
from our scientific understanding of the program, and to make 
some specific suggestions as to how innovative ideas might be 
introduced into the program that are not already present in it. 
In no way does this imply that I don't support the CCTP. It is 
very much needed.
    First, as to the goal, I don't have to belabor any more 
this issue of 18 percent decrease in specific energy over ten 
years. At the time GDP goes up by 30 percent, emissions will 
rise by approximately 1.2 percent, which is the historical rate 
at which global emissions are rising. So, this is----
    Chairwoman Biggert. Could you pull the mike just a little 
bit away from you?
    Dr. Hoffert. Yes, okay. Can you hear me better?
    Chairwoman Biggert. Yes.
    Dr. Hoffert. With more clarity.
    This would certainly not satisfy the objective of the 
Framework Climate Convention, albeit how it was very poorly 
defined when the Rio Treaty was originally enacted. It was 
defined as avoiding dangerous human interference with the 
climate system without defining that.
    Lately, those of us who have worked in climate, I should 
say parenthetically that I myself have worked both in climate 
and energy research for the last 30 years, indeed, I was a 
colleague of Jim Hansen's and Steve Schneider's 30 years ago 
when this problem was a fascinating intellectual exercise, and 
before we realized that all of these calculations that we were 
doing were actually going to happen.
    The point I am trying to make is that our understanding of 
the problem should inform our policy, and let me put it this 
way. If we were to adopt a goal of not allowing the temperature 
of the Earth to exceed two degrees Celsius, this is a goal that 
many have mentioned in the European Union, Tony Blair, and Jim 
Hansen has articulated the reasons for this having to do with 
the potential for irreversible melting of the polar icecaps. 
And if we want to ensure that, and at the same time, grow the 
GDP of the world between two and three percent, which is a 
likely minimum for permitting equity between the vast 
differences of income of developed and developing countries, if 
that were to be adopted, then it is a mathematical and 
engineering problem which can be solved, what would be required 
in the nature of emission reductions.
    There is some uncertainty, but we know what the boundaries 
of that uncertainty is, and the results are staggering and very 
rarely discussed. In fact, what we would have to do is 
essentially phase out virtually all carbon dioxide emissions by 
the middle of this century, and keep them close to constant in 
the near-term. If, at the same time, we want to reach those GDP 
goals, and economic growth goals, and require that this be done 
with our energy consumptive society, one can calculate how much 
energy capacity we would need that doesn't put CO<INF>2</INF> 
into the atmosphere. I am emphasizing CO<INF>2</INF>, although 
I know there are other greenhouse gases. And it is truly 
staggering, it is between 100 and 300 percent of all the energy 
that the world uses now would have to come, 50 years from now, 
from some energy source X, as yet undetermined, and that is 
even with a very large amount of energy efficiency 
improvements.
    I and colleagues have proposed that the focus of the 
Department of Energy's program on technology should be to 
roughly look at the three--and this is supply side, I am 
emphasizing that, but it in no way denigrates the importance of 
efficiency--roughly one third of that might come from 
carbonaceous coal with CO<INF>2</INF> sequestered or stored, 
one third from nuclear reactors, albeit understanding all the 
problems of nuclear reactors would have to be addressed, in 
addition to the question of them becoming sustainable energy 
sources for the long-term, and one third from renewables.
    Now, the fact is that the world is building totally wrong 
infrastructures in all of those three areas: 750 new coal-fired 
power plants are being built by the U.S., China, and India that 
will overwhelm Kyoto emission reductions by a factor of five, 
if those reductions even take place. For the first time, people 
are contemplating building nuclear reactors in this country, 
the first time in 30 years, and the ones that are proposed are 
once-through nuclear reactors using the U-235 isotope.
    We need to be having serious discussions about the uranium 
fuel cycle, because as in the case of the coal plants, once you 
build these plants, you are sinking the investment for 50 to 75 
years. We are, in fact, right now building the energy 
infrastructure of the second half of the 21st century, 
certainly the first half, and it is really going by without a 
whimper, because we are living in these two parallel worlds, 
the world of potentially what should we do about climate change 
and energy security, and the real world of what we are doing.
    As regards renewables, we are also building the wrong 
infrastructure. If we want renewable energy, I think the 
greatest potential, aside from buildings which, as associated 
with efficiency, is from solar and wind, which are 
intermittent, dispersed, and low power density sources. We 
don't have the right kind of electric utility grids to 
accommodate those energy sources, and when we are talking about 
rebuilding the national grids to, for example, avoid blackouts, 
we are not talking about what kind of grids would provide the 
transmission and the storage capability to allow renewable 
energy to provide roughly 30 percent.
    The problem is also complicated by the fact that we are 
having this discussion in terms of our own national priorities, 
when this is actually an international program. And this is the 
reason why I and several of my colleagues have proposed what 
some are calling an Apollo program or a Manhattan Project in 
alternate energy. In fact, we first proposed this program in 
1998 in a paper that was published in Nature. I was first 
author with many colleagues, and the week after the paper came 
out, the Nature editorial writer said that well, this was--this 
isn't such a very good idea, because Jimmy Carter had a program 
in the 1970s, an energy program, and after all, a lot of money 
was invested in that, and it didn't bear fruit. I would like to 
explore that. Time doesn't permit me to, but I absolutely don't 
believe that. I think that that 30 years ago program, which I 
am actually old enough to have worked in, had we continued to 
develop those alternative projects, alternative ways of both 
producing and conserving and utilizing energy more efficiently, 
we might actually have something on the shelf right now.
    My own view is that the emperor has no clothes, that we 
really do not have a technologically adequate set of primary 
power generation to effectively address the CO<INF>2</INF> 
problem, and things will almost certainly get worse before they 
get better. But I am a technology optimist, and I would like 
them to get better, so I would say the absolutely first 
priority is to clearly define what the energy implications are 
for stabilizing climate at some level that we would consider 
acceptable.
    The stakes are very high. What is involved is the survival 
of our high technology society. There is no guarantee that just 
because things are going along so well that they will continue 
to do so, and climate change is basically the canary in the 
mineshaft. It is the first of many problems we are going to 
have to address. I don't know how much time I have left. I 
should probably be winding down.
    Chairwoman Biggert. I think you can wrap up.
    Dr. Hoffert. Yeah. Yeah. So--well, maybe fortunately for 
you, but unfortunately for me, I didn't really have the time to 
continue this exposition, which would very likely offend a 
number of people, but that is what would make it interesting.
    Thank you.
    [The prepared statement of Dr. Hoffert follows:]

                Prepared Statement of Martin I. Hoffert

                        An Energy Revolution for

                         the Greenhouse Century

         When there is no vision, the people perish.
                         --Proverbs 29:18

         You see things: and you say, ``Why?''
         But I dream things that never were; and I say, ``Why not?''

                         --George Bernard Shaw, Back to Methuselah 
                        (1921)

         We choose to go to the moon in this decade and do the other 
        things, not because they are easy, but because they are hard, 
        because that goal will serve to organize and measure the best 
        of our energies and skills, because the challenge is one that 
        we are willing to accept, one we are unwilling to postpone, and 
        one we intend to win.. . .
                         --John F. Kennedy, Rice University, 1962

    The reality of global warming from the buildup of fossil fuel 
carbon dioxide in the atmosphere is no longer in doubt. Arctic sea ice, 
tundra, and alpine glaciers are melting, tropical diseases like West 
Nile virus and malaria are penetrating higher latitudes, and sea 
surface temperatures have risen to the point where Katrina-like 
hurricanes are not only more probable, but actually occur. Also taking 
place are the extinction of plants and animals adapted to cooler 
regimes but unable to migrate poleward fast enough to keep pace with a 
warming climate. Polar bears, already far north, may have nowhere to 
go. Ominously, the melting of Greenland and Antarctic icecaps is 
accelerating, threatening worldwide major sea level rise and coastal 
inundation (Hansen, 2006; Gore, 2006; Kolbert, 2006; Flannery, 2006).
    These are well-documented facts, not alarmist predictions by 
desperate environmentalists in search of funding (Crichton, 2003) or 
some colossal hoax on the American people (Inhofe, 2003). Atmospheric 
warming from water vapor, CO<INF>2</INF>, and other greenhouse gases is 
a basic principle of atmospheric science. It is responsible for 
maintaining Earth as a habitable zone for life, and for making Venus, 
with its pure CO<INF>2</INF> atmosphere 100 times thicker than Earth's, 
hot as metaphorical Hell. Cooling can result from suspended aerosol 
particles also produced by burning fossil fuels, but aerosols remain in 
the atmosphere a much shorter time than CO<INF>2</INF> and their 
cooling effect, so far, has mainly served to mask the full impact of 
warming from CO<INF>2</INF> emissions. (Some propose ``geoengineering'' 
climate by intentionally injecting aerosols to cool regions most 
threatened by global warming, such as the Arctic; see for example 
Teller, Wood, and Hyde, 2002.) Heat temporarily stored in oceans can 
also delay or mask committed greenhouse warming, as can variations in 
the output of the sun and volcanic eruptions. But volcanoes, the sun, 
and the oceans cause surface temperature to rise and fall in a narrow 
range. In retrospect, it was inevitable that the explosive growth (on a 
geological time scale) of human CO<INF>2</INF> emissions, driven by 
population growth, industrialization and, most of all, by fossil fuel 
energy use, made it inevitable that human-induced warming would 
overwhelm climate change from all the other factors at some point. And 
we are at that point.
    That fossil fuel atmospheric carbon dioxide would warm the planet 
was predicted over a century ago (Arrhenius, 1896). Roughly half the 
CO<INF>2</INF> input by humans remains in the atmosphere. The rest 
mostly dissolves in the ocean, creating excess acidity that marine 
organisms may not be able to tolerate, which is another problem. By the 
third quarter of the twentieth century, CO<INF>2</INF> buildup in the 
atmosphere was evident, although greenhouse warming did not emerge from 
background ``noise'' until the late 1980s. Hans Suess and Roger Revelle 
recognized early on that transferring hundreds of billions of tons of 
carbon in fossil fuels (coal, oil, and natural gas) formed over 
hundreds of millions of years and locked up in Earth's crust to the 
atmosphere as CO<INF>2</INF> in a few hundred years was ``grand Fig. 1 
geophysical experiment'' on a scale unseen in human history (Revelle 
and Suess, 1957). Revelle was to be an influential professor of Al 
Gore's at Harvard, with ramifications reverberating today (Gore, 2006). 
By the late 1960s, Syukuro (Suki) Manabe, to my mind, an ``Einstein'' 
of atmospheric science, had worked out the detailed physics of how 
greenhouse gases affect atmospheric temperature from the surface to the 
stratosphere, including the water vapor feedback that roughly doubles 
warming from CO<INF>2</INF> alone (Manabe and Weatherald, 1967).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The discovery of global warming is a fascinating chapter in the 
history of science (Weart, 2003). Many phenomena that we are now 
seeing--heat going into the oceans, greater warming at the Arctic, 
volcanic and aerosol effects--were predicted decades ago. One group, 
including Steve Schneider, Richard Sommerville, Jim Hansen and this 
author, worked on this problem in the 1970s, primarily as an 
intellectual challenge in theoretical climate modeling and computer 
science at the Goddard Institute of Space Studies (GISS), a NASA-funded 
research institute near Columbia University started by Robert Jastrow 
while he was still in his twenties.
    Back then, global warming was not yet politicized as it is now 
(Figure 1). A ``back of the envelope'' calculation I did at GISS in the 
'70s suggested fossil fuel greenhouse warming would emerge from 
background temperature variations by the late '80s. So I thought it 
might be a good idea to publish some papers predicting this, which I 
did, as did colleagues at GISS and elsewhere. That limiting CO<INF>2</INF> 
emissions to avoid adverse global warming might disrupt consumerist 
civilization and multinational energy companies while putting a damper 
on industrialization of China and India was implicit, but academic.
    Ironically, in light of the conclusive support for it developed at 
the research institute he founded (Hansen et al., 2005), Jastrow was 
highly critical of the global warming hypothesis. He never published 
peer-reviewed climate research, in stunning contrast to the present 
GISS director, Jim Hansen; but, on taking early retirement from NASA, 
Jastrow and Fred Seitz of Rockefeller University founded the Marshall 
Institute in Washington, D.C., a bastion of climate change deniers 
allied with the American Enterprise Institute, the Cato Institute, and 
other conservative think tanks in opposition to U.S. participation in 
the CO<INF>2</INF>-emissions-limiting Kyoto Protocol--the first 
implementation of the UN Framework Climate Change Convention (FCCC).
    The United States, China, and India have not ratified Kyoto. 
Indeed, 850 new coal-fired power plants to be built in these countries 
by 2012 will overwhelm Kyoto emission reductions by a factor of five 
(Clayton, 2004). Avoiding ``dangerous human interference with the 
climate system,'' the goal of the UN FCCC, is a daunting technological 
challenge because 85 percent of the world's energy comes from fossil 
fuel; and stabilizing global temperature at acceptable levels will 
require a revolutionary change in the world's energy systems (Hoffert 
et al., 1998; 2002; ``Energy's Future,'' 2006). Although global warming 
is settled science, a public relations battle continues to rage.
    Problems exist on both sides of the red-blue divide. In a searing 
critique of environmental nongovernmental organizations (NGOs) like the 
National Resources Defense Council and Environmental Defense, 
Shellenberger and Nordhaus (2005) argue that, despite major campaigns, 
environmental lobbies have had little success on the global warming 
front. The authors discount efforts by states in the United States to 
create renewable energy portfolios with ambitious targets for alternate 
energy as so much public relations. They claim, with some 
justification, that ``not one of America's environmental leaders is 
articulating a vision of the future commensurate with the magnitude of 
the crisis.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Why? Global warming is not only different in scale from prior 
environmental challenges (acid rain, heavy metal contamination, DDT, 
etc.)--its long-term planet-changing nature requires forethought and 
imagination to a much greater degree than the threats to which Homo 
sapiens has evolved adrenaline-pumping instinctive responses. The 
growth of human population, CO<INF>2</INF> emissions, and global 
warming in the past millennium are very recent from a human 
evolutionary perspective. For the first time in its history, Homo 
sapiens has begun to interact more or less as a unit with the global 
environmental system (Eldridge, 1996). Because modern technology 
developed after we evolved biologically, we lack appropriate instincts 
to deal with it--these having been unlikely to confer survivability in 
our evolutionary past. By default, we have to deal with the climate/
energy problem cognitively. So far, we are not doing too well. As Carl 
Sagan observed, our reptilian brains motivate aggressive and tribal, as 
opposed to thoughtful, responses in ways we barely perceive and across 
many spheres of human behavior.
    In the climate wars, deniers often get more vociferous as the 
evidence against their views gets stronger (Hoffert, 2003). The so-
called hockey stick curve (developed by paleoclimatologist Mike Mann 
and colleagues) was recently attacked from the floor on Congress by 
Representative Joe Barton (R-Texas), based on cherry-picked information 
suggesting their statistics were flawed reported in the Wall Street 
Journal. Would that Rep. Barton, and legislators in general were better 
educated in statistical and scientific issues. But my experience 
briefing legislators and aides is that scientific illiteracy and 
intellectual laziness are rampant. Educated mainly as lawyers, many do 
not get it that nature does not care about human politics. 
(Unfortunately, some academics that should know better likewise argue 
that science is more a ``consensual reality'' than an objective 
description of nature deduced by the scientific method.) Too few bright 
and imaginative students pursue careers in science and engineering 
today. We need such students badly.
    The hockey stick curve that shows a dramatic recent uptick in 
global temperature with much more to come is easily perceived as a 
threat not only to Big Oil and Big Coal, but also to election campaign 
funds. Easier to blame the messenger than think critically about this. 
The general trend of the Mann et al. (2003) hockey stick was 
independently verified by other researchers in a recent report by the 
National Research Council (NRC, 2006). Overwhelmingly, research-active 
climate scientists know we are entering climatic territory unseen in 
human history (Hansen, 2006). Our rapidly melting planet is so 
dominated by humankind's emissions that the present climatic era is 
being called the anthropocene (Crutzen and Ramanathan, 2003).
    Most knowledgeable researchers are very concerned about global 
warming. Some, including this author, argue for research and 
development programs on an Apollo space program--like scale to create 
low-carbon alternate energy supply and demand--reducing technologies in 
time to make a difference (Hoffert et al., 1998, 2002; Rees, 2006). 
This effort should include prompt implementation of energy 
conservation, efficiency, and existing alternate energy sources 
(Lovins, 1989; Metz et al., 2001; Pacala and Socolow, 2004; Socolow, 
2006).
    Whatever the deep evolutionary reasons, the climate/energy issue 
competes for attention with other problems in the mind of the average 
citizen. A frequently asked question is: ``Why even care about global 
warming and climate change?'' The worst effects occur decades to 
centuries from now. In cost-benefit accounting, many economists 
strongly discount the present value of adverse future impacts and 
``externalize'' (that is, neglect) the cost of environmentally 
degrading the global commons (Daly and Townsend, 1994). Economics is, 
of course, a legitimate branch of behavioral biology dealing with the 
allocation of scarce resources by Homo sapiens, one of millions of 
biological species inhabiting this planet. But, so far, in its 
predictive mode, it resembles astrology more than a hard science. 
Economist John Kenneth Galbraith went so far as to say, ``The only 
reason for economists to produce forecasts is to make astrology look 
respectable'' (Jaccard, 2005). Undaunted, Bjorn Lomborg, the 
``skeptical environmentalist'' (Lomborg, 2001), convened a group of 
economists to prioritize investments in various challenges facing 
humankind. The group concluded in its ``Copenhagen Consensus'' that 
climate change, even if real, is near the bottom (Bohannan, 2004). 
Reading the group's findings, one is struck by how evolutionarily blind 
our species can be to existential threats. Among the problems with this 
indifference--noted by Harvard energy policy analyst John Holdren, and 
in his film and book, An Inconvenient Truth, by Al Gore--is that 
climate change is more an ethical than an economics problem.
    An even more basic flaw to this physical scientist is that the 
environmental constraint of global warming on energy was entirely 
missed by the Copenhagen group. The late Nobel laureate Rick Smalley 
astutely observed that, although civilization has many problems, energy 
is key to them all. Smalley's list of problems encompasses energy, 
water, food, environment (including global warming), poverty, terrorism 
and war, disease, education, democracy, and population (Smalley, 2005). 
Energy is key because solving all these problems requires sustainable 
power on a global scale. Without it civilization collapses. 
Concentrated fossil fuels are a one-shot boon of nature. Coal being 
still relatively abundant, humankind might have deferred an energy 
revolution to another primary power source to the twenty-second 
century, or even later, were it not for global warming. Coal burned for 
electricity and even shortages caused by peak oil can be handled at 
higher cost by making synthetic fuels from coal. But potentially 
catastrophic global warming is the ``canary in the mine.'' It trumps 
everything else; moving the climate/energy issue to the front of the 
list.
    To generalize the Shellenberger-Nordhaus thesis, there is little 
evidence that politicians of any persuasion appreciate the magnitude of 
the problem, or can articulate a vision to address it. The most 
relevant questions are being asked by energy scientists and engineers: 
Are there technologies likely to lead to a low-carbon world in time and 
still allow global GDP to continue growing two to three percent per 
year (``Energy's Future,'' 2006)? What global energy systems should we 
be aiming at? Can we get there in time? One leading economist put it 
this way: ``The trouble with the global warming debate is that it has 
become a moral crusade when it's really an engineering problem. The 
inconvenient truth is that if we don't solve the engineering problem, 
we're helpless'' (Samuelson, 2006).
    The issue of ``energy security'' makes the need for an energy 
technology revolution a viable policy option even for ``red'' states 
and others indisposed see global warming for the threat it is. Two 
hundred years of innovation--the famous ``Yankee ingenuity''--are 
behind America's ascent to world power (Evans, 2004). Applied science 
and entrepreneurship enabled by government research and development 
since World War II (Bush, 1945) are a historically appropriate response 
for the United States.
    The need is clear. Figure 2, from Smil (1999), shows oil reserves 
around the world, with the lion's share in the Persian Gulf. But Saudi 
Arabia, Iran, and Iraq are powderkegs of post-9/11 Islamic 
fundamentalism. Some Al Qaeda ideologues have drawn up a plan aimed at 
establishing an Islamic caliphate throughout the Middle East, in which 
attacks against the petroleum industry are critical to the 
deterioration of American power through constant expansion of the 
circle of confrontation (Wright, 2006). And because oil is 
internationally traded, it is irrelevant whether oil imports by the 
United States originate under a particular Middle Eastern desert. The 
more oil money that flows to Saudi Arabia, Iran, etc., the more money 
that flows to Al Qaeda, Hezbollah, and other terrorist groups that we 
are ostensibly at war with. As Tom Friedman of the New York Times has 
repeatedly emphasized, our addiction to oil combined with lack of any 
serious policy to develop alternatives is why the United States is 
funding both sides of the ``War on Terror.''
    We know that world hydrocarbon resources are limited. Virtually all 
major crude oil and natural gas reservoirs have been mapped by seismic 
probes. Every day, the world consumes about 80 million barrels of oil, 
a rate that has been increasing with economic growth but is ultimately 
constrained by geological abundance to peak in coming decades 
(Deffeyes, 2001). From a global warming perspective, the coming oil 
peak, accelerated by China and India with booming GDPs, is problematic 
because it is forcing a transition back to coal for primary energy and 
thus ``recarbonizing'' the energy supply since coal emits more CO<INF>2</INF> 
per unit of energy than oil or natural gas. And, of course, oil prices 
are rapidly rising, headed for $100 per barrel or more. Figure 3 shows 
the current range of oil production rate projections. As with the 
climate change deniers, some ``cornucopian'' economists say the oil 
peak is overblown. But consider that oil companies are motivated to 
inflate, not deflate, their reserve estimates to raise their corporate 
valuations on Wall Street. Royal Dutch Shell, for example, was recently 
compelled by the U.S. Security and Exchange Commission to revise its 
reserve estimate downward 20 percent, suggesting an oil peak sooner 
rather than later. In any case, most petroleum geologists agree the 
world will be ``out of gas'' by the end of the century.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    I want to be clear that I am a technological optimist. I believe we 
can solve the climate/energy problem. But there is no silver bullet and 
it will not be easy. It will take the greatest engineering effort in 
history; bigger than the Manhattan project to build the bomb, bigger 
than the Apollo program to land a man on the Moon, bigger than the 
mobilization to fight World War II. Moreover, the effort has to be 
international in scope with sufficient inducements for developing 
giants China and India to sign on. This problem will not solve itself 
through the invisible hand of the market. Relevant costs and values are 
not being captured. We are moving rapidly in the wrong direction. 
Particularly serious is that we are investing in the wrong 
infrastructures for a sustainable energy world. Vision and imagination 
are critical. Sooner or later the world will realize this. The longer 
we wait, the harder the job will be.
    Exponential growth cannot be sustained indefinitely on a finite 
planet. We could, and I believe should, try to maintain two to three 
percent per year world GDP growth to the end of the century (a likely 
minimum for developing nations to attain income equity) as CO<INF>2</INF> 
emissions are held constant, decreased, and eventually phased out by 
mid-century. This would--based on our best current models--keep the 
atmospheric CO<INF>2</INF> concentration below 500 parts per million 
(ppm) and global warming below two degrees Celsius. Higher than two 
degrees could trigger dangerous human interference with the climate 
system, according to criteria recently adopted by the European Union 
(Edmonds and Smith, 2006). Two degrees may not sound like much, but 
more could put us on a planet-changing trajectory with irreversible 
melting of the Greenland and Antarctic icecaps, which would inundate 
the world's coastal zones (Hansen, 2006; Gore, 2006). A big job, given 
that atmospheric CO<INF>2</INF> has already risen to 380 ppm--100 ppm 
above the preindustrial level from fossil fuel burning and 
deforestation so far. To do it, some combination of emission-free 
primary power sources and primary power demand-reduction equivalent to 
generating 100 to 300 percent of present power from some as yet 
unidentified set of power systems will be needed by mid-century (Figure 
4, based of Hoffert et al., 1998; 2002).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    How hard is that? Consider that 2050 is nearer in the future than 
when Fermi's first nuclear reactor (then called an ``atomic pile'') 
went critical in December 1942 at the University of Chicago is in the 
past. We now produce about five percent of primary energy worldwide 
from nuclear power (this is virtually all for electricity; roughly 18 
percent of electricity generation is nuclear; the rest is from fossil 
fuels, mostly coal and hydroelectricity). If we need some new carbon-
emission free ``energy source X'' 50 years hence, the implied growth of 
these new power sources is 20 to 60 times faster than nuclear power, 
the last revolutionary power source deployed on a large scale. Not 
impossible, but we do have to concentrate. Below are some ideas that 
could work if we get serious.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    For starters, we could dramatically accelerate what some engineers 
believe is the most ready for prime time major emission-free energy 
source: coal with carbon capture and sequestration (CCS). Figure 5 
depicts coal gasification plants making electricity and hydrogen with 
the CO<INF>2</INF> pumped to reservoirs underground, the rationale 
being that we have large coal resources that can play a role in a 
transition to a sustainable energy system if we can get the energy out 
while putting CO<INF>2</INF> (and other pollutants) away in reservoirs 
underground. One problem is that coal with CCS deployment is unlikely 
before pilot plants demonstrate that the combined technology works. 
Individual components like coal gasification, combined cycle power 
plants, and even CO<INF>2</INF> sequestration have been shown, but the 
technology is too costly without a carbon tax or ``cap and trade'' 
emissions policy in place. The United States, China, and India have not 
agreed on emission limits, and these are precisely the countries with 
massive coal resources where planned buildup of conventional coal 
electric power stations is most intense. The lower right panel of 
Figure 5 shows how conventional coal plants in the works will overwhelm 
proposed CCS plants. A Department of Energy-funded CCS pilot plant 
called ``FutureGen'' was cited by this administration at climate 
negotiations in Montreal as the U.S. premier effort, in partnership 
with the coal industry, to combat global warming (Revkin, 2005). But 
this plant is unlikely before 2012 and its location is still 
unannounced. Experts believe it may be more expensive to retrofit 
conventional coal plans with CCS than build gasification plants with 
CCS from scratch. Suppose global warming got bad--really bad. Will 
conventional coal plants be abandoned, as the $6 billion Shoreham 
nuclear plant was after Three Mile Island (TMI) and Chernobyl? Once 
they are generating electricity from cheap coal, with capital costs 
``sunk'' for 50 to 75 years, it might be so expensive to shut down and 
build new ones that rate payers would balk even to slow a global 
warming juggernaut. This is not a good scenario.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Another class of low-carbon primary power now being reconsidered 
after a disastrous start is ``green'' nukes (Figure 6). No one has 
started building a new nuclear reactor in the United States for the 
past 30 years, though some are planned. Classic problems of nuclear 
power are operational safety, waste disposal, and weapons 
proliferation. However, for global warming mitigation, the major 
constraint may be that planned reactors are ``once through'' and use 
the supply-limited uranium 235 (U-235) isotope, which makes up less 
than one percent of natural uranium. The energy content of U-235 in 
identified deposits is less than natural gas. We would run out of fuel 
in 30 years employing such reactors at rates sufficient to supply 
present primary power demand. As with coal, we do not have the luxury 
of investing in the wrong nuclear power infrastructure. Longer-term, we 
will need to breed U-238 (99 percent of natural uranium) into plutonium 
or more abundant thorium to U-233, a fuel I favor for several technical 
reasons. Why not start now? Infrastructure and weapons proliferations 
issues need to be faced now if we are serious about green nukes as 
alternative energy.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The third class of primary power, my own preference, is renewable 
energy, currently less than one percent of primary power (Figure 7). 
Space limitations prevent an adequate discussion, but I and colleagues 
at the National Renewable Energy Laboratory (NREL) in Golden, Colorado, 
and elsewhere believe solar and wind power can be scaled up, with a 
proper infrastructure of transmission and storage, to provide 30 
percent or more of primary emission-free power by mid-century (Pew 
Center, 2004). President Jimmy Carter, a strong advocate of renewables, 
created the Solar Energy Research Institute, the precursor of NREL. And 
Jerry Brown, dubbed California's ``governor moonbeam'' by critics, in 
the 1970s initiated tax and other incentives leading to the now cost-
effective Altamont wind farms. It is hard to overestimate the damage 
done by Ronald Reagan who, on becoming president, symbolically ripped 
the solar panels Carter had put on the roof of the White House, 
likewise dismantling most of Carter's energy research and development 
initiative. We have not recovered. Carter's Administration a quarter 
century ago was the last time the U.S. had a pro-active alternate 
energy policy. Unfortunately, the institutional memory of this has 
dimmed. Whatever the problems of Carter plan, and there were some, the 
United States, and because of our leadership, the world, was headed 
toward a sustainable energy future. Not now.
    What colleagues and I propose as a goal is that by mid-century, 
renewables should supply roughly a third of the world's power; clean, 
safe and sustainable nukes another third; and coal gasification with 
CCS the final third. The total would amount to 100 to 300 percent of 
present energy demand. There are major roles for business and talented 
entrepreneurs, but I do not see how we get there without the stimulus 
of massive Apollo-like government-funded research and development, 
perhaps starting with ARPA-E (Advanced Research Projects Agency-Energy; 
after DARDA, the Defense Research Projects Agency, which gave us, among 
other things, the Internet) proposed by the National Academy of Science 
(Committee on Science, 2005).
    At the same time, we need to implement everything we have in our 
alternate energy arsenal immediately. I do this myself as best I can. I 
drive a hybrid and get my home's electricity from green power, mainly 
wind power purchased by my utility from upstate New York (Hoffert, 
2004). At this point, I pay a premium for this ``privilege.'' I do not 
claim any special virtue as an early adopter. I do think both ethics 
and ``cool'' technology can be early drivers of alternate energy. At 
least until it become cost-effective to the average person, perhaps 
stimulated by carbon and gas taxes and/or cap-and-trade schemes. We 
need work on a broad spectrum of possible solutions; picking technology 
winners is notoriously uncertain, even by experts (Clarke, 1982).
    This is not the forum to elaborate on the most innovative high-tech 
ideas that could allow us to live sustainably on the planet. Interested 
readers should consult Hoffert et al. (2002) and the special issue of 
Scientific American on ``Energy's Future Beyond Carbon'' (2006). 
Climate and sustainable energy is a political as well a science and 
engineering problem. With the memory of Rick Smalley's brilliant 
exposition in mind (he gave a most engaging and accessible public 
lecture at an Aspen Global Change Institute conference that I co-
organized a few years ago), I hold that energy and global warming, not 
terrorism and mind-numbing dogma, are the appropriate organizing 
principles for this century. There is no guarantee high-tech 
civilization will survive into an ever richer future. But I find no 
solace in joining with the peak oilers to hunker down to a long slow 
decline with a return to agrarian (and eventually hunter-gatherer?) 
lifestyles as energy runs down and sea levels rise (Urstadt, 2006). 
Likewise, keep me away from Ted Kaczynski, the ``Unabomber,'' who would 
destroy even a solar-powered high-tech world (Kaczynski, 2002).
    I am optimistic enough about technology to believe policies based 
on science and engineering can solve the climate/energy problem; that 
with enough effort, thoughtful energy policies, instead of the usual 
pork packaged for public relations, can become part of political party 
platforms by the next U.S. presidential election. The stakes are high. 
We owe to ourselves and generations to come to fight for our remarkable 
technological civilization, with all its imperfections, built on the 
shoulders of earlier generations. It will be hard. We will need every 
ounce of creative imagination. If we do make it through the twenty-
first century without imploding, perhaps someday we might even find a 
way to cope with those problems our pre-technology evolutionary history 
has left us quite unprepared for.

REFERENCES

Arrhenius, S. ``On the Influence of Carbonic Acid in the Air Upon the 
        Temperature of the Ground.'' Philosophical Magazine 41 
        (1896):237-76.
Bohannan, J. ``Economists Rate Greenhouse Gas Curbs a Poor 
        Investment.'' Science 304 (June 4, 2004):1429.
Bush, V. Science: The Endless Frontier. Washington, D.C.: U.S. Office 
        of Scientific Research and Development, July 1945 <http://
        www.nsf. gov/about/history/vbush1945.htm>.
Cheney, R., et al. National Energy Policy: Reliable, Affordable and 
        Environmentally Sound Energy for America's Future. Washington, 
        D.C.: The White House, May 2001.
Clarke, A.C. Profiles of the Future: An Inquiry into the Limits of the 
        Possible. New York: Holt, Rinehart and Winston, 1982.
Clayton, M. ``New Coal Plants Bury Kyoto.'' Christian Science Monitor, 
        December 23, 2004.
Committee on Science, Engineering, and Public Policy. Rising Above the 
        Gathering Storm: Energizing and Employing America for a 
        Brighter Economic Future. Washington, D.C.: National Academy 
        Press, 2005 <http://www.nap.edu/openbook/0309100399/html/
        122.html>.
Crichton, M., ``Remarks to the Commonwealth Club.'' San Francisco, 
        September 15 <http://www.sf.indymedia.org/news/2003/12/
        1665564.php>.
Crutzen, P.J., and V. Ramanathan, ``The Parasol Effect on Climate.'' 
        Science 302 (December 5, 2003):1679-81.
Daly, H.E, and K.N. Townsend. Valuing the Earth: Economics, Ecology, 
        Ethics. Cambridge: MIT Press, 1994.
Deffeyes, K.S. Hubbert's Peak: The Impending World Oil Shortage. 
        Princeton: Princeton University Press, 2001.
Edmonds, J., and S.J. Smith. ``The Technology of Two Degrees.'' 
        Avoiding Dangerous Climate Change. Eds. H.J. Schellnhuber et 
        al. New York: Cambridge University Press, 2006:385-392.
Eldridge, N. ``The Population Conundrum: Review of How Many People Can 
        the Earth Support? by J.E. Cohen.'' Issues in Science and 
        Technology 12 (Spring 1996):82-84.
``Energy's Future Beyond Carbon: How to Power the Economy and Still 
        Fight Global Warming.'' Special issue. Scientific American 
        (September 2006).
Evans, H. They Made America: From the Steam Engine to the Search 
        Engine: Two Centuries of Innovators. New York: Little, Brown 
        and Co., 2004.
Flannery, T. The Weather Makers: How Man Is Changing the Climate and 
        Weather and What It Means for Life on Earth. Boston: Atlantic 
        Monthly Press, 2006.
Gore, A. An Inconvenient Truth: The Planetary Emergency of Global 
        Warming and What We Can Do About It. New York: Rodale Books, 
        2006.
Hansen, J. ``The Threat to the Planet.'' New York Review of Books 53 
        (July 13, 2006) <http://www.nybooks.com/articles/19131/>.
Hansen, J., et al. ``Earth's Energy Imbalance: Confirmation and 
        Implications.'' Science 308 (June 3, 2005):1431-35.
Hoffert, M.I. ``I Planned to Attend, But Now I Cannot. . .'' Tech 
        Central Station (November 18, 2003) <http://
        www.techcentralstation. com/111803B.html>.
Hoffert, M.I. ``A Touch of Wind Power Could Go a Long Way.'' Newsday 
        (March 13, 2004).
Hoffert, M.I., et al. ``Energy Implications of Future Stabilization of 
        Atmospheric CO<INF>2</INF> Content.'' Nature 395 29 (October 
        29, 1998):881-884.
Hoffert, M.I., et al. ``Advanced Technology Paths to Global Climate 
        Stability: Energy for a Greenhouse Planet.'' Science 298 
        (November 1, 2002):981-987.
Inhofe, J.M. ``The Science of Climate Change.'' Press release, July 28, 
        2003 <http://inhofe.senate.gov/pressreleases/climate>.
Jaccard, M. Sustainable Fossil Fuels: The Unusual Suspect in the Quest 
        for Clean and Enduring Energy. New York: Cambridge University 
        Press, 2005:32.
Kaczynski, T. ``Hit Where It Hurts,'' Green Anarchy 8 (Spring 2002) 
        <http://www.greenanarchy.org/
        index.php?action=viewjournal&printIssue Id=20>.
Kolbert, E. Field Notes from a Catastrophe: Man, Nature and Climate 
        Change. London: Bloomsbury Publishing, 2006.
Letters to the editor and authors' response to ``Advanced Technology 
        Paths to Global Climate Stability: Energy for a Greenhouse 
        Planet'' (Hoffert, 2002). Science 300 (April 25, 2003):581-584.
Lomborg, B. The Skeptical Environmentalist: Measuring the Real State of 
        the World. New York: Cambridge University Press, 2001.
Lovins, A. ``The Negawatt Revolution: Solving the CO<INF>2</INF> 
        Problem.'' Keynote address, Green Energy Conference. Montreal, 
        1989 <http://www.ccnr.org/amory.html>.
Manabe, S., and R.T. Weatherald. ``Thermal Equilibrium of the 
        Atmosphere with a Given Distribution of Relative Humidity.'' 
        Journal of the Atmospheric Sciences 24 (1967):241-259.
Mann, M.E., et al. ``On Past Temperatures and Anomalous Late-20th-
        Century Warmth.'' Eos: Transactions of the American Geophysical 
        Union 84:27 (2003):56-57.
Metz, B., et al., eds. Climate Change 2001: Mitigation. New York: 
        Cambridge University Press, 2001.
National Research Council. Surface Temperature Reconstructions for the 
        Last 200 Years. Washington, D.C.: National Research Council, 
        June 22, 2006.
Pacala, S., and R. Socolow. ``Stabilization Wedges: Solving the Climate 
        Problem for the Next 50 Years with Current Technologies.'' 
        Science 305 (August 13, 2004):968-972.
Pew Center and National Commission for Energy Policy. ``The 10-50 
        Solution: Technologies and Policies for a Low-Carbon Future.'' 
        Workshop, Washington, D.C., March 25, 2004. Overview paper 
        <http://www.pewclimate.org/document.cfm?documentID=392>.
Rees, M. ``The G8 on Energy: Too Little.'' Science 313 (August 4, 
        2006):591.
Revelle, R., and H.E. Suess. ``Carbon Dioxide Exchange between 
        Atmosphere and Ocean and the Question of an Increase of 
        Atmospheric CO<INF>2</INF> During the Past Decades.'' Tellus 9 
        (1957):18-27.
Revkin, A.C. ``Pact Signed for Prototype of Coal Plant.'' New York 
        Times, December 7, 2005.
Samuelson. R.J. ``Global Warming's Real Inconvenient Truth.'' 
        Washington Post, July 5, 2006: A13.
Shellenberger, M., and T. Nordhaus. ``The Death of Environmentalism: 
        Global Warming Politics in a Post-Environmental World.'' Grist 
        Magazine, January 13, 2005 <http://www.grist.org/news/main-
        dish/2005/01/13/doe-reprint/index.html>.
Smalley, R.E. ``Future Global Energy Prosperity: The Terawatt 
        Challenge.'' MRS Bulletin 30 (June 2005):412-417.
Smil, V. Energies. Cambridge: MIT Press, 1999.
Socolow, R. ``Stabilization Wedges: An Elaboration of the Concept.'' 
        Avoiding Dangerous Climate Change. Eds. H.J. Schellnhuber et 
        al. New York: Cambridge University Press, 2006:347-354.
Teller, E., L. Wood, and R. Hyde. Active Climate Stabilization. Report 
        UCRL-JC-149012. Livermore, Calif.: Lawrence Livermore National 
        Laboratory, 2002.
Urstadt, B. ``Imagine There's No Oil: Scenes from a Liberal 
        Apocalypse.'' Harper's (August 2006):31-40.
Weart, S.R. The Discovery of Global Warming. Cambridge: Harvard 
        University Press, 2003.
Wright, L. ``Annals of Terrorism: The Master Plan.'' New Yorker 
        (September 8, 2006):48-59.

Supplementary Remarks by M. Hoffert on the Original CCTP Plan

    This CCTP R&D Plan would be strengthened and would be a far more 
effective policy tool if the problem to be solved were defined by the 
quantity and timing of CO<INF>2</INF> emission-free-power and/or 
efficiency improvements needed to stabilize climate at various levels 
of atmospheric CO<INF>2</INF>, or of global warming, as the global 
economy grows at projected rates of two to three percent per year.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The future path is unknowable but emission-free primary power 
levels needed to attain the WRE stabilization scenarios levels for 
economic growth and fossil energy assumptions of the IPCC IS92a 
business-as-usual (BAU) scenario.
    Primary and emission-free power growth in the previous century is 
also shown. [Note the emission-free-power growth rate discontinuity in 
the vicinity of ``now,'' and the subsequently large growth in emission-
free energy supply just needed for BAU--with progressively larger ramp-
ups for various stabilization levels.] This is the real problem. The 
Manhattan Project didn't aim to explore nuclear weapons in general; 
it's goal was building a Bomb before the end of WWII. The Apollo 
Program didn't aim at exploring manned space flight in general; it's 
goal was putting a (US) man on the Moon by the end the '60s. So too 
does the CCTP program need a more concrete goal; specifically, I'm 
arguing, some combination of terawatts from supply and negaterawatts'' 
from demand sufficient to stabilize global warming at tolerable levels. 
One doesn't have to advocate what level at this point. That should be 
publicly debated, perhaps in Congress. In any case this administration 
has clearly stated its opposition to specific targets. Avoiding 
``dangerous anthropogenic interference with the climate system,'' the 
stated UN FCCC goal, was undefined in that document--though melting 
Arctic sea ice and tundra and increasing hurricane intensity make it 
more timely than ever to do so. Tony Blair at the recent Exeter 
conference in the UK set an upper limit of two degrees Celsius global 
warming. This might be cited as an example of thinking by a close U.S. 
ally.
    Such a goal implies terawatts of emission-free power in the coming 
decades (and/or negaterwatts from efficiency improvements)--as is well 
documented in peer-reviewed literature. Not to be overly alarmist, but 
if current GDP growth rates continues, the latter half of the 21st 
century is a climatic disaster waiting to happen. To address this 
realistically, a conceptual framework similar to that described above 
needs to be up front of this Strategic R&D Plan; however challenging 
the goal may be and however much it requires international cooperation. 
Otherwise what we have is a shopping list, well-motivated and 
interesting perhaps, but uncoupled from the actual problem.

                    Biography for Martin I. Hoffert

    Martin I. Hoffert is Professor Emeritus of Physics and former Chair 
of the Department of Applied Science at New York University. His 
academic background includes a B.S. (1960) in Aeronautical Engineering 
from the University of Michigan, Ann Arbor; M.S. (1964) and Ph.D. 
(1967) from the Polytechnic Institute of Brooklyn (now the Polytechnic 
Institute of New York) in Astronautics; and a Master of Arts in Liberal 
Studies, M.A.L.S. (1969) from the New School for Social Research where 
he did graduate work in sociology and economics. He has been on the 
research staff of the Curtiss-Wright Corporation, General Applied 
Science Laboratories, Advanced Technology Laboratories, Riverside 
Research Institute and National Academy of Sciences Senior Resident 
Research Associate at the NASA/Goddard Institute for Space Studies. 
Prof. Hoffert has published broadly in fluid mechanics, plasma physics, 
atmospheric science, oceanography, planetary atmospheres, environmental 
science, solar and winds energy conversion and space solar power. His 
work in geophysics aimed at development of theoretical models of 
atmospheres and oceans to address environmental issues, including the 
ocean/climate model first employed by the UN Intergovernmental Panel on 
Climate Change (IPCC) to assess global warming from different scenarios 
of fossil fuel use. His early model of the evolving CO<INF>2</INF> 
greenhouse in Mars' atmosphere is also of interest today--providing 
both an explanation of Mars' riverbed-like channels formed in the 
distant past and a motivation for terraforming its atmosphere for human 
habitability in the future. His research in alternate energy conversion 
includes wind tunnel and full-scale experiments on innovative wind 
turbines, photovoltaic generation of hydrogen and wireless power 
transmission (WPT) applied to solar power satellites. His present 
efforts focus on energy technologies that could stabilize climate 
change from the fossil fuel greenhouse--including (but not limited to) 
space solar power. He is a Member of the American Geophysical Union 
(AGU), the American Institute of Aeronautics and Astronautics (AIAA) 
was elected Fellow of the American Association for the Advancement of 
Science (AAAS). He is presently a consultant to Lawrence Livermore 
National Laboratory and Versatility Software, Inc.

                               Discussion

    Chairwoman Biggert. Thank you very much, Doctor, and we 
really do appreciate you coming on such short notice, and 
really do appreciate your testimony. I think that it really 
adds something to the discussion, and I would say from a 
policy, sitting as a policy-maker, that it is very important, 
and I know that we have been working on so much of the 
alternative fuels, and what I believe is that we have got to do 
it now, and we have always proceeded along this path since the 
'70s really, when we had a gas crisis, and all the things that 
went on, to say we are going to have to solve this problem. We 
are going to have to reduce our reliance on foreign oil and 
fossil fuels, and then, the prices would go down, and then 
people would forget about it, and I think that is why we are 
now in the situation that we are in right now, because we 
haven't had the development of those long-term goals, or even 
the short-term goals that we need to have. And if we don't do 
it now, you know, we are going to lose the momentum again, and 
not do that.
    In fact--and that really leads me to my question, and I 
will now recognize myself for five minutes, and we will have 
questions, then answers, and then, I will alternate.
    Mr. Eule, and I would ask you about establishing, you know, 
a greenhouse gas concentration goal. Don't you have to set the 
goal before we set up the R&D priorities, and if not, why not?
    Mr. Eule. I think there has been some confusion about what 
the plan is intended to be. The plan is not intended, was never 
intended to be a mitigation plan. It is a plan to help us 
coordinate and develop technology so that we can develop 
mitigation options that are cost-effective. I mean, that is the 
purpose of the plan.
    Now, your question goes to the issue of setting targets. We 
don't set a target in the plan, but we do take a look at 
alternate futures. In chapter 3 of the report, we have very 
detailed scenario analyses. These were done by the folks at 
Pacific Northwest National Lab, and over at the University of 
Maryland, and what we essentially did was take a look at 
different technology futures and assess what type of 
technologies would be needed, when they would be needed, and 
how they would have to be deployed in--to achieve certain 
mitigation levels.
    So, the plan does include some scenario analysis, and it 
does take a look at the timing and the pace and the extent to 
which these technologies would have to be ready. And I think 
everybody--do the Members have the plan? I would just point 
to----
    Chairwoman Biggert. Sequestered until 2:00, so----
    Mr. Eule. Right.
    Chairwoman Biggert. But we have, you know, addressed the 
draft plan, the----
    Mr. Eule. Right, I think on page 208 and 210, we lay out 
some goals that we have set for cumulative GHG emissions 
mitigation under four different constraints, and for the four 
goals that we have set in reducing emissions in energy end-use, 
energy supply, carbon capture and sequestration, and non-
CO<INF>2</INF> gases, and on 210, we give you an idea of the 
timing that these advanced technologies would have to be ready 
to enter the marketplace.
    And one thing I want to point out, and this--under the 
table on page 210, if you look at the four goals we have in 
reducing emissions from energy, and end-use in infrastructure, 
on the very high constraint case, we will just use that as an 
example, technologies ready in the 2010 to 2020 timeframe, 
those would be largely energy efficiency technologies, the next 
one in the--would be goal four, reducing emission of non-
CO<INF>2</INF> greenhouse gases, those technologies would be 
ready about 2020 to 2030, and following that, emissions from 
energy supply, and then carbon capture and sequestration.
    So, there is a continuum of technologies that would be 
available to address these different constraints, and for the 
four specific goals, so while we haven't settled that, I think 
we have done a lot of analytical work that would allow us to 
plan for the future, which is what the strategic plan is all 
about.
    Chairwoman Biggert. It is a lot information, certainly, and 
a lot of different, you know, research and development plans, 
and that is--we can take this, but my problem is that there 
doesn't seem to be any connection between the scenario 
analysis, and then, the actual technology priorities described 
in the following chapters after that, and I know that we had 
sent a letter, and I know that you were not, you know, in 
charge at the time. This was in December, and we had problems 
with the draft, in that--and I think it--our concerns were that 
it--there was no clear set of criteria for the technology 
selection and prioritization, and no timelines for completing 
individual programs or projects, and no metrics for evaluating 
the progress, and no sense of how the budget priorities across 
agencies would be developed.
    And I guess, you know, we as policy people have to take 
this, and you know, make decisions on how to move forward, but 
we have got research that was done 10 years ago, we don't know 
how that research is progressing, and how that fits into a 
plan, and how the new research will then come alone. Have we--
you know, have the last 10 years, will they--how will they fit 
together in how we can progress?
    Mr. Eule. Excellent question. I think you are getting to 
the issue of how we set priorities in the plan, and first of 
all, I want to say that this is the first plan of its kind in 
the world. No other country has a similar plan. I have traveled 
to many countries, and I have briefed them on what we are doing 
in CCTP. The impression I get is--and when I ask my 
interlocutors, they really don't have a firm handle on what 
they are doing in the climate change arena, how much they are 
spending, and they don't really have an overall strategy.
    So, I think this document is visionary in that sense, and--
but getting into--getting to your question, we have a number of 
vehicles for setting priorities. One, we do portfolio 
assessments. We have an interagency working group, six of them, 
one for each of the strategic goals in the plan. Three of them 
are led by the Department of Energy in energy use, energy 
supply, and in basic research. EPA leads our other greenhouse 
gas taskforce. NASA does measuring and monitoring, and USDA and 
DOE jointly lead the one on carbon sequestration. So, we have 
experts in the agencies who get together in the same room and 
talk about these things, which has never happened before. So, 
that is one way.
    We also sponsor outside expert reviews. Last year, we 
sponsored six workshops, again, revolving around each of the 
strategic goals, and that was very useful in identifying gaps 
and opportunities in the portfolio. I mentioned the scenario 
analysis, which is very important, and of course, we take 
these--take what we have learned from all these activities, and 
we present it to the management structure that the President 
has set up. And I am--as a Director of CCTP, I am one of the 
principals that participates in what we call the Blue Box 
meetings. These are deputy-level interagency meetings, and so, 
we present the results of our analyses to them. So, we work 
through both--at the agency level, and at the interagency 
level, through management structures, so through those 
vehicles, we intend to have a big impact on the way the budgets 
are formed.
    Chairwoman Biggert. Well, my time has expired, so I will 
after--come back and ask the other witnesses to respond, to 
comment on this issue. So, hold that thought, and I will now 
turn to my colleague, Mr. Honda from California.
    Mr. Honda. Thank you, Madam Chair, and I would like to 
offer my five minutes to Dr. Hoffert. He ended his comments by 
saying that he was looking forward to--hoping that we won't be 
offended, but probably would be, to continue your testimony, 
and utilize my five minutes to continue your talk, since I am 
very interested, and I won't take being offended personally to 
you, so I would like to invite you to----
    Dr. Hoffert. I can't tell you how much I appreciate that.
    The part that I was about--would have gotten to, sort of, 
in this kind of freewheeling exposition, really has to do with 
innovation. I think innovation is critical. For two hundred 
years, what has distinguished the United States, what made the 
20th century the American century, is the fact that we are a 
nation of technological innovators, and we have basically led 
the world.
    And as I said before, that I am a technology optimist. Now, 
not everyone is, and the times that we are living in are really 
different than the times that I grew up in in the '50s and the 
'60s, when there was a general feeling at the end of World War 
II that the scientists who built the atomic bomb, and the 
scientists that happened to be German, who built the 
intermediate range ballistic missile, which could eventually 
take us to the Moon--and von Braun's Saturn V did take us to 
the Moon eventually--could do anything, that technology was a 
positive force, and it was a force for good, and indeed, 
technology, on balance, in my view, has been an enormous force 
for good. There are two billion people who are alive today 
because of the Green Revolution, because we manufacture 
fertilizers with energy that wouldn't be here, and that could 
lead to other discussions about whether the planet is 
overpopulated.
    But there is a fundamental issue of whether one believes in 
the enlightenment in science and in technology, and the ability 
to move forward with vision, and to maintain this wonderful, in 
my opinion, civilization, technological civilization that we 
created. Now, that leads to a longer-term point of view than is 
associated with the terms of Congressmen, for example, or other 
legislatures, or even Presidents. And yet, when it exists in a 
society, you can do amazing things.
    I want to get back to the innovation part, though. 
Innovation is when somebody asks a question that nobody has 
asked before, and the answer winds up being able to change the 
world, and there is a practical problem with the way government 
bureaucratic agencies like the Department of Energy are 
structured.
    I mean, don't get me wrong. Some of my best friends work 
for these agencies, and I have friends even who are lawyers and 
economists, and all of those things. But I am coming at this 
from the perspective of someone who believes that there needs 
to be fostering of innovation, in the way, for example, there 
is in the parallel universe of the Defense Department. I did 
defense research. I worked on the ballistic missile system. I 
did a lot of bad things when I was young, and I did that kind 
of R&D, and I admit it, and it was very interesting, 
technically fascinating, as fascinating as I think working on 
the Bomb was to the scientists who were working in that era.
    But the culture is totally different than the culture at 
the Department of Energy, or even NASA, to some extent, because 
many of these projects are away from the scrutiny of the public 
eye. I mean, one thing I learned, for example, is that the 
black space program is bigger than the white space program. By 
black, I mean, you know, the nonpublic one, and every once in a 
while, something emerges from that military R&D that does 
transform the world.
    Since World War II, if you look at the technologies that 
have really driven economic growth, and I would include gas 
turbines, commercial jet aircraft, large scale integrated 
circuits, computer microchips, satellites, satellite 
telecommunications, and the Internet, which Wall Street is 
always taking credit for, was actually supported for twenty 
years by ARPA, now called DARPA, and then another ten years by 
the National Science Foundation. And so, these are actually 
technologies that were sponsored by government research.
    There is a perception that government should not be 
sponsoring technology, and it--I believe it is very 
hypocritical. This very committee, as you may know, at one time 
was called the House Committee on Science and Technology. The 
technology part is gone, as you may know, for when a certain 
party took control of Congress, they decided, for reasons 
having to do with their beliefs, or their ideological feelings 
about the market, that the government shouldn't be developing 
technology.
    And now, we are back to the same issue. The question is 
would those technologies have come about, and it is a profound 
question--without government R&D--or would we be living in a 
totally different world? And when people talk about the market, 
I would have to say this: it would be financially irresponsible 
for a large company to support the kind of research that we 
need to do to deal with the climate change problem, because it 
is not going to pay off in the three to five year timeframe.
    This is a problem that is often called the Valley of Death 
by researchers. Research that has a timeframe that is 
intermediate to the really short timeframe that you can get 
support from industry, and the longer things, timeframes like 
fusion, where it is so far in the distant future that it 
doesn't have policy implications that people may fear, in terms 
of their political persuasion.
    We need to be doing a lot more in the Valley of Death, and 
we also need to be working innovatively and fostering it. There 
are many areas--now, I am not up here, actually, to be honest--
--
    Chairwoman Biggert. Actually, Dr. Hoffert, Mr. Honda's time 
has expired, so----
    Dr. Hoffert. Oh, I am terribly sorry, but thank you so 
much, sir, for giving me this opportunity to make those points.
    Chairwoman Biggert. I feel like you are preaching to the 
choir up here, because I think this is the one committee that 
gets it, and we have been trying to spread this to our 
colleagues, so we appreciated it.
    Ms. Woolsey from California----
    Ms. Woolsey. Thank you, Madam Chairman.
    Chairwoman Biggert.--recognized for five minutes.
    Ms. Woolsey. Woman. I, for one, have been preaching an 
Apollo-sized energy program forever. Actually, I was part of 
the telecommunications industry when the space program was all 
put together, and that was the beginning of affordable parts 
and pieces and integrated circuits, and it was all federal 
funding that got us to the Moon.
    I think our energy Apollo program probably is going to be 
many, many, many, many, many of these books, these reports and 
plans and strategic planning and all that, but in the end, it 
will result in the industry that this United States should be 
part of, which is the climate change technology industry. I 
mean, we are giving it away to foreign countries. We are 
letting them do it using our technologies. I mean, how dumb are 
we?
    So, let us not talk about this. Let us talk about--I mean, 
let us do something about it. I mean, we have got to talk about 
it, but let us do something about it. So, what I would like to 
know from you folks is what do we, as Members of Congress, need 
to do to push this forward? We can read this strategic plan. We 
can talk--read the Pew recommendations. We can agree with Dr. 
Hoffert and Mr. Mottershead. Did I say that right? Yes. But 
what--agreeing isn't good enough, because we actually should be 
making action.
    So, tell me, sort of this--I love your tie, by the way. It 
is a statement.
    Dr. Hoffert. Some of you guys would love it.
    Ms. Woolsey. It is a statement. What are the two things 
each one of you, the two things that we should be doing right 
now?
    Dr. Hoffert. Well, I have been saying--let me say one very 
specific practical thing----
    Ms. Woolsey. And you have got to go fast, because we don't 
have----
    Dr. Hoffert.--which wouldn't cost a lot of money, is to 
support our proposed Exploratory Research and Development 
program, in other words, to provide funding for an effort that 
might exist within DOE, or it might be funded by DOE without 
outside administrators. A proposal has been written on that, 
and we have submitted it, and it has never been funded, and it 
its very cheap. Eventually, it will cost more, and I think that 
Congress should act positively on that.
    Ms. Woolsey. Thank you, Doctor. Mr. Mottershead.
    Mr. Mottershead. Two things. Resonates on your point. I 
think you should focus on building businesses, not for building 
technology. And that building businesses requires a whole suite 
of different policy instruments in order to ensure that those 
businesses are thriving and growing. And it is no different 
than conventional business development, economic development, 
whereas climate is seen to be something different from that. 
And I think that there is a lot of experience about how you 
nurture and grow economic development through business 
development.
    And my second request is none of this will happen unless 
you price carbon, so you need to price carbon.
    Ms. Woolsey. Thank you. Ms. Greenwald.
    Ms. Greenwald. I echo what Mr. Mottershead said. What you 
really need to do is you need to unleash the power of the 
private sector to address this problem. I agree with Dr. 
Hoffert that the federal role is absolutely critical, but it is 
in the private sector that you are going to get tremendous 
innovation. What the private sector is going to invest, if they 
have a price on carbon, if they have a carbon constraint, if we 
have a national, mandatory policy, and an international policy 
that is consistent with what works here, and will also work 
globally, that is how you are going to unleash the power of the 
private sector to innovate, to respond, and you will get all 
kinds of inventions that the government won't think of. It is 
the learning by doing that the private sector can do that the 
government can't, but we really need to solve this problem.
    Ms. Woolsey. Thank you. Mr. Eule.
    Mr. Eule. I am going to be a little bit parochial here, and 
urge that Congress fund the budget that we proposed for the 
Climate Change Technology Program. I will say last year, we 
didn't receive any funding, and we think that was--we don't 
think there was any prejudice in that. We think it was 
oversight. It was the way our budget was arranged, but we 
missed the money, quite frankly, and I think that one of the 
reasons the report was delayed is we didn't have the funding 
that we thought we would have to get the document out the door, 
but we have asked for $1 million for this fiscal year, and we 
would certainly appreciate the Members' support in seeing that 
that gets funded.
    Ms. Woolsey. So, Mr. Eule, with that $1 million, what would 
we have besides a report, or $1 billion, or how many----
    Mr. Eule. Well----
    Ms. Woolsey.--million, it is not----
    Mr. Eule. It doesn't sound like a lot of money----
    Ms. Woolsey. No.
    Mr. Eule.--but it is a lot of money to us. I think we will 
get implementation of the report. That is--we have a series of 
next steps that are listed in Chapter 9, and one thing we would 
like to do is get busy on implementing on those. I think there 
are a number of analytical tasks that we would like to 
undertake, for example, limits analysis.
    You know, Dr. Hoffert talked about the potential of some of 
these technologies, but there could be limits. I mean, when you 
think about--well, there has been discussion recently about the 
limits of ethanol production, you know, where it bumps up 
against food production. So, what we would like to do is take a 
look at not only ethanol, but other technologies to see what 
type of limits are out there. That would be an excellent 
planning tool. That is something that we have in mind for next 
fiscal year.
    We would like to beef up our scenario analyses, which I 
think are very important for policymakers, and of course, 
portfolio reviews are sort of the bread and butter of what we 
do, and help us prioritize the R&D portfolio.
    So, I think those three things are, would be at the top of 
my list for next year.
    Ms. Woolsey. Thank you all very, very much.
    Chairwoman Biggert. Thank you. I am--I would recognize 
the--Mr. Rohrabacher is--I have not recognized him yet, but 
just recognize that he is here, and has joined our committee, 
and would ask unanimous consent that he be--join our committee. 
He is a part of the Science Committee, but not on this 
subcommittee, and with that, I would call on Mr. Green from 
Texas. Recognized for five minutes.
    Mr. Green. Thank you, Madam Chair, and thank also the 
ranking member, and I am tempted very much to give Mr. Hoffert 
another five minutes, but I think I can fight the temptation.
    The report addresses a number of things, and perhaps this 
is contained therein. How do we deal with Mr. Hoffert's notion 
that we need a global program to address the CO<INF>2</INF> 
problem? How do we inculcate the rest of the world into this 
grand scheme? Yes, sir.
    Mr. Eule. The Administration has actually done quite a bit 
of outreach with our partners overseas. Just let me give you a 
few examples. Earlier, I believe it was in July 2001, we 
launched the Generation IV International Forum, which has ten 
countries that are partners, plus EURATOM, and they are looking 
at six advanced Generation IV design for nuclear power plants.
    In 2003, we launched the Carbon Sequestration Leadership 
Forum. It has, I believe, over 20 members at this point, and it 
is looking at technologies, primarily geological sequestration. 
We all recognize that, for the foreseeable future, fossil fuels 
are going to be one of the most available sources of energy. 
The question is what do you do with the emissions that you get 
when you use them. So, we have engaged internationally with the 
Carbon Sequestration Leadership Forum on technologies that 
could solve that.
    The International Partnership for the Hydrogen Economy is 
another U.S. initiative. It has 17 members, and it is working 
on fuel cell, distribution, and production technologies to make 
the hydrogen economy a reality. And I want to point out here, 
too, that in these international initiatives, we have developed 
countries, we have developing countries, we have countries that 
are parties to the Kyoto Protocol, and countries that are--so 
it is a big mix, but each of them, each country brings to the 
table some technology capability, and we think that these are 
great collaborative efforts that we can leverage our own 
resources, and so our budgets go further.
    And I would mention Methane to Markets as another 
partnership that we have, that is led by the Environmental 
Protection Agency, and it is focusing on using methane from 
landfills, oil and gas systems, agriculture, and coal mines, 
and using that as a clean fuel. Methane emissions are 20 
times--over 20 times more potent than carbon dioxide, so these 
are great short-term opportunities to have an impact.
    So, I would just offer those as some examples of how we are 
engaging internationally on the technology front.
    Mr. Green. Yes, ma'am.
    Ms. Greenwald. I think the most important thing that we can 
do as a country is to engage with other countries in designing 
an international regime for dealing with greenhouse gas 
emissions. We are a quarter of the world's greenhouse gas 
emissions. The Kyoto Protocol may not have been the right 
agreement for the United States, but we have to figure out what 
the right agreement is. We have to participate actively in 
developing an international response to this issue that 
develops a market for greenhouse gas emissions that our 
companies can participate in, that develops markets for 
technologies that we can develop and that we can implement. We 
need a global response to this problem, and as an important 
player, a critical player in this globally, we have a 
tremendous responsibility and opportunity to help design how 
the world is going to respond to this over the long-term.
    Mr. Green. You mentioned Kyoto. Before you go on, are we 
still encouraging others to become a part of Kyoto?
    Ms. Greenwald. It depends who the we is.
    Mr. Green. The United States.
    Ms. Greenwald. The Europeans are moving ahead, and the 
United States has decided not to participate. I think it is 
probably moot at this point for our country, because it starts 
in about a year or two, so I think it would be very difficult 
for us to sign onto the Kyoto Protocol and participate at this 
moment, but there are lots of discussions going on about what 
happens beyond Kyoto? How do you develop a regime that can work 
for us, that can work for developing countries, to sort of 
involve all the major emitters in the world in dealing with 
this problem, because it is global. We have to have a national 
policy that works for us, and we have to work toward an 
international program that works for us and for the rest of the 
world.
    Mr. Green. Was that decision that Kyoto doesn't work for us 
more scientific than political?
    Ms. Greenwald. I think it was more political than 
scientific.
    Mr. Green. Did you have an additional comment, sir?
    Mr. Mottershead. I think that business competes, and this 
is an issue of international competitiveness, and while 
cooperation has its place, you can see that they--in the 
development of solar photovoltaics, there actually--that 
international competition has caused the technology to develop 
more quickly than probably if we just had an international 
cooperation.
    So, the Japanese, building an internal industry by creating 
a market inside Japan clearly led and continue to lead the 
industry. Then Germany, clearly starting to build, followed by 
Spain, and now, California following. And those industries are 
getting built on the back of markets that were created by 
policy. At the moment, actually, the most, probably the most 
favorable place to come if you want to develop a wind business 
is into the U.S., and that is very good and supportive. As will 
next generation biofuels. But the Germans are clearly 
developing a view about biodiesel, because of the importance of 
diesel in their infrastructure.
    Then you come to carbon capture and storage, and it seems 
too, well, as everybody was interested in cooperation on 
research, and we took that, and said well, actually, we are 
more interested in building hydrogen power stations. So, we 
have committed to building between 10 and 15 hydrogen power 
stations in the next 10 years. Each one of those, therefore--an 
example of one is in Carson City in California--is a $1 billion 
investment, will generate 500 megawatts of power, will be 
operational in 2011, and that is what is required. If you want 
to actually build a business, you have to build customers who 
want to buy the product. Businesses will respond. But we have--
that is an investment of something like $8 billion over the 
next decade. I mean, you know, once you get into that, then 
that is the degree of competition that will pull----
    Mr. Green. Before my time expires, I have a question for 
you, one additional question. Give a practical example, if you 
would, please, of pricing carbon, a practical example of how we 
can price it?
    Mr. Mottershead. In Europe, the European Emission Trading 
Scheme provides a cap on all large emitters, both in the 
utility sector and in industry, which creates a price on carbon 
that has fluctuated over the last two years between =15 to =30 
a ton of carbon dioxide, and that clearly changes businesses' 
attitude to their own emissions, and to their future 
investments.
    Mr. Green. Yes, sir.
    Mr. Eule. I just want to follow up with the--you asked 
about the Kyoto Protocol earlier. One of the concerns about the 
Kyoto Protocol from the U.S. perspective was that it did not 
include participation from developing countries in any 
obligations, and I think one of the things we have to consider 
as we think about policy over the long-term is that developing 
countries for the most part haven't shown any interest in 
committing to reducing greenhouse emissions. They are much more 
interested in providing power to their citizens and economic 
development.
    The International Energy Agency estimates that there are 
about two billion people worldwide that do not have access to 
modern energy services, and governments across the globe are 
working furiously to provide that energy to their citizens, 
which propels economic growth. So, the question is, if carbon 
can't be the driver, then what is? And what we have done 
through the Asia Pacific Partnership, which includes the U.S., 
Japan, Australia, South Korea, China and India, we have placed 
climate change within a much broader context, the context that 
will include energy security, reducing air pollution, and 
mitigating greenhouse gas emissions. So it is not focused 
exclusively on climate change, and we think that--well, the 
partnership with those six countries accounts for about half 
the greenhouse gas emissions of the world, half the population, 
half the economic activity of the globe, so it is a small 
group, but it is a very big group in those terms.
    And so, through the partnership, we are looking at ways to 
deploy cleaner technologies in those countries, and we think 
that will have a big impact.
    Chairwoman Biggert. The gentleman's time has expired. Mr. 
Rohrabacher, you are recognized for five minutes.
    Mr. Rohrabacher. Thank you very much. I have looked at this 
issue, and I can--you know, with a lot of skepticism in the 
past, and I do today. I mean, having noted the countless, 
perhaps a dozen times that there has been global cooling and 
global warming over the long history of this planet. I mean, we 
have had ice ages come and go before human beings ever were on 
this planet. I have to assume they weren't caused by manmade 
greenhouse gases as the glaciers went back and forth before 
mankind even emerged.
    So, pardon my skepticism. Also, being a surfer, I go out on 
the ocean, and I know the number one rule is you don't fight 
Mother Nature, you know. Surfers don't fight the waves, they 
understand how the waves go, and you work with the waves. And 
so, it is frustrating to hear about, you know, people 
assigning, for example, political motives to--saying is this 
science or this politics? Well, how about economics? You know, 
maybe economics is the decision-making factor. That the--
because you can prove anything with science eventually, if you 
are willing to spend all the money that is necessary for health 
care, education, and everything else in our country and the 
world. You dilute the Third World of all their resources, in 
order to prevent certain greenhouse gases from emerging in 
their electric plant.
    But the question I have for you, and this is a question, 
well, first, one other observation, I had a British Member of 
Parliament out with me in California last weekend, and he told 
me about how in Roman times, they have uncovered the fact that 
England was covered with vineyards, where they grew wine 
grapes, and by the year 1000, the Vikings were colonizing 
Greenland and Iceland, but by the year 1400, it was so cold 
that the colonies in Iceland and Greenland were actually almost 
starved to death, because they couldn't--no longer depend on 
agriculture, and the Thames River was freezing over. I don't 
think that was caused by any manmade greenhouse gases, because 
I think that they didn't have a lot of industry at that time.
    With that said, let me say I have three babies at home, and 
I want them to breathe clean air, and while I am not 
sympathetic at all with this--which I consider to be total 
baloney of that manmade climate change, you know, you are going 
through this cycle because of what man has done, especially 
considering that all the other cycles man wasn't present, but I 
do want my babies to breathe clean air. I do want them to live 
in an environment where what is being--producing our energy 
does not hurt their health.
    Is there--is this a consistent--this is a question for the 
panel--if I have a target of global pollution, trying to stop 
global pollution, and trying to help and clean the air that 
way, is this in some way contradictory, in terms of what I 
would do, then what you are proposing that we do to prevent 
global warming, which of course, I reject? So, are we at odds, 
or is it reality that if we really believe in it, we want to 
try to do everything we can to check pollution for health 
reasons, that we are actually on the same track?
    Dr. Hoffert. Who are you asking?
    Mr. Rohrabacher. The whole panel, just give a thumbs up, 
thumbs down, you're crazy, go back to California, go surfing. 
Whatever you want to do.
    Ms. Greenwald. I will start. If I have to say just one 
thing about the science, that the National Academy of Sciences, 
which is not a, sort of, one wing or the other, has made it 
very clear----
    Mr. Rohrabacher. Yeah. And----
    Ms. Greenwald.--that this is a very serious problem, and we 
have to take----
    Mr. Rohrabacher. And you noted that they--that the guy who 
was in charge of the report, that they--has now indicated that 
that was not his conclusion, and that his name was basically 
forced on that report?
    Ms. Greenwald. No.
    Mr. Rohrabacher. Okay. Well, you should note that.
    Ms. Greenwald. It is--well, our understanding is that that 
is not correct, but our view is----
    Mr. Rohrabacher. We have heard about it.
    Ms. Greenwald.--and I think that is really important to 
keep in mind that just over the past few years, the science has 
gotten much, much stronger, and we have been closely tracking 
the peer reviewed literature, and there is sort of two sets of 
studies that have been coming out that are very important.
    One is very careful assessments that indicate we are 
actually already seeing impacts of climate change, and also, a 
number of very careful assessments of pattern analysis, taking 
on the specific question about is this natural variability, or 
is this something new? And in all of the impact categories, we 
are seeing very clear evidence that what is happening now is 
unprecedented.
    Mr. Rohrabacher. How is it different from the other 
warmings and coolings, then? Do we have--I mean, why is that we 
have had all of these different ice ages and warming ages? How 
is this one different from that?
    Ms. Greenwald. Well, this one is caused by greenhouse gases 
in the atmosphere, and if you look at sort of a 400,000 year 
temperature chart, we are going into temperature zones that we 
have never been before.
    Mr. Rohrabacher. And were there greenhouse gases in all the 
other ones as well?
    Ms. Greenwald. In part of the--we do have some natural 
CO<INF>2</INF>, but the--what is taking us----
    Mr. Rohrabacher. Some.
    Ms. Greenwald.--into new--a new zones, is----
    Mr. Rohrabacher. Yeah, 95 percent of all greenhouse gases, 
and we have been through these hearings before, come from 
natural sources. But was it greenhouse gases in the past that 
came from natural sources that caused the global cooling and 
warming, or was it sunspots, which some other scientists tell 
me that it was caused from?
    Ms. Greenwald. Okay. Well, we will defer this for another 
time, but let me just answer your other question, which is on--
--
    Mr. Rohrabacher. Okay.
    Ms. Greenwald.--on the overlap between what you do about 
conventional air pollution and climate change.
    Mr. Rohrabacher. Right.
    Ms. Greenwald. There actually is substantial overlap. Many 
of the technological solutions that are good on climate change 
are also good on air pollution. For example, renewables, very 
limited air pollution. Nuclear power, which has----
    Mr. Rohrabacher. Right.
    Ms. Greenwald.--no greenhouse gas emissions, or very small 
on a lifecycle basis, is also low on air emissions, sort of 
NOx, SOx, the more traditional air pollution. Biofuels also 
has--there is a little bit of a mixed bag, but there are--there 
is some evidence that we can have good performance, better 
performance on air pollution from biofuels as well, and I think 
hydrogen also has some great characteristics, in terms of air 
pollution.
    So, there are, if you are looking at it sort of from the 
overlap between----
    Mr. Rohrabacher. Right.
    Ms. Greenwald.--someone who cares about air pollution and 
climate change, I think there is significant overlap.
    Mr. Rohrabacher. So, there is ways we can work together 
even if we disagree with the analysis.
    Ms. Greenwald. I think so.
    Mr. Rohrabacher. Okay.
    Dr. Hoffert. I have a comment. First, I want to say how 
delighted I am to have the opportunity to meet you, Congressman 
Rohrabacher, as there is one area in which we may very well 
find an area of agreement.
    The global--the need for a global scale source of base-load 
electricity is very acute. Right now, as you know, the world is 
spending $12 billion for the International Thermonuclear 
Experimental Reactor experiment, which the U.S. DOE is involved 
in, in part. There is another potential source of long-term 
base-load electricity which would involve capturing sunlight in 
orbit, geostationary orbit. That program is, at this point, 
completely unfunded, and the Department of Energy does not have 
a program in space solar power----
    Mr. Rohrabacher. And you know I have been pushing for just 
that, you know.
    Dr. Hoffert. Pardon me?
    Mr. Rohrabacher. You know, I have been pushing for just 
that.
    Dr. Hoffert. Well, that is why I would like to----
    Mr. Rohrabacher. Exactly.
    Dr. Hoffert.--start with, at least, with something I think 
that we might agree upon. People have different views on 
different matters. I think if we can agree that it would be 
desirable for a sustainable world to have a source of renewable 
energy that is very long-lasting, I think one could make 
technical arguments, and I know that you are aware of them, 
because you have written about it yourself.
    Where space solar power could become competitive, depending 
on breakthroughs in technology having to do with launch 
vehicles, thin film photovoltaic cells, and all the rest, and I 
have heard many of your talks about this.
    Mr. Rohrabacher. Thank you.
    Dr. Hoffert. Having said that----
    Mr. Rohrabacher. Uh-oh.
    Dr. Hoffert.--and I am a fan of yours on that topic. Having 
said that, sir, one of the major reasons for developing that 
technology in this century, rather than the Twenty Second 
Century, is climate change. If not for climate change, there is 
plenty of coal, and everyone knows that we could basically make 
synthetic fuels at a higher price, but we could make synthetic 
fuels with coal, and we could run our electric power plants, 
and if it weren't for the fact that coal produces more CO<INF>2</INF> 
per unit of energy, and the fact that virtually all of us who 
have done relevant, climate-relevant research, believe that 
that is going to cause global warming, we wouldn't really have 
to worry about this problem of a global scale energy source.
    I think it is very paradoxical that the very technology 
that you yourself would endorse is probably best motivated by 
this problem facing us. Now, none of this has to do with 
whether nature is actually causing global warming, which are 
remarks that you have made, and others have made from--at 
various times. Various people with expertise ranging from 
Michael Crichton to Congressman Barton to Senator Inhofe, I 
must tell you that it isn't just a matter of consensus of 
research active scientists. Scientists are not supposed to 
believe arguments from authority. You really have to take the 
long march through the data. Every one of your objections are 
things that we ourselves thought about. I have been working on 
this for 30 years, this problem. And you basically need to 
protect yourself from fooling yourself, if you are a scientist, 
because you get attached to your own theories, you start to 
love them, and there is nothing more disappointing than having 
a beautiful theory destroyed by an ugly fact, and we have to 
deal with that all the time, and some of our colleagues in the 
social sciences don't deal with it as much.
    But I think I am coming to the end of my time.
    Chairwoman Biggert. I think you are. And we are very happy 
that the illustrious Chairman of the Science Committee has 
joined us, Mr. Boehlert from New York, and you are recognized.
    Mr. Boehlert. Thank you very much, Madam Chair.
    I don't want anyone to think this is a point counterpoint, 
but Dr. Hoffert, like you, I have great admiration for my 
colleague, Mr. Rohrabacher. He is a very valued Member of this 
committee and this Congress. Unfortunately, on this issue, he 
happens to be more wrong than he is right.
    There are a lot of people in this town who think that 
global climate change is a figment of the imagination of 
someone like me, or scientists like you, when in fact, it is a 
hard, sober reality that we have to face. And not only is it 
serious and documented, overwhelming scientific consensus, but 
man has contributed significantly to global climate change, and 
we know that, too, and that is documented.
    And incidentally, I would point out that is the current 
thinking at the White House. They acknowledge it is for real. 
They acknowledge that man has contributed to it.
    The question is now what do we do about it? Now, times have 
changed, and hope springs eternal, and I am very optimistic as 
we go forward, because of a lot of things. If you had told me a 
few years ago that one of the most respected journalists in 
America, Tom Brokaw, would have a highly acclaimed special on 
television on the Discovery Channel about this very subject, I 
would have said nobody will watch it--people were watching. If 
you would have told me a while back that people would be paying 
money to go to their local cinema to see a movie like ``An 
Inconvenient Truth,'' starring, of all people, Al Gore, I would 
have said what do you mean? That is not going to happen. Well, 
that has happened, and they have. And I think he has added 
immensely to the national dialogue.
    We have got to stop thinking the old way, Republicans 
versus Democrats, or scientists versus the rest of us. And 
there are some people on this Hill, as you know too well, who, 
instead of trying to be informed by science, try to intimidate 
the scientists, and I happen to work in a town where everyone 
likes to say, particularly in this institution, they are for 
science-based decision-making, until the overwhelming 
scientific consensus leads to a politically inconvenient 
conclusion. Then, they want to go to plan B. And I am not 
talking about the morning after pill. The fact of the matter is 
that this is very serious, and we have got to deal with it in a 
very serious, non-confrontational, nonpartisan way.
    I would ask Mr. Eule, DOE has been doing research on clean 
energy technologies for decades, a long time, done some good 
work. Yet, the CCTP plan is silent on deployment strategies for 
those technologies already near or at the end of the R&D 
pipeline. What is the Department doing to help deploy 
technologies that will start making a difference next year, 
rather than 15 or 20 years from now?
    In other words, I think what we have before us is a 
pretty--a reframing of the issue, so that we are all starting 
from the same point, but we have got to establish some 
priorities, and we have got to have some policy steps that are 
recommended, and we have got to have forward movement. We just 
can't stay static, and everybody bemoan about it. I am tired of 
picking up magazines like Newsweek, where I see a cover story 
about the greening of America, people are now very concerned 
about this issue, and when I channel surf, as I did one day 
recently, or a couple months ago, there was Miles O'Brien on 
CNN having an outstanding piece on global climate change. 
Everybody is talking about it. What the American people want is 
for somebody to start doing something about it, and Mr. Eule, 
the ball is in your court, and I think you have an opportunity.
    So, enlighten me, please.
    Mr. Eule. Thank you, Chairman Boehlert. You ask an 
excellent question. I think the Department--what the Secretary 
of Energy likes to say now is the biggest source of energy we 
have is the energy that we don't use wisely. So, the Department 
is making a concerted effort, I think, to get energy efficiency 
technologies out into the marketplace.
    Let me give you a few examples. Our Industrial Technologies 
Program is undergoing two hundred energy assessments at some of 
the most energy-intensive facilities in the country. We have 
the Advanced Energy Initiative, which is looking at putting 
money into some specific technologies, that with just a little 
bit of push, we can get, make some real gains, and get them out 
into the marketplace.
    And I would also draw your attention to the Energy Policy 
Act. I mean, the Administration has been arguing for the need 
for an Energy Policy Act for a number of years, and I think we 
have what I think are a number of provisions in there that are 
going to be very, very useful in getting technologies in the 
marketplace. In Fiscal Year 2007 alone, there is about $1.6 
billion in tax credits and incentives. And I think some of the 
other provisions of the bill that don't get a lot of coverage, 
but are vitally important, are going to have a big impact, 
Title VI, for example, provides--authorizes, I believe, $1.5 
billion in standby support coverage for the next six new 
nuclear plants that are built, in case of a regulatory delay. 
There are also nuclear tax credits in there, but quite frankly, 
builders of nuclear power plants aren't going to take the risk 
to take advantage of the tax credit if they can't get their 
plants commissioned and running. So, this provision in Title VI 
of the bill goes to a specific risk that was really holding 
back nuclear power plant constructions. I believe this is going 
to be a huge, huge impetus to building new nuclear power 
plants. And of course, if you couple that with our NP2010 
program, which looks at the regulatory system, I mean, I think 
we have in place a good strategy to deploy nuclear power in the 
near-term.
    And I also say that the Department is looking at exercising 
its authority to issue loan guarantees. We are talking about a 
figure of about $2 billion for technologies to--that avoid, 
reduce, or sequester greenhouse gas emissions or reduce air 
pollutants, and the office is in the process of setting up a 
program to do that. And I think that will also have a 
tremendous impact on getting these technologies to market.
    Mr. Boehlert. Pardon me if I may, you know. Those are 
longer range. What are we doing, you know, I want to talk 
months, not years. What are we doing that offers some promise 
that at least, there is some movement in the direction of 
deploying technologies in months rather than years? You know, 
most people look at Washington, and say, you know, everybody 
agrees--well, everybody, even Mr. Rohrabacher, I think, is 
reluctantly coming around to the conclusion that global climate 
change is for real. I wish we could harness his energy. Maybe 
we could solve some of the problems. But they say do something 
about it in Washington, and Washington is not doing something 
that is more immediate in nature.
    And let me quickly, parenthetically add that I have the 
greatest respect for Secretary Bodman. I think he is 
unquestionably one of the best Cabinet choices this President 
has made. I mean, I view him as first among equals in the 
Cabinet, but we have some differences. For example, I think our 
energy policy is flawed. I think we have ignored CAFE standards 
and things like that. That offers some immediate hope, some 
relief, but what do we--talk about months, not years.
    Mr. Eule. Chairman, I can't resist putting in a plug that 
we have asked Congress for authority to reform the CAFE 
program.
    Mr. Boehlert. Well, there is some disagreement, Mr. Eule.
    Mr. Eule. Yes, I understand.
    Mr. Boehlert. There is some disagreement on whether or not 
the President has that authority. So, given the authority----
    Mr. Eule. Okay.
    Mr. Boehlert. What good is the authority if you are not 
willing to use it?
    Mr. Eule. I understand. No, you have asked some very good 
questions. As I have said, we are doing these assessments. Our 
buildings program, for example, is working with builders today 
on the new home designs that are much more energy-efficient 
than current homes. They have a longer-term plan, it goes out 
to 2020, but they are also doing, working with the builders 
now, and I believe at last count, there were close to 34,000 
homes that were built through this program in the United States 
today.
    So, I can certainly get you--I am not prepared to get----
    Mr. Boehlert. Sure, I understand, and it is not----
    Mr. Eule.--but I will certainly get something for the 
record.
    [The information follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Boehlert. All right. Thank you very much, Madam Chair.
    Chairwoman Biggert. I--this is the first time I have 
gaveled down the Chairman.
    Mr. Boehlert. Well, I feel very passionately about this 
subject.
    Chairwoman Biggert. And you have done it to me, I know.
    Mr. Boehlert. I think it is kind of obvious that I am 
interested. Thank you, Madam Chair.
    Chairwoman Biggert. And thank you so much for being here, 
and I would like to thank everyone who has participated in this 
hearing today, and we really appreciate your input, and your 
efforts.
    And let me express my appreciation to the Department for 
releasing the revised CCTP strategy plan, but let me also put 
you on notice that this issue is not closed. I take oversight 
responsibilities seriously, and I would like to see continued 
progress, and first, we need to be able to better compare the 
relative value of R&D investments across the full CCTP 
portfolio. And I think next, that the DOE needs to make a--
needs a better process for evaluating its plans and priorities, 
and I would expect the DOE to solicit input and advice from the 
technical community, industry associations, and environmental 
groups on the full suite of climate change technology 
activities.
    And finally, I think we need to be better able to assess 
the relative impact on climate change of the different 
technologies in the CCTP portfolio. So, with that, I look 
forward to learning of the Department's progress in these areas 
in the future. I really thank all of the experts for being 
here, and your excellent testimony.
    If there is no further objection, the record will remain 
open for additional statements from the Members, and for 
answers to any followup questions the Subcommittee may ask the 
panelists. Without objection, so ordered.
    This hearing is now adjourned.
    [Whereupon, at 3:33 p.m., the Subcommittee was adjourned.]

                              Appendix 1:

                              ----------                              

                   Answers to Post-Hearing Questions

Responses by Stephen Eule, Director of U.S. Climate Change Technology 
        Program, Department of Energy

Questions submitted by Chairman Judy Biggert

Q1.  The technical reviewers, in their May 2006 report, recommended 
greater emphasis on exploratory research addressing novel concepts to 
uncover breakthrough technology, enabling research and development 
(R&D), and integrative concepts. How does the revised plan address 
cross-cutting R&D opportunities that do not neatly fit into any one of 
your technology categories? Please provide examples.

A1. The Climate Change Technology Program's (CCTP) Strategic Plan 
highlights the importance of identifying and pursuing cross-cutting R&D 
opportunities that do not neatly fit into any one of the applied 
technology categories in Chapters 4 through 8. Specifically, Chapter 9 
states that there is a need ``to augment existing applied R&D and 
strategic research programs with exploratory research. Such research 
would pursue novel, advanced or emergent, enabling and integrative 
concepts that do not fit well within the defined parameters of existing 
programs, and are not elsewhere covered.''
    Chapter 9 provides some specific examples of novel concepts. We 
note that many of these concepts are already being funded within 
ongoing programs. In fact, in 2002, we posted a Request for Information 
(RFI) for novel concepts to support our budget request for a National 
Climate Change Technology Initiative competitive solicitation program. 
Less than 10 of the 180 RFI responses were simultaneously assessed as 
high in technical merit, responsive to the RFI criteria, and unique or 
novel, that is, not easily fitting into the scope of any existing R&D 
funding program, if broadly considered.

Q2.  The President's budget requests $3 billion in Fiscal Year 2007 for 
climate change technology development. What is the annual estimated 
cost of the activities outlined in your plan?

A2. A breakdown by agency of the annual estimated federal cost of the 
current CCTP portfolio, about $2.8 billion, may be found in the budget 
table of Appendix A. However, this should be interpreted as a partial 
figure in the overall global effort to develop new technologies. For 
example, the federal cost is often augmented in the applied R&D areas 
by non-federal partnering and cost-sharing, which can be as much as, or 
greater than, the federal share. Further, the U.S.-sponsored activities 
may be augmented independently by RDD&D activities in the private 
sector, and by State, local, and regional governments. Finally, many of 
the R&D activities in the Plan are being pursued, as well, by national 
governments of other countries, which is why the Plan emphasizes the 
importance of U.S.-sponsored initiatives for international cooperation. 
The annual global investment is not known, but the figure in this 
regard is likely to be significantly higher than the annual estimated 
federal cost.

Q3.  The Secretary of Commerce just announced that an advisory 
committee will be established to provide advice on the further 
development of the Climate Change Science Program. Please describe your 
process for soliciting input from existing Department of Energy (DOE) 
advisory committees. If no such advisory committee structure exists to 
provide advice on the priorities and direction of the Climate Change 
Technology Program (CCTP) R&D portfolio, would CCTP benefit from a 
similar committee to provide advice on the priorities within the CCTP 
R&D portfolio?

A3. The organizational structure of CCTP is one that relies on the 
technical competencies of its six Working Groups (WGs)--one for each of 
six strategic goals. These WGs are led and populated by senior 
technical professionals among the agencies, who direct R&D programs 
that are advised by external experts. The WGs, additionally, are 
advised by experts in the DOE national and other federal laboratories 
and academia. In this way, CCTP builds on the foundations of the 
technology programs and incorporates the input of both ongoing 
programmatic advisory activities and external inputs. CCTP also 
sponsors its own independent technical reviews.

Q4.  Mr. Mottershead indicated that BP would like to see more thought 
given to encouraging innovative public-private partnerships. Several 
other commenters to the draft plan made the same suggestion. Can you 
discuss the types of public-private partnerships already underway at 
DOE and how those partnerships and others will be used to advance CCTP?

A4. The Administration believes that private sector participation is 
critical to accelerating the development and commercialization of new 
energy and climate technologies. This recognizes not only the private 
sector's technical expertise, but also the fact that commercialization 
of advanced technologies will be largely a private sector function. It 
is only by government and industry working together that we can advance 
a new, cleaner energy future. Partnerships are therefore a key aspect 
of CCTP's approach.
    Under the provisions of the Energy Policy Act of 1992 (Section 
3002), significant cost sharing of all DOE energy-related applied R&D 
(20 percent minimum) and demonstration projects (50 percent minimum) is 
required. This requirement necessitates public-private partnering on 
virtually all projects in a substantive, financial way. Since much of 
CCTP's R&D portfolio is energy-related, much of its portfolio is cost-
shared. Notable examples include innovative partnering in the carbon 
sequestration program, in both the area of regional partnerships and 
demonstration projects. Public-private partnerships extend beyond cost-
sharing; they include sharing a common long-term goals and strategies 
to achieve them. Some examples include: FutureGen, Methane to Markets, 
Nuclear Power 201 0, and FreedomCAR.

Questions submitted by Representative Michael M. Honda

Q1.  Why has the Administration chosen to use greenhouse gas intensity 
(a ratio of emissions to economic output) as a metric for measuring 
reductions in greenhouse gases and not an absolute reduction in 
emissions or in atmospheric levels of greenhouse gases? Please explain 
how this metric does not effectively mask actual increases in the 
absolute level of emissions.

A1. The most useful and informative measure for policy management 
purposes is relative improvement in greenhouse gas emissions intensity. 
The intensity measure appropriately recognizes reductions that are 
achieved through increased investment in efficiency, productivity, and 
economically valuable activities that require less energy or lead to 
fewer emissions. The intensity measure sharply discounts reductions 
produced by economic decline, job loss, or policies that shift 
greenhouse gas emitting activity from the U.S. to another country.
    For example, an absolute emissions reduction caused by an economic 
recession may say more about reduced energy use owing to reduced 
economic activity and say less about structural changes in the economy 
towards more energy efficiency. However, with an intensity metric, any 
slowdown in economic growth is taken into account in the results so 
that no credit, from an emissions perspective, is given for a slowing 
economy. Actual emissions reduction will occur when the rate of 
emissions intensity decline exceeds the rate of economic growth.
    Details on total U.S. emissions are provided in annual reports both 
by the Energy Information Administration (EIA), which also provides a 
measure of greenhouse gas intensity, and by the Environmental 
Protection Agency. The most recent EIA greenhouse gas inventory report 
indicates that total U.S. emissions grew just 0.6 percent in 2005, 
despite economic growth of 3.2 percent.

Q2.  The Energy Information Administration estimates that under a 
business-as-usual scenario the U.S. would achieve a 17 percent 
reduction in greenhouse gas intensity by 2012. The President's goal is 
to reduce greenhouse gas intensity by 18 percent.

        <bullet>  How much would actual emissions grow under business-
        as-usual?

        <bullet>  How much will the Administration's current plan, with 
        the 18 percent goal, affect U.S. emissions by 2012 and beyond?

A2. In 2002, President Bush set an ambitious but achievable national 
goal to reduce the greenhouse gas intensity of the U.S. economy by 18 
percent by 2012. At the time, this goal represented a nearly 30 percent 
improvement in the expected rate of improvement in intensity over the 
period. The Administration estimated that achieving this commitment 
would avoid additionally over 100 million metric tons of carbon-
equivalent (MMTCe) of greenhouse gas emissions in 2012 compared to a 
business-as-usual baseline\1\ and would result in cumulative savings of 
more than 500 MMTCe in greenhouse gas emissions over the decade. Under 
the business-as-usual scenario used in this 2002 analysis, total 
emissions were projected to climb from 1,917 MMTCe in 2002 to 2,279 
MMTCe in 2012. Achieving the President's goal was estimated to reduce 
the 2012 figure to 2,173 MMTCe.
---------------------------------------------------------------------------
    \1\ The baseline used in the 2002 analysis was based on forecasts 
of energy-related carbon dioxide emissions and economic growth derived 
from the Energy Information Administration's Annual Energy Outlook 2002 
and forecasts of other carbon dioxide and greenhouse gas emissions 
derived from Environmental Protection Agency reports.
---------------------------------------------------------------------------
    The Annual Energy Outlook (AEO) 2006 contains a projection 
suggesting that total U.S. greenhouse gas emissions will climb from 
1,885 MMTCe in 2002 to 2,154 MMTCe in 2012. Concerning the EIA AEO2006 
intensity baseline of 16.8 percent, it is important to note that we 
would expect EIA's AEO baseline to show improvement over time as 
policies are implemented in support of the President's intensity goal, 
which was set in 2002. The effect of higher energy prices is clearly 
evident in the AEO2006 baseline projection, but it also is influenced 
by new policies being implemented. For example, the CAFE standards for 
light trucks finalized in 2003 and the tax credits, incentives, and 
standards in the Energy Policy Act of 2005 are incorporated in the 
AEO2006 baseline.
    Data from EIA suggest steady progress. Since 2002, EIA reports 
annual improvements in greenhouse gas emissions intensity of 1.6 
percent in 2003, 1.6 percent in 2004, and 2.5 percent in 2005. Although 
we are only a few years into the effort, the Nation appears on track to 
meet the President's goal.
    The impact of the Administration's program beyond 2012 will be 
included as part of the Climate Action Report, now in preparation, that 
the U.S. will submit to the United Nations Framework Convention on 
Climate Change.

Q3.  The Congressional Budget Office just released a report that states 
that technology development combined with carbon constraints provides 
the most cost-effective approach to climate change mitigation. The 
CCTP's own draft plan only included technology emissions scenarios with 
carbon constraints.

        <bullet>  Has the President's position on climate change 
        uncertainty and carbon constraints policy changed?

        <bullet>  The CCTP lays out technology options, but what are 
        the policy drivers to get those technologies deployed into the 
        marketplace? If it is not your job to identify and push for 
        these policy drivers, who is charged with that task in the 
        Administration?

A3. In 2002, President Bush reaffirmed the U.S. Government's commitment 
to the United Nations Framework Convention on Climate Change and its 
long-term goal of stabilizing greenhouse gas emissions in the 
atmosphere at a level that avoids dangerous human interference with the 
climate system--a level that at present is unknown. The President set a 
national goal to reduce the greenhouse gas intensity of the U.S. 
economy by 18 percent by 2012. This goal sets America on a path to slow 
the growth in greenhouse gas emissions and--as the science justifies 
and the technology allows--to stop and reverse that growth.
    The Administration places great emphasis on the development and 
commercial use of advanced technologies, without which it is difficult 
to see how climate mitigation can be reconciled with other pressing 
needs, such as economic growth, energy security, and pollution 
reduction. Given the nature of the challenge and the many unknowns, it 
is appropriate that CCTP adopt a long-term planning context for the 
role of technology in addressing climate change. While CCTP does not 
set policy, it supports policy development, and by significantly 
reducing the costs of advanced technologies, its R&D programs can open 
up a wider range of politically and economically acceptable options for 
policy-makers.
    Overall climate policy is directed by the Executive Office of the 
President with input from federal agencies.

Q4.  Critics of the program claim that CCTP is merely a ``repackaging'' 
of existing programs. Five and one-half years after its establishment, 
CCTP should be in the position of directing climate technology research 
throughout the federal agencies involved in the program. Of the R&D 
programs listed as part of the CCTP, which initiatives originated in 
CCTP, or as a direct result of CCTP recommendations to an agency? 
Please explain in detail the role CCTP staff have played in developing 
budgets and priorities for all the programs listed as components of 
CCTP in the Offices of Fossil Energy, Energy Efficiency, Nuclear Energy 
or Science?

A4. CCTP's Strategic Plan does include current activities. To assess 
the overall portfolio and set priorities, a good understanding of 
current programs relevant to CCTP's mission is needed. However, the 
Plan goes considerably further. It provides an overarching technology 
roadmap organized by five CCTP strategic goals over the short-, mid-, 
and long-term. In each of the goals chapters there are discussions of 
future research directions. The Plan sets out a process and criteria 
for prioritizing the federal technology R&D portfolio. These criteria 
include: (1) maximizing return on investment; (2) supporting public-
private partnerships; (3) focusing on technology with large-scale 
potential; and (4) sequencing R&D investments in a logical order. 
CCTP's analysis and strategy inspires the pursuit of innovative 
technology concepts designed, not just to address short-term GHG 
emissions reductions, but the fundamental transformations required over 
the long-term to meet the challenge of stabilizing GHG concentrations.
    Since its inception in 2002, this multi-agency planning and 
coordination activity has encouraged a number of important technology 
initiatives aimed at reducing greenhouse gas emissions. There are many 
rationales besides climate change mitigation--energy security, for 
example--for many of the major initiatives the Administration has 
undertaken, such as the Hydrogen Fuel and FreedomCAR Initiatives, 
FutureGen, Advanced Energy Initiative, etc. CCTP helped provide long-
term programmatic rationale. Moreover, CCTP in the Plan has established 
12 priorities that respond to the President's National Climate Change 
Technology Initiative (NCCTI). These NCCTI priorities, which are 
described in Appendix B of the Plan, represent R&D and other activities 
that with a little push could result in significant technological 
advances to reduce, avoid, or sequester greenhouse gases.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions

Responses by Judith M. Greenwald, Director of Innovative Solutions, Pew 
        Center on Global Climate Change

Questions submitted by Chairman Judy Biggert

Q1.  Your testimony suggests that development of carbon reduction 
technologies is not very useful in the absence of mandatory constraints 
on greenhouse gas emissions. But, doesn't it make sense to move 
aggressively on technology development first and then tackle the 
regulatory framework? Won't that sequence allow society to move toward 
reducing greenhouse gas concentrations in the least economically 
disruptive manner?

A1. Aggressive technology development is critical, but R&D alone will 
not result in widespread deployment of low-carbon technologies. 
Installation of new technologies comes at a cost, and in the absence of 
mandatory constraints on emissions, most emitters have no incentive to 
take on this cost. Technology development produces a supply of carbon-
reduction technologies without the corresponding demand provided by 
emissions constraints. In addition, research has shown that carbon 
reduction can be achieved at a lower cost through a combination of 
mandatory emissions constraints and technology R&D than through either 
approach alone. This conclusion was reached in a 2004 Pew Center report 
by Larry Goulder, ``Induced technological change and climate policy,'' 
and echoed in a September 2006 study by the Congressional Budget 
Office, ``Evaluating the Role of Prices and R&D in Reducing Carbon 
Dioxide Emissions.'' The CBO study stated that ``a combination of the 
two approaches--pricing emissions in the near-term and funding R&D--
would be necessary to reduce carbon emissions at the lowest possible 
cost.''

Q2.  How much do you feel the Federal Government should reasonably be 
spending per year on climate change technology at the Department of 
Energy and how did you arrive at that figure?

A2. The Pew Center has not calculated the specific level of funding 
needed. Most importantly, it is critical that funding levels be stable 
enough to ensure that key programs can plan long-term research. We 
would point to the testimonies submitted by Martin Hoffert and Daniel 
Kammen for specific suggestions in this area.

Questions submitted by Representative Michael M. Honda

Q1.  Why has the Administration chosen to use greenhouse gas intensity 
(a ratio of emissions to economic output) as the metric for measuring 
reductions in greenhouse gases, and not an absolute reduction in 
emissions or in atmospheric concentrations of greenhouse gases?

        <bullet>  Does the use of this metric not mask actual increases 
        in emissions or atmospheric levels of carbon?

        <bullet>  What metrics are used in guiding climate policies 
        elsewhere?

        <bullet>  In general, do the major companies in the Business 
        Environmental Leadership Council find greenhouse gas intensity 
        to be an acceptable and useful metric?

A1. While we cannot speak for the Administration, President Bush has 
repeatedly stated that he believes emissions intensity is the most 
useful metric to consider. The Pew Center disagrees, but the metric is 
much less important to us than the environmental result it achieves. 
Intensity metrics do not indicate the overall growth or decline of 
greenhouse gas emissions and an intensity-based target may allow 
emissions to rise. GHG intensity can decrease while absolute emissions 
increase, so an intensity target typically is not as environmentally 
sound as an absolute cap. That being said, if a sufficiently strict 
intensity target is chosen, one could see absolute GHG reductions. 
Unfortunately, the Administration's goal of an 18 percent reduction in 
GHG intensity is not noticeably different from business as usual, and 
does in fact correspond to a continuing increase in GHG emissions.
    The Kyoto Protocol uses an absolute GHG metric, as do the 
northeastern states' Regional Greenhouse Gas Initiative and 
California's new law, AB 32.
    In the absence of federal policy, businesses have taken to creating 
GHG reduction goals themselves to anticipate policy and get ahead of 
the curve. Many of these goals are absolute (DuPont--reduce GHG 
emissions by 65 percent from 1990 levels by 2010; Weyerhaeuser--reduce 
GHG emissions by 40 percent by 2020; Bank of America--Reduce GHG 
emissions nine percent by 2009, relative to their 2004 levels; BP--
Reduce GHG emissions by 10 percent from 1990 levels by 2010), but 
several companies use indexed metrics. For example, Baxter 
International has a GHG target to reduce energy use and associated GHG 
emissions by 30 percent per unit of product value from 1996 levels by 
2005. Using indexed metrics increases the efficiency of operations 
without guaranteeing an absolute reduction is made.

Q2.  You say in your testimony that the roughly $3 billion the 
Department claims to be spending on climate change is not enough.

        <bullet>  What, do you believe, is required to adequately 
        address climate change?

        <bullet>  Are the priorities for the various programs in line 
        with where they should be?

A2. Again, the Pew Center has not calculated the specific level of 
funding needed. We would point to the testimonies submitted by Martin 
Hoffert and Daniel Kammen for suggestions in this area, as well as on 
the priorities for funding.

                   Answers to Post-Hearing Questions

Responses by Martin I. Hoffert, Emeritus Professor of Physics, New York 
        University

    General Response: It's important to distinguish between (1) CCTP-
type research on alternate energy technologies that in some sense 
already ``exist'' at laboratory scales, or at industrial scales for 
certain components, but are too costly to permit penetration to 
significant energy market share; and (2) exploratory energy R&D of the 
ARPA-E type, exploiting recent scientific discoveries like high 
temperature superconductivity, nanotech or bioengineering, or embodying 
highly innovative systems for tapping energy flows and stores in 
nature, aimed at radically transforming the global energy system to 
permit continued economic growth even as fossil fuel CO<INF>2</INF>2 
emissions are phased out--this being the objective problem to be 
solved.
    Climate and energy are the technology challenges of the century. 
The 9/11 Commission concluded that the most dangerous mistake one can 
make when challenged by an existential threat is ``failure of 
imagination.'' Likewise does the climate/energy issue call for 
technological imagination, followed by rigorous testing and development 
to the point of commercial viability. These are unique strengths in 
which the U.S. has led the world for 200 years, particularly as 
stimulated by targeted government-funded initiatives over the past 50 
years. The proposed energy R&D should build on prior successful U.S. 
efforts to address the technical issues and global scale of the 
climate/energy problem (Hoffert, 2006). I will discuss CCTP-type 
funding in my response to Representative Biggert, ARPA-E funding in my 
response to Representative Honda.

Question submitted by Chairman Judy Biggert

Q1.  How much do you feel the Federal Government should be reasonably 
spending per year on climate change technology at the Department of 
Energy and how did you arrive at that figure?

A1. The short answer is that the CCTP program, which at this point 
essentially repackages government funded energy R&D of about $3 
billion/year, needs to grow to $20-30 billion per year, or more. This 
level of funding is similar to prior U.S. technology initiatives like 
FDR's Manhattan Project of the '40s, JFK's Apollo program of the '60s, 
Carter's Energy program of the '70s (unfortunately aborted) and 
Reagan's Strategic Defense Initiative of the '80s, as illustrated in 
the figure showing U.S. R&D expenses in 1996 dollars by sector from 
data in Meeks (2002). The U.S. Government today spends more than $120 
billion (2002 dollars) a year on research and development (Nemet and 
Kammen, 2006), of which declining fraction, only a few percent, is 
expended on energy, the driver technology of civilization. We've been 
lulled into passivity by historically cheap fossil fuels. Not for much 
longer, as hydrocarbon production peaks and global warming become all 
too evident in coming decades.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    However much some may say the technology already exists to solve 
the climate/energy problem many colleagues and I disagree. Such 
technologies could exist, but they won't spring into existence 
spontaneously, any more than gas turbines, radar, lasers, commercial 
aviation, nuclear power, nuclear medicine, satellite 
telecommunications, computers, and the Internet sprang into existence 
without billions invested by Federal R&D since World War Two. World War 
II, which President Truman in the wake of Hiroshima and von Braun's V-2 
rockets characterized as a ``battle of laboratories'' as much as a 
battle of armies. Vanever Bush, FDR's science advisor, is credited with 
beginning large-scale public support for R&D. Frankly much of this was 
motivated by defense and space during the Cold War. To emphasize this 
the Mansfield amendment added ``D'' for Defense at the beginning of 
ARPA (Advanced Research projects agency) to create DARPA.
    But the results drove economic growth of the civil economy. Given 
that we already spend $120 billion present dollars on government R&D, 
the question is not whether there's enough money. When the U.S. was 
attacked at Pearl Harbor our nation was in a deep depression. After a 
half decade of war the ``greatest generation'' went from virtually no 
air force to building fifty thousand planes a year, aircraft which 
evolved technologically from biplanes to jets in an astoundingly short 
time, it built the atomic bomb, created radar, and accomplished many 
other technologically Herculean things, with the result that the U.S. 
emerged as the leading world power in what has been called the American 
Century. We're richer now than we've ever been, though this will not 
last if we fail to address the major problem of the present century, 
the climate/energy challenge. The problem is not lack of money. The 
problem is whether we can put in the required level of engineering 
creativity, effort and skill to fight a threat that doesn't involve 
blowing each other's brains out.
    President Carter tried to make alternate energy a ``moral 
equivalent of war.'' At its peak in the late '70s, Carter's R&D program 
was running at $10 billion a year and showing real progress. Too bad 
the institutional memory of Carter's initiative has dimmed and been 
distorted over the years. It was, of course, Carter's energy program 
under which DOE built the coal-to-natural gas demonstration plant that 
later became the Dakota Gasification Company. The plant was later sold 
by DOE, i.e., ``privatized,'' at 6 cents on the dollar of the of the 
government's investment. Ironically, this plant became a poster child 
for this administration's FutureGen coal-to-hydrogen plus electricity 
with carbon capture and storage (CCS) project, as the CO<INF>2</INF> 
separated out is piped to (and sold for secondary oil recovery to) 
Saskatchewan's Weyburn oilfields. The project is touted--along with 
Norwegian Statoil's North Sea CCS project, also state subsidized, as 
showing the viability of CCS. But who in this administration credits 
Carter with demonstrating technology leading to FutureGen, or even 
knows the story? The DOE demo isn't slated for operation until 2012.
    The fact is that the most ready for prime time project to mitigate 
carbon emissions from coal power plants now being built is too little, 
too late. By the time FutureGen is up and running at least 850 
conventional coal fired power plants in the works by non-Kyoto 
signatories--the U.S., China and India--will overwhelm Kyoto emission 
cuts, if they even happen, by a factor of five. The figure (submitted 
by Dan Lashof of the NRDC as a critique of CCTP Strategic Plan) shows 
the cumulative capacity of conventional coal plants in the works now 
and carbon captures, a mere blip. Not signing Kyoto is one thing. But 
offering FutureGen as a significant U.S. technology initiative to cut 
carbon emissions (as was done at last winter's Kyoto meetings in 
Montreal by U.S. negotiator Harlan Watson) is simply refusing to face 
reality.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As Economist Robert Samuelson put it, ``The trouble with the global 
warming debate is that it has become a moral crusade when it's really 
an engineering problem.'' Solving an engineering problem requires 
defining the goal quantitatively, facing the technical challenges, and 
creating systems to address these as cost-effectively as possible. 
Right now, we have little on the shelf for primary energy but burning 
coal for electricity and gasoline from crude oil for cars, both of 
which emitting CO<INF>2</INF> up the stack and out the tailpipe. 
Nuclear is roughly five percent and renewables collectively roughly one 
percent of primary energy (neglecting hydro, which is saturated, and 
firewood in preindustrial societies).
    Getting serious enough about R&D to solve the climate/energy 
problem to avoid, for example, more than two degrees Celsius global 
warming relative to pre-industrial conditions above which polar icecap 
melting may become irreversible (Hansen, 2006) will cost $20-$30 
billion per year, at least. The specific way this funding would ramp up 
needs careful consideration. But we have an applicable experience base 
from the Manhattan, Apollo, Energy Independence & SDI programs. Also 
needed is a major science education initiative, as was done in the 
post-Sputnik era. The U.S. should take the lead. But we don't have to 
go it alone. This is a global problem, and scientists and engineers 
worldwide have a tradition of working together on a common goal like 
the International Space Station, the International Thermonuclear 
Experimental Reactor, high-energy particle accelerators and other 
projects. Particularly important is to involve China and India in 
projects that can implement on the short-term.
    In summary, and without at this point preparing a detailed budget, 
there is good reason to shoot for $20 to $30 billion a year for an 
Apollo-type program in alternate energy. The rapid convergence of 
urgent energy security issues and growing evidence of global warming 
may make money the least of our problems. We need real options to do 
this job and we don't have them. Out of the box ideas, like coal 
gasification demonstration plants in China and India funded by the 
U.S., might be an alternative to Kyoto, which the Senate has clearly 
indicated its indisposition to sign. These might stem the tide while we 
work on the fundamental energy system transformation; as might 
geoengineering experiments to ``save the arctic.'' Other important 
issues are incentivizing research by private industry and 
entrepreneurial innovators, about which I have more to say below. All 
this will require an integrated climate/energy policy, including 
diplomacy, to implement effectively.

Question submitted by Representative Michael M. Honda

Q1.  This committee has considered in various forms legislation 
regarding the creation of an Advanced Research Projects Agency for 
Energy, and you have advocated for the creation of a new innovation-
focused research organization.

        <bullet>  If Congress were to move forward with a plan to 
        develop ARPA-E, what do you believe would be the essential 
        elements of such a program?

A1. Recent proposals for an independent exploratory R&D program 
(Caldeira et al., 2005) or an ARPA-E (Committee on Science, 
Engineering, and Public Policy, 2005) in alternate energy technology 
are motivated by the perception that breakthrough research isn't being 
pursued with sufficient urgency, in some cases not at all, by DOE or 
elsewhere because it falls outside bureaucratic program funding lines, 
or lacks champions. Not surprisingly these proposals have been resisted 
on grounds that DOE is already doing what needs doing, for example, in 
the CCTP and Basic Energy Science initiatives.
    I indicated previously that I strongly support expanding existing 
DOE R&D programs. That said, existing bureaucratic structures are not, 
for reasons I won't expound upon here, the best way to incubate 
innovative, potentially disruptive technology shifts. Revolutionary 
technologies have changed the world many times over in the past 
century, often as spin-offs of military projects. The course of future 
technologies is difficult to impossible to predict, particularly by 
experts. But like biological evolution, technological evolution needs 
mutations.
    I argue that the most robust R&D strategy is to support a broad 
spectrum of potentially revolutionary technologies that are physically 
plausible and address objectively real problems. For example, the 
transmission and storage of intermittent widely distributed renewable 
energy (solar and wind) is necessary if renewables are supply load 
curves for 20 percent or more electric power generation market share. 
Many states have Renewable Energy Portfolios mandating such targets by 
a set date. This won't happen unless grids in the region become ``user 
friendly'' to renewables. Existing grids designed for central power 
generation by fossil fuel or nuclear plants are totally inadequate, and 
deregulation of electric utilities has removed financial incentives for 
anyone to even think about this problem. It's telling that the country 
with the highest penetration of wind generated electricity, Denmark 
(near 20 percent), has only accomplished his because it is integrated 
into a Scandinavian grid with Norway which is 100 percent hydropower. 
Power emerging from Danish wind turbines is stored by pumping water to 
the reservoirs backing up Norwegian dams, and flows down them to supply 
electricity as needed. But the U.S. (and most other nations) lack such 
a convenient resource, so some technology for storage, perhaps 
compressed air, or flywheels, or something entirely different, is 
needed. This is just one example of needed research that isn't being 
done, perhaps because the question hasn't been asked.
    It must be realized at the outset that many ARPA-E projects will 
hit an obstacles bad enough to terminate it. Beware on the other hand 
of giving up too early. Hands-on engineers are familiar with Murphy's 
Law: ``If something can go wrong, it will.'' And progress often means a 
number of cycles of ``build, break, fix, and build again.'' Notice that 
I'm emphasizing the nuts and bolts of research, as opposed to 
forecasting its economics, which I confess to have little faith in. 
Politicians want a sure thing. But however much we try, there will be 
uncertainty and random elements at play. And still, we must stay the 
course.
    Technology evolution resembles biological evolution in the sense 
that most mutations are unfavorable. But without mutations evolution 
grinds to a halt. It only takes one transistor to justify all of Bell 
Labs. Sadly, that private sector temple of applied science is a shadow 
of its former glory. Today, industrial R&D is expected by large 
companies and venture capitalists to yield profits on a three-year time 
scale, whereas DOE basic energy sciences is often most comfortable with 
``blue sky'' projects 20 or more years from fruition to avoid conflict 
with industry. The result is the well-known (by researchers) ``Valley 
of Death'' in the three- to 20-year payoff range for which it may be 
virtually impossible to get support for a new idea from either the 
private or public sector. This is the time frame ARPA-E should be 
targeting. I bring this up to illustrate that the program manager is 
crucial. She or he must be technically astute and possessed of 
excellent judgment based on experience (and compensated accordingly).
    Can we build these elements into an exploratory energy R&D program? 
It was to insure that U.S. stayed on top militarily that ARPA was born 
(now DARPA) with a unique program management style aimed at creating 
new capabilities from scratch, funding the most able investigators 
without prejudice wherever they might be--universities, national labs, 
industry, entrepreneurs & inventive guys working out of garage. So too 
should it be with ARPA-E. In many cases DARPA has created technologies 
providing a hitherto undreamt of capability (like the Internet). As 
someone who's done it I can attest that military R&D supports far more 
imaginary ideas than civilian. Of course there's more money (and less 
oversight) there. The ``black'' space program is bigger than the 
``white'' (NASA) one. Even with less revolutionary ideas, a performance 
improvement in some metric of many orders of magnitude improvement 
often a precondition for DARPA to be interested. The climate/energy 
problem is important enough to do likewise.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Do such ideas exist in alternate energy? This September's 
Scientific American in their article ``Plan B for Energy,'' identifies 
several that are high risk & high payoff. In no particular priority 
they are (Gibbs, 2006): nuclear fusion breeding of fissionable fuel 
from thorium, a potentially early payoff from a longer-term investment 
in pure fusion; high-attitude wind turbines; space-based solar power, a 
technology in which I and Representative Rohrabacher (R-CA) of the 
House Science Committee share an interest (Rohrabacher and Weldon, 
1998); nanotech solar cells; a global supergrid, originally proposed by 
Buckminster Fuller; innovative wave and tidal energy; designer 
microbes, for such applications as enzymes to convert abundant 
cellulose to sugar, for fermentation to ethanol fuel. At this point R&D 
in many of these areas--all of which could contribute in a major way to 
carbon-free power if successful--are either unsupported by DOE or any 
U.S. agency, or supported at too low a level to break out in the next 
few years as worth pursuing with real money.
    Some thoughts on funding levels and whether DOE as now constituted 
can do it: A typical DARPA program is $300-$500 thousand in the first 
year and can go up substantially as projects progress. Of course, many 
ideas will be cut early on as they fail to make their targets and 
milestones or encounter problems the program manager considers 
showstoppers. It may be prudent to start with 100 projects at this 
level by budgeting $30 to $50 million. It needs further discussion to 
decide whether it would be better to continue support as projects grow 
in scale within ARPA-E, or whether they should be transferred to DOE 
under its growing budget, which I hope would include targeted Apollo-
like programs for the most promising systems. One such system shown in 
the inset proposed by aerospace researchers in Europe would collect 
solar energy in geostationary orbit with solar cells and beam it by 
laser to surface photovoltaic modules in north Africa, and thence 
northward by high voltage Dc transmission line. The authors find, for 
plausible assumptions and available technology, that the entire 
electric load curve of Europe could be powered cost-effectively by such 
a system (Geuder et al., 2004). To some, but not I suspect Congressman 
Rohrabacher, this vision might seem too ``far out.'' Space launch costs 
may seem presently too high, and so on. But the science is sound, and 
I, for one, can only admire that Europeans and Japanese and others 
dream of a sustainably powered planet while we in the good old USA, the 
most technologically advanced nation on Earth, seem intent on marching 
backward to the Coal Age.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    I hope that we as a nation will regain our bearings, as we were on 
the right track 30 years ago. Just as Carter's effort was gaining 
steam, Ronald Reagan became President. Reagan ripped off the solar 
panels that Carter had put on the White House roof while simultaneously 
dismantling Carter's energy program based on the disastrous ideology 
that the government has no role in technology and that only private 
sector should create energy technology by the market mechanism. Newt 
Gingrich and colleagues made a similar move when the GOP took control 
of Congress in '84 when they changed the name of the ``House Committee 
on Science and Technology'' to the ``House Committee of Science.''
    What does our government have to do with future technology 
development? Almost everything. One thing I agree with in the recent 
Stern report on the economics of global warming mitigation is that the 
market is broken. Too many costs and values aren't being captured and 
consumers are anything but enlightened about their energy self-
interest. It may be the global warming is too complex for our puny 
hominid minds. As a technological optimist I believe we can solve the 
climate/energy problem in time with the right leadership. But 
leadership is key. To cite Proverbs 28:18, ``When the vision fails, the 
people perish.''

References

Caldeira, K, D. Day, W. Fulkerson, M. Hoffert (2005). ``Climate Change 
        Exploratory Research (CCTER),'' Climate Policy Center, 
        Washington, DC; online at http://www.cpc-inc.org/
Clayton, M. ``New Coal Plants Bury Kyoto.'' Christian Science Monitor, 
        December 23, 2004.
Committee on Science, Engineering, and Public Policy. Rising Above the 
        Gathering Storm: Energizing and Employing America for a 
        Brighter Economic Future. Washington, D.C.: National Academy 
        Press, 2005: online at: http://www.nap.edu/openbook/0309100399/
        html/122.html
Geuder, N., V. Quaschning, P. Viebahn, F. Steinsiek, J. Spies & C. 
        Hendricks (2004). ``Comparison of Solar Terrestrial and Space 
        Power Generation for Europe,'' presented at 4th International 
        Conference on Solar Power from Space--SPS '04, Granada, Spain, 
        30 June-2 July 2004.
Gibbs, W. (2006). ``Plan B for Energy,'' Scientific American, Sept. 
        2006, pp. 102-114.
Hansen et al. (2006). ``Global Temperature Change,'' Proceedings of the 
        National Academy of Sciences, PNAS published online Sept. 25, 
        2006 /pnas.0606291103; pdf online at: http://www.pnas.org/cgi/
        reprint/103/39/14288
Hoffert, M. (2006). ``An Energy Revolution for the Greenhouse 
        Century,'' Social Research, Vol. 73, No. 3, Fall 2006, pp. 981-
        1000.
Marsh, B. (2003). ``One Recipe for a (Mostly) Emissions-Free Economy,'' 
        New York Times, Nov. 4, 2003.
Meeks, R.L. (2002). ``Federal R&D Funding by Budget Function: Fiscal 
        Years 2001-03.'' Special Report. National Science Foundation, 
        Div. of Science Resources Statistics, Arlington, VA 22230. Full 
        text online at http://www.nsf.gov/sbe/srs/stats.htm
Nemet, G.F. & G.M. Kammen (2006). ``U.S. Energy Research and 
        Development: Declining Investment, Increasing Need, and 
        Feasibility of Expansion,'' Energy Policy (in press).
Rohrabacher, D. & D. Weldon (1998) ``Support Space Solar Power,'' Ad 
        Astra: The Magazine of the National Space Society, Jan/Feb 
        1998, pp. 22-23.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


              Statement of United Technologies Corporation

    United Technologies (UTC), based in Hartford, Connecticut, is a 
diversified company that provides high technology products and services 
to the aerospace and commercial building industries worldwide. UTC's 
products include Otis elevators, escalators and people movers; Carrier 
heating, air conditioning and refrigeration systems; UTC Fire & 
Security fire safety and security products and services; UTC Power fuel 
cells and on-site combined cooling, heating and power applications; 
Pratt & Whitney aircraft engines; Hamilton Sundstrand aerospace 
systems; and Sikorsky helicopters.
    The U.S. Department of Energy (DOE) Climate Change Technology 
Program Strategic Plan (hereinafter, Strategic Plan) proposes a 
coordinated federal approach to accelerate the development of advanced 
technologies in order to reduce greenhouse gas emissions. To help 
combat climate change, UTC is working to reduce greenhouse gases by 
reducing energy use in its operations and incorporating energy-
efficient innovations in its products and services. Since 1992, UTC has 
set corporate-wide performance goals to reduce its environmental 
footprint worldwide in its factories, with its suppliers and throughout 
its product line. UTC supports a sustained investment in federal 
public-private partnerships for research, development, demonstration 
and deployment (RDD&D) of greenhouse gas-reduction technologies. UTC 
agrees with the DOE that it is essential to make wise RDD&D investments 
in order to expedite innovative and cost-effective approaches to 
reducing greenhouse gas emissions.
    UTC has a diverse portfolio of advanced technology solutions that 
enhance the energy efficiency of transportation applications as well as 
residential, commercial and industrial buildings. We have chosen to 
focus this testimony on how we are working to reduce emissions in the 
building environment. We look forward to expanding our partnerships 
with the Department of Energy and other federal agencies to deploy 
these technologies commercially in a timely and efficient manner.

The Building Environment--Opportunities and Needs

    According to the Pew Center for Global Climate Change, the building 
sector is the single largest consumer of energy in the United States, 
with residential, commercial and industrial buildings producing 
approximately 43 percent of U.S. carbon dioxide emissions. The 
generation and transmission of electricity for buildings account for 
most of these emissions, but energy consumption by equipment and 
appliances is also growing rapidly. In the long-term, buildings will 
continue to be a significant contributor to energy demand. Increasing 
population, economic expansion and urban development will create 
corresponding demand for more building appliances and services. 
Therefore, it is essential that the DOE commit considerable resources 
to fulfill its Strategic Plan Goal #1: to ``reduce emissions from 
energy end-use and infrastructure,'' including the buildings sector.
    Energy conservation presents the most near-term opportunity to 
reduce both consumption and emissions and should be a high priority for 
our nation. Currently available technologies can save considerable 
energy use in new buildings in a cost-effective manner when evaluated 
on a life-cycle basis. New technologies are emerging that can lead to 
further cost-effective savings. The DOE's current portfolio 
appropriately targets research on residential and commercial building 
equipment, including improved efficiency of heating, cooling, 
ventilating, thermal distribution, microturbine and heat recovery 
systems. However, the RDD&D funding for these existing technologies 
must be boosted in the near-term to advance more quickly the transition 
to buildings that are net-zero greenhouse gas emitters and net-zero 
energy users.
    The DOE's portfolio also includes a strategy for advanced research 
on distributed energy systems, including highly efficient combined 
cooling, heating and power systems that use waste heat from small-
scale, on-site electricity generation to provide heating and cooling 
for the buildings and export excess electricity to the grid. Stationary 
fuel cells for assured power also represent a significant opportunity 
for near-term commercialization. Funding for these programs should be 
increased to accelerate the transition to a hydrogen economy. For 
example, implementation of the 2005 Energy Policy Act's (EPAct) market 
transition provisions that authorize the purchase of fuel cells for use 
in government buildings and fleets will help build volume and public 
awareness and signal the government's endorsement of the technology. 
Similarly, extension of the existing two-year fuel cell investment tax 
credit will provide greater certainty and market acceptance.
    UTC agrees with the DOE that significant research opportunities 
exist in new building design, retrofitting of existing buildings and 
integration of whole building systems. We'd like to discuss three areas 
we believe to be worthy of a continued and expanded RDD&D focus, given 
their applications to new and existing buildings and their potential 
for delivering cost-effective greenhouse gas emission reductions and 
increased energy efficiency: integrated heating, ventilation and air 
conditioning; advanced combined heat and power systems, and; stationary 
fuel cells.

Integrated Heating, Ventilation and Air Conditioning

    The DOE has significant opportunities to expand work with 
industrial partners to reduce energy consumption in commercial and 
residential buildings. The Energy Information Administration (EIA) has 
attributed 33 percent of the primary energy consumption in the United 
States to building space heating and cooling. There are opportunities 
to reduce the energy consumed by buildings by increasing equipment 
efficiency, exploiting integrated system designs, improving 
installation quality and ensuring efficient operation throughout the 
product life cycle. A modest aggregate increase in heating, ventilation 
and air conditioning (HVAC) efficiency of only one percent would 
provide direct economic benefits to taxpayers, enable reduction and 
better management of electric utility grid demand and reduce dependence 
on fossil fuels.
    To realize these benefits, many new technology options must be 
evaluated to ensure their affordability and to demonstrate reliability. 
The speed of technology development and market insertion in HVAC is 
limited by the size of the investment. At current funding levels and 
without increased funds to enable industrial partnerships, the DOE will 
miss significant opportunities to accelerate the impact of HVAC 
technologies on energy consumption. The federal investment in HVAC 
RDD&D should be increased in the near-term.
    The DOE has established aggressive peak power and energy savings 
goals for buildings, and the DOE's Office of Building Technologies has 
defined roadmaps and strategic plans for zero-energy buildings that 
produce as much energy as they consume. Consistent with those roadmaps, 
the HVAC industry, their suppliers, and the DOE's Buildings 
Technologies Program officers have engaged in cooperative discussions 
to implement a multi-year program plan that has already improved HVAC 
equipment seasonal energy efficiency ratings (SEER) by 30% in January 
2006. Additional annual investments in HVAC research could produce a 
return on investment (energy saved per R&D dollar invested) on a par 
with, or in excess of, that of other ongoing government-supported 
energy savings programs by 2020.
    UTC is committed to overcoming technology and market barriers to 
enable reduced energy consumption. The net energy consumption of homes, 
offices, restaurants and retail stores can be reduced through a 
combination of technologies to reach a 50 percent gain in air 
conditioning efficiency relative to the required 2006 standard. 
Additional work is needed to develop and demonstrate affordable high 
efficiency HVAC systems that are more than twice as efficient as the 
systems most prevalent in the marketplace today. Some of the high-risk 
enabling technologies we think will have high impact are:

        <bullet>  system control technologies that recognize user 
        demand, comfort and habit profiles along with the current 
        ``health/capability'' of the HVAC equipment while continuously 
        optimizing system energy performance;

        <bullet>  wireless technologies to accelerate the market 
        penetration of the needed controls and diagnostics technologies 
        and wireless sensor technologies to simply and more cheaply 
        detect leaks;

        <bullet>  variable speed systems with intelligent controls to 
        operate at peak efficiency independent of load and ambient 
        conditions;

        <bullet>  fault detection and diagnostics technologies to 
        reduce or eliminate the loss of system efficiency due to 
        improper installation, poor maintenance and faulty operation;

        <bullet>  high efficiency heat exchangers to improve HVAC 
        efficiencies by reducing losses in evaporators and condensers;

        <bullet>  technologies to advance air purification devices 
        required for indoor air quality control;

        <bullet>  integrated building system components to take 
        advantage of otherwise wasted resources and increase net 
        building efficiency;

        <bullet>  heat pumps using carbon dioxide in residential 
        systems that can be used for hot-water on-demand and integrated 
        to take advantage of waste heat from HVAC;

        <bullet>  thermoelectric devices that use electrical energy to 
        create thermal gradients and/or electricity from waste heat;

        <bullet>  enhanced energy recovery ventilation technologies 
        which allow increased natural ventilation rates at reduced 
        energy consumption; and

        <bullet>  increased use of geothermal for heating and cooling 
        systems.

    Advances in HVAC materials and device technology research will be 
needed if these products are to be affordable and gain market 
acceptance. New HVAC devices should be designed and deployed through an 
integrated building system to maximize returns.

Advanced CHP Systems

    The Energy Policy Act of 2005 recognized distributed energy (DE) as 
an important contributor to the enhancement of grid reliability and 
disaster recovery. Combined heat and power (CHP) DE systems are the 
means to also obtain high efficiency. Increased investment is necessary 
to ensure that the DOE supports continuation of vital RDD&D efforts to 
achieve CHP reliability, security and efficiency benefits.
    CHP systems combine engines that generate electricity with thermal 
devices that capture wasted engine heat (e.g., hot exhaust) and recycle 
it into an energy stream useful to the owner. Engine choices include 
microturbines, small gas turbines and reciprocating engines, while 
thermal components include heat exchangers to produce hot air or water 
and absorption chillers to produce air conditioning. The desired CHP is 
fully integrated to include these major components and the controls to 
ensure that the system operates predictably, reliably and safely.
    Among the benefits of CHP systems are:

        <bullet>  CHP systems can operate in parallel with the grid to 
        provide enhanced power reliability and quality without new 
        transmission or distribution infrastructure.

        <bullet>  CHP systems can operate independently of the grid to 
        sustain critical services (e.g., health care, communications, 
        shelter, public safety) after natural or man-made disasters.

        <bullet>  CHP systems recycle waste energy and put it to 
        productive use for heating and cooling, doubling fuel 
        utilization efficiency as compared to central power and 
        increasing customer benefit from each cubic foot of natural gas 
        consumed. CHP systems can also use renewable fuel.

        <bullet>  Efficient CHP technologies decrease emission of toxic 
        pollutants and greenhouse gases.

        <bullet>  CHP relieves grid congestion directly and provides 
        power not only to remote sites, but also to any constrained 
        area, avoiding investment for new grid wires in cities and 
        beyond the ``end of the line.''

        <bullet>  A public-private partnership has successfully 
        developed technology for a first-generation packaged system 
        from which trial grocery, hotel and educational sites are 
        benefiting. Additional RDD&D is required for advanced 
        technology CHP systems and their enabling technologies to 
        achieve greater system efficiency and reliability, multiple and 
        simultaneous thermal streams and robust operation for isolated 
        communities and disaster relief.

Stationary Fuel Cells

    In 2003, President Bush expanded federally supported fuel cell 
technology development to help meet our growing demand for energy. The 
Energy Policy Act of 2005 expanded fuel cells' potential to address 
energy dependence, improve energy efficiency and reduce greenhouse gas 
emissions. UTC Power, a UTC company, is the only company in the world 
that develops and produces fuel cells for applications in each major 
market: on-site power, transportation and space flight applications. 
UTC Power is also the world leader in the development of innovative 
combined cooling, heating and power applications in the distributed 
energy market. We believe the need for a continued role by the Federal 
Government in the commercialization of fuel cell technology is vital 
and cannot be overstated.
    Fuel cells provide an opportunity to address a variety of U.S. 
energy needs including reducing dependence on foreign oil; delivering 
assured, high quality reliable power; decreasing toxic air and 
greenhouse gas emissions; and improving energy efficiency. We do not 
see any ``show stopper'' technical barriers to the advancement of fuel 
cells, but continued U.S. commitment to research, development, 
demonstration and market transition initiatives are essential to reduce 
cost, improve durability and enhance performance. Hydrogen storage and 
infrastructure requirements represent challenging obstacles for 
transportation applications, but near-term opportunities exist with 
stationary fuel cells for assured power and fleet vehicles such as 
transit buses.
    We believe government plays an absolutely central role in 
establishing the rules, creating the incentives and adopting the 
requirements necessary to build a new market that encourages customers 
and electric distribution companies to invest in efficient, clean 
energy options that will increase our nation's energy independence and 
security through environmentally-benign means. Government is also an 
important customer because its vast purchasing power can help increase 
volume and reduce costs to levels more competitive with traditional 
energy sources.
    Fuel cells are available today for the stationary and fleet 
markets. Near-term successes are required to create public awareness 
and acceptance, establish a viable supplier base and stimulate 
continued investment. The EPAct provides the basic framework for a 
comprehensive strategic focus, but a sustained national commitment to 
robust funding will be critical to our success. Hurricane Katrina 
reconstruction efforts represent an opportunity to deploy fuel cells in 
schools to serve as emergency shelters, hospitals and other critical 
infrastructure facilities to demonstrate their ability to provide 
sustainable energy for assured power requirements.
    Our dependence on imported oil is well-documented and personal 
automobiles consume the lion's share of it. Deployment of fuel cell 
vehicles powered by renewable sources of hydrogen can break our 
dependence on imported oil and, at the same time, take transportation 
out of the environmental debate. The auto market also represents the 
highest-volume market, which is another reason this sector has received 
so much attention. But fuel cell vehicles for private use in meaningful 
quantities are a decade away since they represent the most demanding 
application in terms of cost, packaging and infrastructure. Existing 
electrical infrastructure and state and federal regulations create 
hurdles for any form of base load distributed generation to overcome.
    Stationary fuel cells have less demanding requirements and can 
compete at costs higher than those required by autos. Concentrating on 
these applications would enhance our ability to establish a profitable 
industry today and create stepping stones to the most demanding longer-
term auto application. Few companies can survive the next ten years 
waiting for the high volumes offered by the car market. Instead, they 
must find applications where profits can be realized today that will 
support the development of a strong industrial base in preparation for 
the future auto market. Success in these early applications can build 
the necessary public awareness and public confidence.
    Since fuel cells can be deployed at the point of use and are not 
reliant on the vulnerable transmission and distribution assets of the 
grid, customers can benefit from the ability to capture waste heat and 
put it to constructive use for space heating, domestic hot water 
heating and industrial processes. Our units operating in the combined 
heat and power mode can operate at 85-90 percent efficiency, generating 
energy savings that can reduce the cost of electricity by four to five 
cents per kilowatt hour. The cost of UTC Power's fuel cell power plants 
is currently around $4,500 per kilowatt, but at volumes of 500 units 
per year and with the aggressive cost reduction efforts we have 
underway, we expect our next generation technology to be competitive at 
less than $2,000 per kW.
    In short, technology development barriers for technology fuel cells 
are being addressed at a rapid pace. On a small scale, we can meet the 
identified requirements and we don't envision any formidable show 
stoppers. This doesn't mean, however, that we don't need to continue 
our public-private partnership research, development or demonstration 
efforts. We strongly endorse the continuation of these activities and 
increased financial commitment to accelerate the progress we have made 
in the last few years.
    The basic concepts of fuel cell technology have been proven. Our 
task now is to enhance key performance characteristics (such as 
durability); reduce costs; validate the technology in real world 
operating conditions; identify hidden failure modes through extended 
operation; and then identify and incorporate cost-effective solutions.
    Three strategies are necessary for cost reduction:

        <bullet>  Internal programs to reduce cost through material 
        substitution, longer life parts, and fewer parts. Examples 
        include less expensive membranes, better seals, reduced use of 
        platinum, enhanced performance materials for bipolar plates and 
        reduced system complexity.

        <bullet>  Improved manufacturing processes to eliminate labor-
        intensive processes and identify high-volume manufacturing 
        solutions; and

        <bullet>  Incentives to help increase volume, and thereby 
        spread costs over a larger product base.

    A comprehensive national strategy is needed to achieve fuel cell 
commercialization. Last year's enactment of the EPAct establishes such 
a framework, but more work needs to be done. Budget requests and 
appropriation figures for this year fall far short of levels authorized 
by Congress. We recognize there are tight budget constraints, but given 
the benefits of fuel cell technology and the price we pay today for 
imported oil, health costs associated with poor air quality and lost 
productivity due to lack of reliable power, substantial increases in 
fuel cell technology investment represent a fiscally sound strategy.

Energy Efficiency Buildings Project

    The World Business Council for Sustainable Development has formed 
the Energy Efficient Buildings project, an alliance of leading global 
companies to determine how buildings can be designed and constructed so 
they are energy- and carbon-neutral and can be built and operated at 
fair market values. The industry effort is led by UTC, one of the 
world's largest suppliers of capital goods including elevators, 
cooling/heating and on-site power systems to the commercial building 
industry, and Lafarge Group, the world leader in building materials 
including cement, concrete, aggregates, gypsum and roofing.
    The effort to transform the way buildings are conceived, 
constructed, operated and dismantled has ambitious targets: by 2050 new 
buildings will consume zero net energy from external power supplies and 
produce zero net carbon dioxide emissions while being economically 
viable to construct and operate. Constructing buildings that use no net 
energy from power grids will require a combination of on-site power 
generation and ultra-efficient building materials and equipment.
    To spur industry-wide investment in climate change technologies, 
governments must commit to a sustained, robust investment in public-
private partnerships for RDD&D, financial incentives and market 
transition initiatives. Some of these technologies are already under 
development by UTC, including collaborative information tools that 
facilitate energy-efficient and economically viable buildings; 
technologies that increase heating/cooling system performance and 
efficiency; information infrastructures that better manage fire and 
security systems; elevator-regenerable power drives; and advanced, 
clean energy technologies for on-site power co-generation. With 
stronger federal support for such RDD&D activities, the technologies 
needed for a self-sufficient, energy-efficient building are right 
around the corner.

Conclusion

    Shareholder value comes in part from research and development. UTC 
spends approximately $2.9 billion annually, 90 percent of that in the 
United States, to develop tomorrow's technologies. Each UTC business 
makes certain that their products and services are the most innovative 
and technologically advanced in the world. The United Technologies 
Research Center (UTRC) is an incubator for UTC products, researching 
energy and environmental innovations to assist UTC in developing, and 
then building, new products for the next generation. Whether it's 
conducting research on hydrogen production and storage technologies, 
inventing ways to heat and cool more efficiently or improving jet 
engine design and efficiency, UTRC provides valuable technical 
experience to further UTC's pursuit of better environmental quality in 
its products. Genuine corporate responsibility requires that we make 
environmental considerations priorities in new product development and 
investment decisions. By creating products that use less energy and 
help lower greenhouse gases that contribute to climate change, we can 
differentiate our products in an increasingly environmentally conscious 
global marketplace.
    We are pleased to see that the DOE Strategic Plan seeks to expand 
partnerships with the business community in research and development 
planning, program execution and technology demonstrations, leading to 
more efficient and timely commercial deployment of greenhouse gas-
reducing and energy-efficient technologies. UTC regularly forms 
partnerships with the Federal Government to encourage greenhouse gas 
emission reductions and meet energy efficiency goals. As an EPA Climate 
Leaders partner, UTC pledged to reduce its global greenhouse gas 
emissions by 16 percent per dollar of revenue from 2001 to 2007. As an 
EPA Energy Star member, we are helping Americans save energy and avoid 
greenhouse gas emissions by providing energy-efficient products in 
residential and commercial settings. UTC Power is a member of the EPA 
CHP Partnership, a public-private endeavor committed to providing 
clean, efficient power and thermal energy and reducing pollutants and 
greenhouse gases.
    We thank the House Science Committee for giving us the opportunity 
to share our thoughts on the DOE Strategic Plan and some steps that 
need to be taken to ``stimulate and strengthen the scientific and 
technological enterprise of the United States, through improved 
coordination and prioritization of multi-agency federal climate change 
technology R&D programs and investment. . ..''

                     Statement of Daniel M. Kammen

    Professor in the Energy and Resources Group (ERG); Professor of 
Public Policy in the Goldman School of Public Policy; Co-Director, 
Berkeley Center for the Environment; Director, Renewable and 
Appropriate Energy Laboratory (RAEL), University of California, 
Berkeley

Introduction

    Chairwoman Biggert and Members of the House Committee on Science, I 
am grateful for the opportunity today to speak with you on the critical 
issue of the United States' approach to the great challenges that 
climate change presents our nation and the planet. At the heart of my 
comments is the finding that leadership in protecting the environment 
and improving our economic and political security can be achieved not 
at a cost, but through political and economic gain to the Nation in the 
form of reasserted leadership both technologically and financially, 
through increased geopolitical stability and flexibility, and through 
job growth in the `clean energy' sector.
    I hold the Class of 1935 Distinguished Chair in Energy at the 
University of California, Berkeley, where I am a Professor in the 
Energy and Resources Group, the Goldman School of Public Policy, and 
the Department of Nuclear Engineering. I am the founding director of 
the Renewable and Appropriate Energy Laboratory, an interdisciplinary 
research unit that explores a diverse set of energy technologies 
through scientific, engineering, economic and policy issues. I am also 
the Co-Director of the University of California, Berkeley Institute of 
the Environment. I have served on the Intergovernmental Panel on 
Climate Change (IPCC), and have testified before both U.S. House and 
Senate Committees on the science of regional and global climate change, 
and on the technical and economic status and the potential of a wide 
range of energy systems, notably renewable and energy efficiency 
technologies for use in both developed and developing nations. I am the 
author of over 160 research papers, and five books, most of which can 
be found online at http://socrates.berkeley.edu/rael.
    In July of last year the Honorable R. John Efford, the then 
Minister of Natural Resources Canada, announced my appointment, as the 
only U.S. citizen, to serve on the Canadian National Advisory Panel on 
the Sustainable Energy Science and Technology (S&T) Strategy. The Panel 
provides advice on energy science and technology priorities to help 
Canada develop sustainable energy solutions, and is tasked to produce a 
document similar in objectives to the Climate Change Technology Program 
Strategic Plan, which we are here today to discuss.

Overview of Climate Change and Innovation in the Energy Sector

    As described in the CCTP Strategic Plan climate change presents our 
nation with a serious, long-term challenge. Central to the difficulty 
of this challenge is that reducing the risks posed by climate change 
will require us to transform the largest industry on the planet, the 
energy industry. Energy is important, not only for its direct 
contribution to ten percent of economic output by our nation's private 
sector, but also as the fundamental enabling infrastructure for an 
array of economic activities, from manufacturing to agriculture to 
health care. The availability of reliable and affordable energy should 
not be taken for granted. The challenges of renewing the U.S. energy 
infrastructure to enhance economic and geopolitical security and 
prevent global climate change are particularly acute, and depend on the 
improvement of existing technologies as well as the invention, 
development, and commercial adoption of emerging ones. Recent trends in 
the energy sector--which show declining levels of technology investment 
and innovation--heighten the need for an aggressive response (Appendix 
A). The CCTP provides a tremendous opportunity to reverse this trend, 
open up new technological options, and stimulate economic growth 
through the development of a new clean energy-based sector of the 
economy. Key strengths of the CCTP Strategic Plan are its leadership by 
the President, the acknowledgement of the long-term nature of the 
problem, and the breadth of its technology portfolio. Yet the CCTP 
Strategic Plan, in its current draft, is seriously flawed. The goal 
that it seeks to reach, and the basis on which we are here to evaluate 
it today, is far too modest; it is not commensurate with the magnitude 
of the challenges we face and not reflective of our nation's capacity 
for innovation. This testimony will outline the magnitude of effort 
that will be required, an overview of the innovation environment in the 
energy sector, and recommendations for improvement.

The Nation's climate technology program should be based on a goal that 
                    reduces emissions

    The most significant shortcoming of the CCTP strategic plan is that 
the goal it seeks to reach is not commensurate with the magnitude of 
the challenges posed by climate change and other energy-related 
problems. In evaluating the CCTP strategic plan one must first 
seriously consider what goal it is trying to achieve. To avoid the 
adverse impacts of climate change we will need to stabilize 
concentrations of greenhouse gases in the atmosphere. This will require 
real reductions in the amount of carbon dioxide and other greenhouse 
gases that we emit. As the strategic plan itself asserts:

         Stabilizing GHG concentrations, at any atmospheric 
        concentration level, implies that global additions of GHGs to 
        the atmosphere and global withdrawals of GHGs from the 
        atmosphere must come into a net balance. This means that growth 
        of net emissions of GHGs would need to slow, eventually stop, 
        and then reverse, so that, ultimately, net emissions would 
        approach levels that are low or near zero.'' (p 2-2)

    However, today we are here to evaluate the program based on its 
ability to meet the Administration's emissions intensity target of an 
18 percent reduction in GHG intensity by 2012. Throughout this 
testimony, I will argue that a major flaw in the CCTP plan is that it 
is designed to meet a goal that is wholly inadequate to the challenge 
we face. Only when we take this challenge seriously will we be able to 
meaningfully mobilize our nation's scientific, technological, and 
economic resources to meet it, as well as to reap the benefits of 
international leadership in the clean and sustainable energy sector.
    The need to reduce uncertainties in current climate science around 
climate sensitivity and expected impacts is often cited as a reason for 
delaying commitments to emissions reductions. Yet, the plan is correct 
in pointing out that scientific uncertainty is neither a valid 
justification nor a wise strategy for choosing to delay. In fact, there 
is not much uncertainty about the basic problem and its magnitude. 
Estimates done at Lawrence Livermore National Lab of carbon emissions 
which assume we find a way to reduce emissions to zero by 2050 while 
meeting energy service demands--i.e., very conservative estimates--will 
still almost certainly result in CO<INF>2</INF> levels exceeding 550 
ppm in the atmosphere, if not more. Given that the CO<INF>2</INF> level 
is now 380 ppm--30 percent higher than it has been at any point in the 
last 650,000 years--we are essentially conducting an unprecedented 
experiment with the Earth. Despite the long time horizons of the 
climate change problem, the availability of carbon-free energy 
technologies is a relatively urgent matter because the 100-year 
residence time of CO<INF>2</INF> in the atmosphere, the 30- to 50-year 
lifetime of capital stock in the energy industry, and the typical 
decades-long diffusion curve for infrastructure-related technologies 
are to varying extents outside of our control. The response to this 
combination of uncertainty and urgency should be a commitment to the 
creation of a multitude of new technological options, not a timid 
approach that narrows the range of possibilities at our disposal in the 
future.
    In contrast, meeting the Administration's current target will 
require only a slight change from the business as usual case (Figure 1) 
(EPA 2005). More relevant to the climate problem, reaching this target 
would actually allow emissions to grow by 12 to 16 percent. This target 
would thus represent a larger increase than the 10 percent increase 
that occurred in the previous decade. If we are to be serious about 
meeting the climate challenge we need to set a goal consistent with the 
CCTP's objective of moving toward zero net emissions. While the Kyoto 
Protocol has its flaws, its targets do represent a substantial shift 
toward reducing emissions. Similarly, the Governor of California's GHG 
emissions targets announced last summer include both near-term and 
longer-term goals that delineate a path of emissions reductions toward 
climate stabilization. The administration should set a series of 
targets that show a clear path to emissions reductions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1 shows actual U.S. GHG emissions from 1990 through 2003 
(EPA 2005) in giga-tons of carbon equivalent. Four future paths for 
future U.S. emissions are shown; circles show the business-as-usual 
(BAU), or ``reference case,'' as calculated by the Energy Information 
Agency (EIA). The diamond shows the Administration's GHG intensity 
target for 2012 of 18 percent below 2002 level in tons of carbon per 
unit of GDP, or a 3.6 percent reduction in emissions from BAU. The 
squares show U.S. emissions if the Nation were to meet the percentage 
reductions that have been announced in California for 2010, 2020, and 
2050 (California Executive Order 3-05, and California AB32, the 
``Pavley-Nunez Bill). The triangle shows the U.S.'s target for 2010 
under the Kyoto Protocol. Arrows indicate the levels required to meet 
the CCTP's long-term goal of ``levels that are low or near zero'' (p. 
2-2).

    What is needed is a serious and sustained commitment to emissions 
reductions and a time scale that conveys to the country the urgency of 
the need to open future options. Much as President Nixon's announcement 
of a program in the early-1970s to reduce reliance on foreign oil 
stimulated efforts by the private sector to invest in alternative 
energy sources, the articulation of a bold and clear target for 
emissions reductions would send a signal to the private sector that 
would leverage the Federal Government's direct investments in new 
technologies.

Raising climate technology investment to adequate levels

    In recent work, we calculated the investment in R&D required to 
reach a climate stabilization level of 550 ppm, a level that would 
double the amount of GHG in the atmosphere relative to that at the 
beginning of industrialization in the eighteenth century. Using 
emissions scenarios from the Intergovernmental Panel on Climate Change 
and a previous framework for estimating the climate-related savings 
from energy R&D programs (Schock et al., 1999), we calculate that U.S. 
energy R&D spending of $15-$30 billion/year would be sufficient to 
stabilize CO<INF>2</INF> at double pre-industrial levels (see Appendix 
for calculations). A strategy that employs a diversified portfolio 
approach to manage technological uncertainty is diluted quickly when 
funding levels are five to ten times below their socially optimal 
levels.
    The plan itself states, ``successful development of advanced 
technologies could result in potentially large economic benefits''(p. 
3-28). As an example of the effect of policy on abatement costs, we can 
observe how a combination of R&D and demand-side policy has stimulated 
cost reductions in energy technologies (Duke and Kammen, 1999, Margolis 
and Kammen, 1999). For example, solar cells, known as photovoltaics, 
have declined in cost by more than a factor of 20 and wind turbines by 
a factor of 10. Accelerating future cost reductions in these and other 
technologies will require further investments in technology development 
and market creation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Climate change programs would address other problems as well

    An important finding in ours and previous work on energy R&D is 
that many of the same programs that would help abate the climate 
problem would address other societal problems too. Adoption of improved 
zero emissions energy production and end-use technologies would offset 
the adverse health effects associated with emissions of mercury, sulfur 
dioxide, and oxides of nitrogen. Increased use of renewables-based 
power and fuels would reduce our sensitivity to energy production in 
politically unstable regions. A more distributed power system based on 
smaller scale production would enhance the robustness of the 
electricity system and reduce dangerous and costly power outages. And a 
more diverse mix of technologies and fuels would lessen the macro-
economic effects of rapid changes in energy prices.

Comparing a major R&D initiative on climate to past programs

    In our recent work we have asked how feasible it would be to raise 
investment to levels commensurate with the energy-related challenges we 
face. One way to consider the viability of such a project is to set the 
magnitude of such a program in the context of previous programs that 
this committee has participated in launching and monitoring. Scaling up 
R&D by five or ten times from current levels is not a `pie in the sky' 
proposal, in fact it is consistent with the scale of several previous 
federal programs (Table 1), each of which took place in response to a 
clearly articulated national need. While expanding energy R&D to five 
or ten times today's level would be a significant initiative, the 
fiscal magnitude of such a program is well within the range of previous 
programs, each of which have produced demonstrable economic benefits 
beyond the direct program objectives.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Declining investment in energy R&D

    My students and I have documented a disturbing trend away from 
investment in energy technology--both by the Federal Government and the 
private sector (Figure 3). The U.S. invests about $1 billion less in 
energy R&D today than it did a decade ago. This trend is remarkable, 
first because the levels in the mid-1990s had already been identified 
as dangerously low, and second because, as our analysis indicates, the 
decline is pervasive--across almost every energy technology category, 
in both the public and private sectors, and at multiple stages in the 
innovation process. In each of these areas investment has been either 
been stagnant or declining. Moreover, the decline in investment in 
energy has occurred while overall U.S. R&D has grown by six percent per 
year, and federal R&D investments in health and defense have grown by 
10 to 15 percent per year, respectively.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    By looking at individual energy technologies, we have found that in 
case after case, R&D investment spurs invention. For example, in the 
case of wind power patenting follows the wild swings in R&D budgets 
(Figure 4).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A further concern regards U.S. competitiveness in these 
increasingly important technologies. For example, a glance at other 
nations' investments in new renewable energy technology shows the U.S. 
playing a secondary role (see Appendix C). Both Europe and Japan are 
investing more in R&D for renewable energy. Moreover, they have 
established leading companies in the fast growing wind and solar 
industries. Our economic competitiveness in these increasingly 
important sectors hinges on our commitment to investing in new 
technologies.
    Finally, the drug and biotechnology industry provides a revealing 
contrast to the trends seen in energy. Although energy R&D exceeded 
that of the biotechnology industry 20 years ago, today R&D investment 
by biotechnology firms is an order of magnitude larger than that of 
energy firms (Figure 5). Today, total private sector energy R&D is less 
than the R&D budgets of individual biotech companies such as Amgen and 
Genentech.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Addressing the Committee's questions

    I now address specific questions posed by the Committee.

To what extent will the draft strategic plan meet the Administration's 
goal of reducing U.S. greenhouse gas emission intensity (the amount of 
emissions per unit of production) by 18 percent by the year 2012?

    In responding to this question, it is important to make clear how 
small a change is necessary for the Nation to meet the Administration's 
GHG intensity goal for 2012. In Figure 6 we compare the President's 
climate change goal to the business-as-usual reference case established 
by the EIA. In order to achieve the President's goal, a reduction of 
3.6 percent, or 66 million tons of carbon equivalent, would be required 
below the BAU projection. To put this amount in perspective, this 
change could be accomplished by switching about 100 of our nation's 
1500 coal burning power plants to natural gas. New technology would 
make such a switch easier. But we could accomplish such a change with 
no research program at all with a relatively modest change in only one 
sector. If an array of changes were implemented throughout the energy 
sector, to include end-use and transportation, meeting the carbon 
intensity goal would be even easier. Meeting other goals such as the 
Kyoto Protocol or stabilization at levels of 450 or 550 ppm would 
require much larger changes, including widespread deployment of 
technologies described in the Strategic Plan.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Figure shows the carbon intensity of the U.S. economy (in gC-
equivalent/2000$GDP). The historical trend is shown from 1975 to 2002, 
with the EIA's ``business as usual' (BAU) projection to 2025. Also 
shown are is the President's 2002 goal of an 18 percent reduction in 
carbon intensity below the 2002 level by 2012 and the Kyoto Protocol's 
goal of a seven percent reduction in carbon emissions below 1990 levels 
by 2012. Additionally, the world ``WRE stabilization pathways,'' named 
for the authors of a paper in Nature that has become a frequently used 
basis for carbon stabilization concentrations (see references), are 
used to calculate projected world average carbon intensity in 2020 for 
the 450 ppmv and 550 ppmv stabilization levels. In order to achieve 
Bush's goal, a reduction of 3.6 percent, or 66 million tons of carbon 
equivalent, would be required below the BAU projection. By contrast, in 
order to achieve the Kyoto Protocol's goal, a reduction of 33 percent, 
or 613 million tons of carbon equivalent, would be required. Note also 
that the WRE projections are world averages, which means that if enough 
other countries had carbon intensities higher than these values, it is 
possible that the U.S. would have to reduce carbon intensity to below 
these values.

Does the Administration's strategic plan provide clear, unambiguous 
resource allocation guidance for the government's climate change 
technology R&D portfolio?

    The plan's description of each technology program, including each 
program's overall strategy, current status, and future directions, does 
provide insight into the where resources will need to be allocated in 
order to bring programs toward commercially viable products. The broad 
array of technological options is an impressive feature of the plan. 
However, it is difficult to reconcile this rich and diverse technology 
portfolio with the budget summary in Appendix A.3. First, the plan does 
not clearly and unambiguously describe how each of the dozens of 
technology programs are to be funded. The budgets are listed at the 
level of the funding agency which gives little direction, for example, 
as to how much should be invested in biofuels versus carbon capture and 
sequestration. Second, it is difficult to imagine how a budget of 
slightly over three billion dollars per year can be used to fund the 
array of activities described in the plan at more than a trivial level. 
Real progress in programs such as fusion facilities and demonstrations 
of geological storage will require construction of facilities that will 
range in the tens to hundreds of millions of dollars. Funding a wide 
array of programs at relatively equal levels will ensure that these 
levels are low. A real danger exists that this funding will remain 
below critical thresholds for mobilizing needed technological 
improvements. If there is a prioritization of the programs that will 
allocate significant funds to a few key areas, it is not evident in the 
current public draft of the plan. Finally, a troubling omission is that 
the plan contains no budgets beyond 2006. This extremely short timeline 
for the budgets contained in the plan lies in stark contrast to the 
well-specified descriptions at the beginning of the document about the 
long-term nature of the problem and the time it will take to develop 
the technological solutions to address it. The lack of clarity here is 
especially damaging because the absence of a longer-term commitment 
sends an unnecessarily ambiguous signal to the private sector dampening 
the effect of the virtuous cycle that can emerge from government 
investment in R&D and subsequent investment by the private sector.

Does the draft strategic plan appropriately balance the research needs 
that will enable the country to take short-, medium- and long-term 
actions to limit our greenhouse gas emissions and to adapt to any 
anticipated effects of climate change?

    The strategic plan makes good use of emissions scenarios in its 
treatment of technology timing. On page 3-28, the plan makes the 
crucial point that the slow turnover of capital stock in the energy 
sector implies that technologies that need to achieve widespread 
deployment by mid-century will need to reach commercial readiness well 
before that, maybe even decades earlier. This infrastructural inertia 
combined with natural lags in the flows of GHG in the ocean, 
atmosphere, and biosphere creates an urgency that belies the long-time 
scales involved in the climate problem.
    The ``roadmap'' in Figure 10-1 is a helpful visualization of the 
staged deployment of technology programs within the plan. Perhaps the 
most important text in Chapter 10 is the phrase ``significant 
deployment.'' Offsetting GHG emissions with new technologies requires 
widespread deployment of low and zero-carbon technologies. This need 
for broad adoption of the technologies at issue really brings into 
question the adequacy of our near-term response to the problem. For 
example, achieving widespread deployment of hydrogen fuel cell 
automobiles in the 2025 to 2045 period, as the plan recommends, means 
that a significant number of those vehicles would need to begin 
entering the market ten years from today when a viable hydrogen fueling 
infrastructure would need to be in place. Significant deployment by 
2035 means almost all new vehicles would need to be fuel cell vehicles 
by 2025, which implies that a large number of commercially available 
models would be available by 2015. Yet the plan's goal for 2015 is 
merely to achieve reliability and cost targets in demonstration 
projects.
    The roadmap is a succinct outline of the sequencing of the 
technology programs. What is missing is a clearer path for how these 
technologies emerge from modestly funded research programs, to 
demonstration, to early commercial applications, to rapid adoption, to 
the end goal, which is widespread deployment. As an example of what 
such a path might look lie, my students and I have produced a detailed 
analysis that shows how we can ``decarbonize'' the vehicles and 
electricity sectors through a small set of specific policies. We 
provide these illustrative scenarios in Appendix D, and note that work 
underway place in the Energy and Environment Division at Lawrence 
Livermore National Laboratory under the leadership of Dr. Jane Long is 
coming to similar conclusions.

Two important considerations: incentives for high-payoff research and 
                    commercialization

    I would like to emphasize two additional important aspects of a 
substantially enhanced climate technology program. First, special 
emphasis may be needed to create incentives for high risk, high payoff 
research. We refer to a section within a recent National Academies 
report on this topic. And second, development efforts to hasten 
commercialization need to be included as well so that research programs 
acknowledge the need for demand-side incentives too.
    This past fall, the National Academy of Science released an 
important report that raised the issue of American technological 
competitiveness and provided recommendations for improving the 
country's capacity for innovation (Augustine, 2005). That report 
focused on the two fundamental issues that, in the opinion of its panel 
of experts, challenge our country's technical competence:

        <bullet>  Creating high quality jobs for Americans, and

        <bullet>  The need for clean, affordable, and reliable energy.

    Setting energy-related challenges at the top of our country's 
science and technology agenda is an important step and fits well with 
the situation outlined in the rest of this testimony. The 
recommendations in this study are admirable for their breadth including 
suggestions for K-12 education, basic research, university training, 
and incentives for innovation. Of particular interest to this committee 
is the panel's vision of a Defense Advanced Research Projects Agency 
(DARPA) for energy, ``ARPA-E.'' Such a program would fund ``high-risk 
research to meet the Nation's long-term energy challenges'' including 
universities, existing firms, and start-up ventures. The flexibility 
and independence of the DARPA model are key attributes that such a 
program seeks to emulate. Establishing an adequately funded 
organization like this would be a powerful commitment to securing our 
nation's energy future much as the way DARPA has done for our military 
power.
    Important details to consider in setting up such an agency include 
ensuring that the demand-side of the problem is addressed as well. The 
military is unique in that the technologies being developed are created 
for a single customer under public sector control. Decision-making and 
technology adoption in the energy sector are much more dispersed and 
are deeply impacted by market forces as well as regulation. As a 
result, an ARPA-E program would need to be more cognizant of the 
demand-side of the innovation process in order to bring high-risk, 
high-payoff energy technologies to widespread adoption. This may 
include more emphasis on collaboration and technology transfer activity 
between the government and the private sector. Prior work on federal 
energy R&D, such as the PCAST studies (PCAST, 1997, 1999), has 
emphasized the importance of designing programs and policies that 
provide pathways for technologies that emerge from R&D programs to find 
full-scale commercial applications. The notion of the ``valley of 
death'' is based on the observation that technologies that succeed in 
proceeding from research to development to demonstration face important 
new obstacles in becoming viable commercial products. Technologies at 
this stage are often one-of-a-kind demonstrations and have not been 
built at full scale, large volume manufacturing problems need to be 
solved, and reliability must be demonstrated to skeptical customers. 
Past experience shows that technological success is not sufficient to 
bring new energy technologies to market. The challenges of scaling up, 
investing in manufacturing and distribution, building institutional 
capacity, and customer education need to be addressed as well. Past 
energy R&D programs may have put too little emphasis on this critical 
stage and a large new initiative needs to address these issues as well 
if the United States is to take full advantage of the benefits that 
emerge from the research programs. For example, public funding may need 
to be allocated for demonstration projects that stimulate learning 
effects, prove the viability of unfamiliar technologies, and mediate 
the risks to early adopters.

Common misconceptions about an aggressive energy R&D program

    Some have expressed skepticism about the need for a national 
program for high-payoff energy R&D. Here I'd like to point out 
important misconceptions behind five criticisms of such a program:

        1.  ``Energy research is already well funded by private 
        firms.'' Our figures shown above show that this is clearly not 
        the case, as R&D investment by private firms has fallen by 50 
        percent in the past decade and R&D intensity by energy firms is 
        a factor of 10 below the U.S. average.

        2.  ``Public sector R&D will crowd-out private sector R&D.'' 
        For the economy as a whole, the evidence for this assertion is 
        mixed at best (David et al., 2000). In the energy sector, there 
        is so little private energy R&D that could be crowded out that 
        this problem is small if it exists at all.

        3.  ``Venture capital will identify promising opportunities in 
        the energy sector.'' The emergence of VC investment in the 
        energy sector has been encouraging. However, this is 
        overwhelmingly for late-stage technologies with the potential 
        for widespread adoption within three to five years.

        4.  ``Government programs would pick winners rather than let 
        markets decide.'' In early stage technologies, when uncertainty 
        is high and risks are large, the best strategy is making a 
        diverse set of uncorrelated investments. This strategy is best 
        seen as placing multiple bets, not picking winners.

        5.  ``Emulating the success of DARPA for an ARPA-E program does 
        not make sense because Department of Energy research programs 
        are more productive than DARPA's.'' It is extremely difficult 
        to measure the productivity of the early stage research that 
        DARPA funds. R&D productivity measures that focus on the direct 
        and easy-to-measure benefits of new technologies, tend to 
        underestimate the benefits of public R&D. For example, how 
        would we assess the worthiness of DARPA's funding of research 
        on semiconductors in the 1940s and 1950s and the Internet in 
        the 1970s?

Recommendations

        <bullet>  Make Energy and the Environment a Core Area of 
        Education in the United States. Public interest and action on 
        energy and environmental themes requires attention to make us 
        `eco-literate and economically savvy.' We must develop in both 
        K-12 and college education a core of instruction in the 
        linkages between energy and both our social and natural 
        environment. The Upward Bound Math-Science Program and the 
        Summer Science Program each serve as highly successful models 
        that could be adapted to the theme of energy for a sustainable 
        society at all educational levels. The launch of Sputnik in 
        1957 mobilized U.S. science and technology to an unprecedented 
        extent, and should serve as a lesson in how powerful a use-
        inspired drive to educate and innovate can become. The Spring 
        2005 Yale Environment Survey found overwhelming interest in 
        energy and environmental sustainability. Contrast that interest 
        with the results of the Third International Mathematics and 
        Science Study (TIMSS) where American secondary school students 
        ranked 19th out of 21 countries surveyed in both math and 
        science general knowledge. The United States can and should 
        reverse this trend, and sustaining our natural heritage and 
        greening the global energy system is the right place to begin.

        <bullet>  Establish a Set of Energy Challenges Worthy of 
        Federal Action. Establish Sustainable Energy USA awards--
        modeled after the successful efforts of the Ashoka Innovators 
        awards for social entrepreneurs and the Ansari X Prize 
        initially given for space vehicle launch--that inspire and 
        mobilize our remarkable resources of academia, industry, civil 
        society, and government. These initiatives would support and 
        encourage groups to take action on pressing challenges. An 
        initial set of challenges include:

                  Buildings that cleanly generate significant portions 
                of their own energy needs (`zero energy buildings');

                  Commercial production of 100 mile per gallon 
                vehicles, as can be achieved today with prototype plug-
                in hybrids using a low-carbon generation technologies 
                accessed over the power grid, or direct charging by 
                renewably generated electricity, and efficient biofuel 
                vehicles operating on ethanol derived from cellulosic 
                feedstocks.

                  Zero Energy Appliances (Appliances that generate 
                their own power).

                  `Distributed Utilities'; challenges and milestones 
                for utilities to act as markets for clean power 
                generated at residences, businesses, and industries.

        <bullet>  Make the Nation the Driver of Clean Vehicle 
        Deployment. As the Zero Emission Vehicle Mandate and the Pavley 
        Bill (AB 1493) have shown in California, dramatic improvements 
        in vehicle energy efficiency and reductions in carbon emissions 
        are eminently achievable, given political leadership. A clear 
        message, as well as dramatic carbon and financial savings, 
        would come from a decision to only purchase for state 
        transportation needs vehicles meeting a high energy efficiency 
        target, such as 40 miles per gallon for sedans and 30 miles per 
        gallon for utility vehicles. These standards are now possible 
        thanks to improvements in vehicle efficiencies and the wider 
        range of hybrids (including SUV models) now available. A key 
        aspect of such a policy is to announce from the outset that the 
        standards will rise over time, and to issue a challenge to 
        industry that a partnership to meet these targets will benefit 
        their bottom line and our nation.

        <bullet>  Expand International Collaborations that Benefit 
        Developing Nations at a Carbon Benefit. The needs of many 
        developing nations are focused on the challenges meet 
        fundamental economic and environment goals for their people. At 
        the same time, these are our goals as well, both as a nation 
        that must lead the charge to a sustainable and equitable world, 
        and as citizens of a world where we share the rights and 
        responsibilities to protect the atmosphere. Greenhouse gases 
        emitted anywhere impact us all, not only today but for decades 
        to come. In many cases, tremendous opportunities exist to 
        offset future greenhouse gas emissions and to protect local 
        ecosystems both at very low cost, but also to directly address 
        critical development needs such as sustainable fuel sources, 
        the provision of affordable electricity, health, and clean 
        water. My laboratory has recently detailed the local 
        development, health, and the global carbon benefits of research 
        programs and partnerships on improved stoves and forestry 
        practices (Bailis, Ezzati, and Kammen, 2005) across Africa. Far 
        from an isolated example, such opportunities exist everywhere, 
        with the recent wave of interest in `sustainability science' 
        (Jacobson and Kammen, 2005) a resource, aid, and business 
        opportunity that the U. S. should embrace.

        <bullet>  Recognize and Reflect Economically the Value of 
        Energy Investment to the Economy. Clean energy production--
        through investments in energy efficiency and renewable energy 
        generation--has been shown to be a winner in terms of spurring 
        innovation and job creation. This should be reflected in 
        federal economic assessments of energy and infrastructure 
        investment. Grants to states, particularly those taking the 
        lead on clean energy systems, should be at heart of the federal 
        role in fostering a new wave of `cleantech' innovation in the 
        energy sector.

        <bullet>  Begin a Serious Federal Discussion of Market-Based 
        Schemes to Make the Price of Carbon Emissions Reflect Their 
        Social Cost. A carbon tax and a tradable permit program both 
        provide simple, logical, and transparent methods to permit 
        industries and households to reward clean energy systems and 
        tax that which harms our economy and the environment. Cap and 
        trade schemes have been used with great success in the U.S. to 
        reduce other pollutants and several northeastern states are 
        experimenting with greenhouse gas emissions trading. Taxing 
        carbon emissions to compensate for negative social and 
        environmental impacts would offer the opportunity to simplify 
        the national tax code while remaining, if so desired, 
        essentially revenue neutral. A portion of the revenues from a 
        carbon tax could also be used to offset any regressive aspects 
        of the tax, for example by helping to compensate low-income 
        individuals and communities reliant on jobs in fossil fuel 
        extraction and production.

Acknowledgments

    This testimony was prepared in collaboration with my students 
Gregory Nemet, Carla Peterman, Sam Arons, Jenn Baka, and Derek Lemoine, 
and with my post-doctoral research fellow Dr. Frank Ling. Additional 
collaboration has and continues to take place with Drs. Jane Long and 
Gene Berry of Lawrence Livermore National Laboratory. This work was 
supported by a grant from the Energy Foundation, the support of the 
Karsten Family Foundation endowment of the Renewable and Appropriate 
Energy Laboratory, and the support of the University of California 
Class of 1935.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


References and Further Reading

Augustine, N.R. (2005). Rising Above the Gathering Storm: Energizing 
        and Employing America for a Brighter Economic Future. 
        Washington, DC, National Academies Press.
Bailis, R., Ezzati, M. and Kammen, D.M. (2005). ``Mortality and 
        greenhouse gas impacts of biomass and petroleum energy futures 
        in Africa,'' Science 308:98-103.
David, P.A., B.H. Hall, et al. (2000). ``Is public R&D a complement or 
        substitute for private R&D? A review of the econometric 
        evidence,'' Research Policy 29(4-5):497-529.
Duke, R.D., and Kammen, D.M. (1999). ``The economics of energy market 
        transformation initiatives,'' The Energy Journal 20(4):15-64.
EPA (2005). Inventory of U.S. Greenhouse Gas Emissions and Sinks: 1990 
        to 2003. Washington, D.C., U.S. Environmental Protection 
        Agency.
Intergovernmental Panel on Climate Change (2001). The Scientific Basis, 
        Cambridge University Press; Cambridge, UK.
Jacobson, A. and Kammen, D.M. (2005). ``Science and engineering 
        research to value the planet,'' The Bridge: the Journal of the 
        National Academy of Engineering, Winter:11-17.
Kammen, D.M. (2005). ``Lack of vision on policy clouds energy future,'' 
        The San Francisco Chronicle B9, May 13.
Kammen, D.M., Kapadia, K. and Fripp, M. (2004). Putting Renewables to 
        Work: How Many Jobs Can the Clean Energy Industry Generate? A 
        Report of the Renewable and Appropriate Energy Laboratory, 
        University of California, Berkeley. Available at: http://
        socrates.berkeley.edu/rael/papers.html#econdev
Kammen, D.M. and G.F. Nemet (2005). ``Reversing the Incredible 
        Shrinking Energy R&D Budget,'' Issues in Science and Technology 
        22:84-88.
Margolis, R. and Kammen, D.M. (1999). ``Underinvestment: The energy 
        technology and R&D policy challenge,'' Science 285:690-692.
Nakicenovic, N., J. Alcamo, et al. (2000). Special Report on Emissions 
        Scenarios, A Special Report of Working Group III of the 
        Intergovernmental Panel on Climate Change. Cambridge, UK, 
        Cambridge University Press.
PCAST (1997). Report to the President on Federal Energy Research and 
        Development for the Challenges of the Twenty-First Century. 
        Washington, Office of the President.
PCAST (1999). Powerful Partnerships: The Federal Role in International 
        Energy Cooperation on Energy Innovation. Washington, Office of 
        the President.
Schock, R.N., W. Fulkerson, et al. (1999 ``How much is Energy Research 
        and Development Worth as Insurance?'' Annual Review of Energy 
        and Environment 24:487-512.
Wigley, T.M.L., R. Richels, et al. (1996) ``Economic and environmental 
        choices in the stabilization of atmospheric CO<INF>2</INF> 
        concentrations,'' Nature 379:240-243.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                                   

</pre></body></html>
